<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________
                    SUBCOMMITTEE ON HOMELAND SECURITY
                  ROBERT B. ADERHOLT, Alabama, Chairman
 JOHN R. CARTER, Texas               DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas         LUCILLE ROYBAL-ALLARD, California
 RODNEY P. FRELINGHUYSEN, New Jersey NITA M. LOWEY, New York
 TOM LATHAM, Iowa                    JOHN W. OLVER, Massachusetts       
 ANDER CRENSHAW, Florida            
 CHARLES W. DENT, Pennsylvania      
                                    

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
               Ben Nicholson, Jeff Ashford, Kris Mallard,
                   Kathy Kraninger, and Miles Taylor,
                            Staff Assistants
                                ________
                                 PART 4
                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Science and Technology Budget....................................    1
 National Protection and Programs Directorate.....................  159
 Terrorist Travel: Programs and Funding...........................  239
 WMD Countermeasures--Threat, Programs and Funding................  251
 Federal Emergency Management Agency..............................  357
 Outside Witnesses................................................  889

                                ________

         Printed for the use of the Committee on Appropriations
                                 PART 4

                                  S&T

                                  NPPD

                                 TTP&F

                                WMDCTP&F

                                  FEMA

                               Out. Wit.

        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2012
                                                                      ?
?

        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION
                                ________
                    SUBCOMMITTEE ON HOMELAND SECURITY
                  ROBERT B. ADERHOLT, Alabama, Chairman
 JOHN R. CARTER, Texas               DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas         LUCILLE ROYBAL-ALLARD, California
 RODNEY P. FRELINGHUYSEN, New Jersey NITA M. LOWEY, New York
 TOM LATHAM, Iowa                    JOHN W. OLVER, Massachusetts      
 ANDER CRENSHAW, Florida             
 CHARLES W. DENT, Pennsylvania      
                                    

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
               Ben Nicholson, Jeff Ashford, Kris Mallard,
                   Kathy Kraninger, and Miles Taylor,
                            Staff Assistants
                                ________
                                 PART 4
                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Science and Technology Budget....................................    1
 National Protection and Programs Directorate.....................  159
 Terrorist Travel: Programs and Funding...........................  239
 WMD Countermeasures--Threat, Programs and Funding................  251
 Federal Emergency Management Agency..............................  357
 Outside Witnesses................................................  889

                                ________
         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 68-060                     WASHINGTON : 2011

                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman
 
 C. W. BILL YOUNG, Florida \1\       NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\         MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia             PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia              NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New Jersey JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                    ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama         JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri            JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                  ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho           DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas         MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida             LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana              SAM FARR, California
 JOHN R. CARTER, Texas               JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana         CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California             STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                  SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio          BARBARA LEE, California
 TOM COLE, Oklahoma                  ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                 MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida          BETTY McCOLLUM, Minnesota          
 CHARLES W. DENT, Pennsylvania       
 STEVE AUSTRIA, Ohio                 
 CYNTHIA M. LUMMIS, Wyoming          
 TOM GRAVES, Georgia                 
 KEVIN YODER, Kansas                 
 STEVE WOMACK, Arkansas              
 ALAN NUNNELEE, Mississippi          
    
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    
                                    
               William B. Inglee, Clerk and Staff Director

                                  (ii)


        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2012

                              ----------                              

                                         Wednesday, March 30, 2011.

                     SCIENCE AND TECHNOLOGY BUDGET

                                WITNESS

HON. TARA O'TOOLE, M.D., M.P.H., UNDER SECRETARY FOR SCIENCE AND 
    TECHNOLOGY DIRECTORATE, DEPARTMENT OF HOMELAND 
    SECURITY

                  Opening Statement: Chairman Aderholt

    Mr. Aderholt. The hearing is called to order. This 
afternoon we welcome Under Secretary Tara O'Toole in her second 
appearance before this subcommittee as we examine the 
President's fiscal year 2012 budget to fund the Directorate of 
Science and Technology.
    A literally young enterprise, Science and Technology was 
established in 2003 with the new Department of Homeland 
Security, with its primary mission to ensure that the 
Department of Homeland Security, its agencies, and the border 
homeland security community can benefit from the applications 
of science and technology.
    As it has evolved as a component of the Department, Science 
and Technology has touched on virtually all activities of the 
Department of Homeland Security and has established an 
organizational structure that aligns with them.
    We have had long-standing concerns about whether Science 
and Technology is striking the right balance between long-term 
basic research and targeting near-term research for 
technologies that are ripe for deployment.
    There is no question some DHS research may not have a home 
anywhere else than DHS itself. It may not be a priority for 
other Federal agencies. It may have a long-time horizon or may 
lack a commercial market that could attract private funding. 
Still, such research may have value and should be considered 
when looking at S&T plans.
    However, there seems to be an implicit consensus that 
Science and Technology should concentrate on fielding 
technology its customers' need, a view I believe you endorse, 
Dr. O'Toole. I hope to hear today about the concrete impacts 
Science and Technology can point to, particularly for critical 
missions involving border and travel security, biometrics, and 
infrastructure protection.
    Science and Technology's approach to technology is to serve 
as a reliable and transparent clearinghouse for private-sector 
homeland security related research. Despite there being 
specific examples where Science and Technology has helped 
discover or accelerate development, testing, or review of such 
technology, there remains a perception in the private sector 
that Science and Technology and the Department of Homeland 
Security agencies who procure technologies remain difficult to 
connect with.
    Today I hope you will address this in tangible ways in 
which the Department of Homeland Security and Science and 
Technology in particular are working to attract and be more 
accessible to private-sector initiatives. More than anything, 
Science and Technology has to sell itself to Congress as a good 
investment and not a place where ideas may be generated only to 
be ignored by front-line operators.
    Last month's House action on H.R. 1 showed that many in 
Congress are uninformed about Science and Technology. Science 
and Technology needs more effective outreach about what it does 
and how the multibillion dollar investment in the enterprise is 
valuable to producing results. Until Science and Technology's 
role can be made more visible and its impact demonstrated more 
concretely, you will likely face challenges from those who are 
unfamiliar with your work and will question the value of 
funding research and development over other operational 
programs.
    Dr. O'Toole, we look forward to your testimony this 
afternoon. I know that you have your written record that you 
will present to us shortly, and it will be placed into the 
record in its entirety. Maybe take 5 minutes to summarize it in 
a few minutes.
    But before we call on you, I would like to recognize Mr. 
Price, who is our ranking member, for his opening remarks as 
well.
    Mr. Price. Thank you, Mr. Chairman.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8060A.001
    
    [GRAPHIC] [TIFF OMITTED] T8060A.002
    
    [GRAPHIC] [TIFF OMITTED] T8060A.003
    
                 Opening Remarks: Ranking Member Price

    Mr. Price.  Thank you, Mr. Chairman.
    Dr. O'Toole, I am glad to welcome you to the Subcommittee 
to testify once again on the importance of research and 
development initiatives to address gaps in homeland security. 
Your fiscal year 2012 budget request totals $1.176 billion, 
which is 16 percent above the fiscal year 2010 enacted level. 
However, once you factor out the $150 million requested for the 
initial construction of the National Bio and Agro-Defense 
Facility, the funding levels for ongoing research programs is 
about the same as what the administration requested last year.
    Our research and development efforts are critical to making 
the homeland more secure, and it is important that the 
resources we devote to R&D help to anticipate threats, rather 
than to merely respond. Time and time again, after a threat or 
event occurs, numerous companies come forward offering the 
solution to the latest problem. But really what we should be 
doing is thinking about what threats and vulnerabilities exist 
before events occur, which will permit us to have the 
technology already on our radar screens so that we can rapidly 
respond. There is an obvious case in point. After the Christmas 
Day bombing attempt, TSA was able to decide very quickly to 
procure advanced imaging technology to look for nonmetallic 
threats on a person because the agency had already been testing 
these systems successfully in limited operational settings.
    Since you assumed your position, you have looked at S&T's 
roles and responsibilities with a critical eye. Your 
predecessor took a proactive stance, seeking to ensure that the 
research S&T undertook was relevant to the operational needs of 
DHS components, and I know you have been continuing this hard 
look.
    As I understand it, you have asked your Directorate to do 
three things:
    First, annually review all basic and applied research and 
development activities as well as all of your proposed ``new 
start'' projects to make sure they are still necessary and to 
make sure we are not replicating research done either by other 
Federal Government entities or by other DHS agencies;
    Secondly, to survey scientific discoveries and inventions 
relevant to existing and emerging homeland security challenges;
    And, third, to more closely align your work with the needs 
of DHS components so that the end product is a technology that 
the agency itself will use in an operational environment. Now, 
the result of this hard look is a proposed reorganization of 
S&T that segregates research and development activities into 
innovation and acquisition efforts, keeping the university and 
laboratory programs intact. It also means that S&T may be 
involved beyond the research and development phase, for example 
by participating in operational testing and piloting of new 
technologies. Ultimately, this may mean--at least as I 
understand it--that S&T may be evaluating fewer concepts but 
that the ones they do assess are more apt to be used every day.
    Today, I look forward to discussing your proposed 
reorganizations so that we can get a better understanding of 
how S&T will identify and select promising technologies for 
further development and how you can find ways to efficiently 
leverage existing technologies into new uses as rapidly as 
possible. At the same time, I want to explore further some of 
the proposals in your 2012 budget request, including plans for 
the National Bio and Agro-defense Facility, human factors 
research--exactly where we stand on that--and disaster 
resiliency.
    As we begin to more closely examine your 2012 budget, it is 
important to note that no program is off limits to scrutiny. 
Our obligation is to take a balanced, realistic approach, to 
weigh risks carefully, and to make prudent investments. Dr. 
O'Toole, I have no doubt that you share this point of view; and 
I look forward to continuing to work with you and look forward 
to your testimony today.
    Mr. Aderholt. Thank you, Mr. Price.
    Dr. O'Toole, we look forward to your testimony. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8060A.004
    
    [GRAPHIC] [TIFF OMITTED] T8060A.005
    
    [GRAPHIC] [TIFF OMITTED] T8060A.006
    
                Opening Remarks: Under Secretary O'Toole

    Dr. O'Toole. Thank you, Mr. Chairman, Ranking Member Price. 
I appreciate the opportunity to be before you today and discuss 
the DHS's Directorate of Science and Technology. Mr. Chairman, 
we spend about 20 percent of our R&D budget on basic research 
and the remainder on more applied development of knowledge, 
products, and technology. And, as you say, we cover the entire 
range of DHS's extraordinary span of missions in terms of 
supplying knowledge, products, scientific expertise, and 
technology to the DHS missions. I recognize that these are 
tough economic times, as you say, Congressman Price, and that 
we have to be responsible stewards of taxpayers' money and do 
our work efficiently and cost effectively.
    I would like to briefly review some of the initiatives we 
have taken since I became Under Secretary in November of 2009, 
a few of which have already been touched upon.
    The top priority in our strategic plan is to rapidly 
develop and transition our technologies and knowledge products 
to use in the field. This reflects the enormous operational 
needs of DHS for new technology products and for scientific 
analyses of its work and of its options. The best analysis, the 
most advanced technology in the world, is of no use unless it 
is actually in routine use by someone.
    So moving innovative solutions from the lab bench or the 
prototype stage into routine use, crossing the so-called 
``valley of death'', is a challenge to all R&D organizations; 
and for many reasons it is particularly so in DHS. We are 
trying to bridge this gap in several ways.
    First of all, as you said, Congressman Price, we have 
instituted an annual review of our entire basic and applied R&D 
portfolio, including all ``new start'' projects. We asked 
internal and external experts to assess each project according 
to a set of criteria which we developed along with our partners 
in the components, which essentially gauge impact and 
feasibility or riskiness of every project. This allows us to 
measure all of our projects against a single framework 
regardless of the topical area of the project and also enables 
a more strategic approach to budget decisions.
    We have already used the results of the portfolio review, 
which we have done twice, to concentrate R&D funds on fewer 
projects to improve delivery of capabilities to end users and 
to reprioritize projects to redirect funding to better address 
the needs of our partners in the operational components.
    So, for example, the first review identified three programs 
with a similar focus on cargo and container screening. We were 
allowed by this review to combine all three projects into a 
single project, creating synergies and cost savings; and we 
took that money and redirected it.
    We also identified a high-impact explosives division 
project which was aimed at new computer software to improve 
detection capabilities of our x-ray and AIT machines. We 
increased funding of that project in order to speed its 
deployment. And, in fact, there is a new software program in 
use today, or going into use today, in the AIT machines which 
will reduce privacy concerns.
    Secondly, we have realigned the Directorate's 
organizational structure, which I think also serves our primary 
goal of transitioning more rapidly to use. I have executed one 
Federal reorganization and had no desire to do another one. But 
I think that this realignment actually does serve our strategic 
purposes.
    First of all, it is in line with the National Academy of 
Public Administration's 2009 top recommendation to reduce the 
number of reports to the Under Secretary. We did that, reducing 
it from 21 to 10. And, as I said, it directly supports our 
strategic goals.
    First of all, it is pretty well accepted in R&D circles 
that innovation comes from the seams between technical 
disciplines. So we recombined all of our technical divisions 
into a single group, which is known as HSARPA. This is going to 
make it a lot easier for our biologists and our engineers and 
our explosive experts and so forth to work together 
collaboratively in multidisciplinary teams, and these multi-
faceted teams are actually what is required to really solve 
some of the complex problems DHS is facing. We also have 
initiated what we call APEX projects. These are very high-
priority, high-value, fast-turnaround projects, again using 
multidisciplinary teams, which only go forward if there is a 
charted agreement between myself and the head of the component. 
These aim to solve real, urgent problems that the component 
head thinks are important. We have one APEX project going on 
with the Secret Service and another beginning with the Customs 
and Border Protection groups. We have also recognized that the 
special needs of first responders and our partners in State and 
local governments are different from those of the operating 
components, and we have established a dedicated office to serve 
them. This is being headed up by a career first responder, a 
former fire chief of Louden County, who also has a Ph.D.; and I 
think this organization is going to better enable us to meet 
the critical needs of that important set of groups.
    As was mentioned, we are working with the DHS Under 
Secretary of Management and the components to leverage S&T's 
technical skills--again, we are the core group of science and 
engineering expertise in DHS--to improve the front end of the 
acquisition process by helping the components to formulate 
clear requirements stemming from their mission needs. This will 
enable us to much more readily develop technologies that will 
serve their actual needs.
    We are already engaged by statute in the back end of the 
acquisition process, the testing and evaluation part of 
acquiring new technologies, but by the time you get to testing 
and evaluation, if you haven't established appropriate 
requirements, you may end up not getting the technology that 
you need or it may not work in the conditions in which you need 
to operate. we are also trying to instill a more systems 
engineering based approach to DHS operations in this new Office 
of Acquisitions and Analysis, and we have a new leader for that 
group who is the former head of acquisitions at FAA.
    Another important initiative--and this goes to your 
comments, Mr. Chairman, about the importance of connecting with 
the commercial sector and others, including the interagencies--
we intend to become ``best in class'' at technology foraging.
    Now we already do partner with the private sector, with 
other Federal agencies, with universities, and with other 
governments abroad, for that matter, and try to leverage their 
investments in R&D against the needs of DHS. In fact, we won 
two SBIR awards last year for our work. But it is really 
difficult to know who is doing what in the R&D community.
    This is a global community. It is churning out new products 
all the time, and it is difficult to keep up with. What we want 
to do is become best in class at surveying this dynamic and 
expanding world, identifying potential partners, discovering 
technologies in late-stage development which we might adopt or 
adapt for new purposes, new environmental conditions, or new 
scales.
    This effort, the technology foraging effort, is going to be 
based in the new Office of R&D Partnerships which will serve as 
an easy-to-use portal through which the rest of the world can 
access S&T. We are trying to make it much easier for commercial 
partners to work with S&T. There are a lot of them. There are a 
lot of potential commercial partners. And the small companies, 
which are often the most innovative, have a different series of 
difficulties working with government than do the large 
integrators; and universities have a different set of talents 
and problems in connecting up with government.
    But we are, for example, establishing industry days and 
other ways to make a better connection with the commercial 
sector as well as having established a new partnership with In-
Q-Tel.
    In sum, as you said, we are a young agency. I think we have 
much to show for ourselves. Although I agree with you, Mr. 
Chairman, we have done a bad job of branding S&T products; and 
we hope to do better. I think we are evolving. I think these 
initiatives will make us stronger.
    And I look forward to your questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8060A.007
    
    [GRAPHIC] [TIFF OMITTED] T8060A.008
    
    [GRAPHIC] [TIFF OMITTED] T8060A.009
    
    [GRAPHIC] [TIFF OMITTED] T8060A.010
    
    [GRAPHIC] [TIFF OMITTED] T8060A.011
    
    [GRAPHIC] [TIFF OMITTED] T8060A.012
    
    [GRAPHIC] [TIFF OMITTED] T8060A.013
    
    [GRAPHIC] [TIFF OMITTED] T8060A.014
    
    [GRAPHIC] [TIFF OMITTED] T8060A.015
    
    [GRAPHIC] [TIFF OMITTED] T8060A.016
    
    [GRAPHIC] [TIFF OMITTED] T8060A.017
    
    [GRAPHIC] [TIFF OMITTED] T8060A.018
    
    [GRAPHIC] [TIFF OMITTED] T8060A.019
    
    [GRAPHIC] [TIFF OMITTED] T8060A.020
    
    Mr. Aderholt. Thank you for your testimony.
    We will move now into the questioning portion of the 
hearing, and I will begin with the first question regarding the 
priorities and some of the things that are your priorities 
there at S&T. Science and Technology faces many competing 
priorities. Yet, because they are finite resources, your 
Directorate and our committee are forced to make tough 
decisions about which areas are most crucial and most critical 
to fund. In this light, please discuss with the committee your 
top research priorities for fiscal year 2012 and what you 
believe are the Department's biggest capability gaps.

                             S&T PRIORITIES

    Dr. O'Toole. That is a tough question to answer, for the 
reasons you state.
    We face a huge need across a broad horizon of missions in 
DHS. I think it is fair to say that top priorities in the 
Department right now include aviation security, cybersecurity, 
preventing and being prepared to respond to an attack using 
either a biological weapon or a nuclear weapon, an IND, for 
example. Or now we are also, of course, with others in the 
government worried about nuclear accidents at power plants. And 
we also have to worry, of course, about border security. There 
are many moving parts under those large headings, but I think 
those are the big priorities. In terms of standout gaps in R&D, 
we would love to be able to detect explosives without touching 
anybody, without opening your laptop as you go through checkout 
or the checkpoint or taking off your shoes. That is a very 
difficult scientific problem on which we are making progress.
    We would like to know a lot more about signals, observable 
signals of human behavior that would indicate malintent. This 
goes, for example, to the core of suicide bomber detection.
    There is a lot to do in terms of biological defense. S&T's 
particular bailiwick has been detection. I think we have very 
persuasive data that show that we need to create the 
possibility of real-time detection of a biological weapon so 
that, for example, if it were discovered in a subway that 
Anthrax or another pathogen would be released we could 
immediately shut that subway down. Not 10 minutes later, not an 
hour later, but immediately. And we are striving for that, but 
we are not there yet.
    Mr. Aderholt. The priorities you mentioned I think are very 
good priorities, but have you aligned those priorities with 
your budget? And how do you measure Science and Technology's 
ability to address those priorities?
    Dr. O'Toole. Yes. And this is the purpose and the 
usefulness of the portfolio review.
    The criteria that we use in assessing a project include, 
for example, the impact of a project, a number of different 
ways of getting at the impact, including does a customer want 
this, is there a transition plan, how likely are we to really 
move this from prototype into widespread use. And we also 
assess feasibility. So somebody might have a really wild idea 
which, if we could bring it to fruition, would be terrific, but 
it is just not going to happen in the next 5 years, in which 
case it would score lower.
    And, again, we use people from the components as well as 
outside experts to do the scoring. We use those assessments to 
award funding or to take it away. And we have eliminated 
projects on the basis of the portfolio as well, as I said, 
plussing some up to speed transition or because we think this 
is a high-impact project.

                             CYBERSECURITY

    Mr. Aderholt. You mentioned in your opening remarks about 
cybersecurity. The committee applauds the budget's increased 
emphasis on cybersecurity, and that is a subject we will 
actually address in another hearing later this week, but what 
critical cybersecurity needs does S&T plan to address with 
additional funding?
    Dr. O'Toole. We are focusing on trying to make the Internet 
more secure for users. So, for example, we have worked on a 
project called DNSSEC, domain name security, which is intended 
to assure that, when you go to a Web site, that is the Web site 
you really hook up with and to, you know, diminish the 
possibility that when you are trying to reach your bank 
somebody else is diverting your messages to their Web site.
    This particular tool has been adopted by many major 
companies, including--incorporated, for example, into Microsoft 
7.
    We also have a couple of tools that are intended to 
increase our situational awareness of attacks on the Internet. 
So, for example, we have tools that detect people who are 
trying to hijack messages as they are relayed from one router 
to the next to their generation, as happened, for example, 
recently when for about 15 minutes all Facebook pages were 
being shunted to China. So those are two examples.
    We also have established a test bed for commercial 
companies to come in and try out their own defenses against 
cyberattacks. Obviously, you don't want to try out attacks and 
ways to stop them on the real Internet, because unforeseen bad 
things could happen. But you have to create a test bed that is 
large enough to actually mimic the Internet. So we have done 
that, and a lot of companies in the private sector have been 
coming in testing their own vulnerabilities as well as their 
own products. And one such product actually was developed by a 
company that subsequently got bought out by a big company.
    Mr. Aderholt. I have got some more questions, but we are 
going to have votes here in a few minutes, so let me go ahead 
and recognize Mr. Price.
    Mr. Price. Thank you, Mr. Chairman. Madam Secretary, let me 
ask you to help us understand the import of this reordering of 
the Directorate's agenda. As you said, there has been a fair 
amount of this in the history of the Department, and I know you 
wouldn't just needlessly undertake another review, so I am sure 
you have thought about this and rationalized it thoroughly. I 
just want to make sure that we understand it and understand the 
impact of this on your budget priorities. I am going to refer 
you here to your printed statement by way, I hope, of bringing 
out the rationale here.
    You have stressed the division of these research priorities 
into two broad categories: Research, development, and 
innovation, on the one hand; acquisition and operations 
support, on the other hand; and then of course keeping the 
laboratory facilities and the university program components 
pretty much as they are. And then the usual breakdown that we 
are accustomed to of topics of mission-related research is 
detailed under these headings.
    One big question, I gather you talk a lot about the 
``valley of death'' and the need to pay more attention to that 
area between innovation and deployment. I gather that is one 
reason for this focus on what you call acquisitions and 
operations support; and yet that is an area where your overall 
budget actually goes down, although there is some variation 
within the subheads under that item. Then when you come to the 
more familiar list for research, development, and innovation, 
there are some striking changes. I know in your budget 
justifications you go into this in more detail, so I am really 
asking you to perhaps help us get the bigger picture here.
    There are some areas that you list as having no funding at 
present that you are wanting to invest in, radiation and 
nuclear detection, for example, radiation nuclear resiliency. 
There is one that we really don't need to have explained, I 
think, the cybersecurity emphasis. I think we all agree that is 
going to be a matter of increased emphasis. You have some major 
reductions here: Natural disaster resiliency cut by two-thirds. 
The hostile behavior prediction and detection, one component of 
the human factor's portfolio, goes from $22.7 to $14.6 million 
and so forth.
    I am not really asking you to get too much into the weeds 
of these individual items. We will have plenty of time to do 
that. What I am asking you is, to what extent are these changes 
and these budget priorities a function of this reordering that 
you seem to put considerable stock in?
    I am not certain I understand the rationale. And so the 
rationale is one thing but also the kind of budget consequences 
and the relative focus on different missionaries, I don't think 
we understand either. At least we need to understand it more 
fully.

                              R&D FUNDING

    Dr. O'Toole. Okay. Fair question. First of all, I think the 
drop in the Office of Acquisitions and Operational Support is 
because of a one-time cost to the testing and evaluation and 
standards group that came in Fiscal Year 2010 that is not 
reflected in the current budget, but they have not been 
diminished in any way.
    The R&D funding for particular projects follows the 
portfolio review. We are asking for a different structure for 
our budget lines so that we can have a much more transparent 
layout of the projects that we are funding.
    Mr. Price. Let me just interrupt you there.
    You do use that term and, of course, we understand 
transparency is an important value. You are talking here about 
the ability to track and assess our progress, though. I mean, 
transparency in that sense more than the usual sense of 
transparency to the public or accountability in that broader 
sense?
    Dr. O'Toole. It would be both, and the latter is very 
important in informing the commercial sector as to what we are 
up to and what we are interested in.
    But what we would do is we would put all of our R&D under a 
single budget line; and we would then fund projects, whether it 
is disaster resilience or biodefense, according to our 
customers' needs and priorities, which do shift, and our 
ability to meet them.
    So disaster resiliency, for example, is devoutly desired by 
all of us, especially these days when we are watching Japan 
struggle with its trifecta of disasters. But we do not see many 
near-term, cost-effective ways that S&T can address that right 
now.
    One of the problems with projects and disaster resiliency, 
and we have developed several good products for disaster 
resiliency, and I will mention one, is that they mostly pertain 
to the critical infrastructure, to improving critical 
infrastructure. And that lies in private hands. So it is 
difficult to transition, for example, a device that will plug a 
damaged levee to municipalities that don't have any money to 
buy it. We invented such a device, and it works as far as we 
can tell, but we are having a hard time transitioning.
    So if transition to use is one of our priorities then those 
projects which lend themselves to transition are more likely to 
get funded. But this would be flexible. The acquisition 
emphasis is due to the fact that we have seen many technology 
acquisitions in DHS fail because they didn't start out with 
clear, specific, detailed requirements in the first place; and 
they would go way down the path of acquiring a technology only 
to find that it wouldn't work or it wouldn't work in the 
conditions in which it had to operate. So we think we can 
leverage S&T's technical expertise much more effectively if we 
worked as advisors on the front end when the components are 
deciding how to translate their mission needs into requirements 
for new technology and save DHS a lot of money, a lot of grief, 
and be very successful in getting the Components what they 
need, whoever develops the technology, whether it is S&T or the 
commercial sector or whomever.
    So this is not an expensive proposition, because we are 
basically acting as coaches in the acquisition office. We are 
not developing new technologies. We are not paying laboratories 
and so on and so forth.
    Is that helpful?
    Mr. Price. I think the key word here is support, 
acquisition and operation support, a kind of informing of that 
process.
    Mr. Aderholt. I want to make sure Mr. Dent gets a question 
here. It is 15 minutes before the vote.
    So to Mr. Dent.
    Mr. Dent. Thanks, Mr. Chairman; and, Madam Secretary, thank 
you for being here.
    In your written testimony, you articulate the need to equip 
our first responders with various tools to manage and execute 
their responsibilities in the midst of a terrorist attack or 
natural disaster or hazards approach. Can you describe the 
status of each program, including the self-contained breathing 
apparatus, the geospacial location accountability and 
navigation system for emergency responders, and the portable 
interoperable tactical operations center? Is S&T currently 
piloting each program? And, if so, what is the expected date to 
transition the project from a pilot to a commercially available 
technology?
    Dr. O'Toole. Thank you, Congressman.

                   SELF-CONTAINED BREATHING APPARATUS

    Yes, we are working on all three of those programs. They 
are actually in late stages of development. The self-contained 
breathing apparatus is something first responders have been 
seeking for decades, actually; and what we have developed is a 
much smaller, lighter, more ergonomic self-contained air tank 
that fits on your back.
    Firefighters in particular have had difficulty fitting into 
tight spaces with the old models. This one supplies as much air 
but would be much easier to use, and this spring it is actually 
going into testing with the fire service and in the Chicago 
Fire Department.

                      GEOSPATIAL LOCATION DEVICES

    The second device you mentioned is an effort to develop a 
kind of beeper that would locate firefighters in particular 
when they are working in areas that don't have transponders, 
so, for example, very high-rise buildings in urban settings. We 
have lost some firefighters in the past because their 
colleagues couldn't get to them once they ran into trouble.

                  PORTABLE EMERGENCY OPERATIONS CENTER

    And the third is actually a two-part effort that includes a 
rapidly portable emergency operation center that you could 
literally carry to where it is needed and set up very quickly 
complete with communications gear and power supplies.
    Mr. Dent. How much funding is associated with those 
efforts? Do you know?
    Dr. O'Toole. I would have to get back to you on that, Mr. 
Dent.
    Mr. Dent. That is fine.
    [The information follows:]

    Mr. Dent. How much funding is associated with those efforts? Do you 
know?
    Dr. O'Toole. I would have to get back to you on that, Mr. Dent.
    Mr. Dent. That is fine.

    Response: Funding noted below.

          <bullet> Self-Contained Breathing Apparatus

                  <ctr-circle> FY 2005: $1,793,820
                  <ctr-circle> FY 2006: $206,208
                  <ctr-circle> FY 2008: $263,938
                  <ctr-circle> FY 2009: $233,733
                  <ctr-circle> FY 2010: $225,000

          <bullet> Geospatial Location Accountability and Navigation 
        System

                  <ctr-circle> FY 2009: $1,950,600
                  <ctr-circle> FY 2010: $2,960,606
                  <ctr-circle> FY 2011 (Request): $3,112,757
                  <ctr-circle> FY 2012 (Request): $3,358,598

          <bullet> Portable Interoperable Tactical Operations Center

                  <ctr-circle> FY 2004: $380,200
                  <ctr-circle> FY 2005: $730,025

                          RADIATION DETECTORS

    Mr. Dent. And, also, just on the issue of chemical, 
biological, radiological, nuclear attacks, what is the status 
of an intelligent personal radiation locator program and who is 
going to receive those pocket-size locators? I know the 
Japanese and others are pretty much purchasing them right now, 
as you can imagine. Is there any consideration for our first 
responders to get some of those same types of devices or 
equipment?
    Dr. O'Toole. Yes. There have been several generations of 
radiation detectors over the years, and I think most fire 
departments and police departments have some version of 
radiation detectors.
    The project you referred to is in its early stages and is 
an attempt to network individuals wearing these devices. So 
that if you were, for example, looking for an improvised 
nuclear device and you had a team of people out walking around, 
their radiation levels, the radiation that they were seeing 
with their devices, would be transmitted back to a central 
source and you could start to triangulate where a source might 
be.
    The device you are talking about also is a more sensitive 
detector of certain kinds of radiation like gamma rays and 
neutrons. We are not there yet, but there is no question there 
has been progress in belt-worn radiation devices over the 
years.
    Mr. Dent. I yield back.

                 NATIONAL BIO AND AGRO-DEFENSE FACILITY

    Mr. Aderholt. I am going to ask one brief question, and 
then the remaining time I want to give to Mr. Price. I know he 
has got a few more questions. The rest of mine I can submit for 
the record, since we have a vote on.
    But I do want to ask you about the National Bio and Agro-
defense Facility. And, of course, the request for $150 million 
for the construction indicates that it is a priority for you, 
but the central utility project has been delayed. What is the 
current project timeline? And in your assessment will it be 
done by 2018?
    Dr. O'Toole. We cannot begin working on the CUP until we 
either get a fiscal year 2011 budget and permission from 
Congress to proceed with construction or we get permission from 
Congress and Kansas decides that it will spend the remainder of 
its funds on building the CUP, which is unlikely.
    The schedule is probably going to be more impacted by the 
delay in waiting for the risk assessment requested by NAS than 
by the funding for the CUP. So we actually may make it to 2018 
or it may be delayed by a year at this point. It is very 
difficult to say.
    Mr. Aderholt. Thank you.
    Mr. Price.
    Mr. Price. Well, let me just follow up on that. I have 
questions I, too, will submit for the record. But, as you know, 
the National Academy of Sciences did take a look at this 
project; and they came up with a rather high figure in terms of 
the risk of the release of the foot-and-mouth disease virus 
within the next 50 years.
    Now there are lots of concerns about that study, with some 
feeling I think that it exaggerates the risk because it doesn't 
consider mitigation strategies that will be included in the 
design and construction of the lab. But, nonetheless, a 
reassessment does clearly need to occur. You simply cannot have 
assessment findings out there that aren't effectively dealt 
with.
    All the versions that we have of the 2011 appropriations 
bill have called for safety and security reassessment, although 
they vary somewhat in the degree in which they make funding 
contingent on that assessment. But just abbreviating this here 
because of our time pressure, what further assessment do you 
believe is necessary and on what time schedule. Won't that need 
to apply to the entire facility, including the central utility 
plan? I mean, if there are going to be problems with respect to 
the entire facility--and we hope and believe there won't be in 
the end--wouldn't you want to have the assurances in place 
before you construct any component, including the utility 
plant?
    Dr. O'Toole. Well, first of all, for the record, the 
National Academy also, as you know, Congressman, stated very 
strongly that the country needs a facility like this.
    Mr. Price. I don't think there is any disputing that on 
this subcommittee. That has been our position all along.
    Dr. O'Toole. I appreciate that.
    In building a facility like this, which is fairly complex, 
we and others have done it before. It is actually better to 
have iterative risk assessment, as we were doing, so that you 
can actually build in safeguards as you get closer and closer 
to a complete design. We are, I think, about 35 percent 
complete in our design at this point, and what you want to know 
as you go forward are what are the vulnerabilities that we need 
to be looking out for. I expect that there will be a lot of 
people going back and looking at earthquake vulnerabilities in 
all kinds of settings in the next few months and years.
    So doing iterative risk assessments is not a bad idea if 
you use them to inform your thinking, but it doesn't make sense 
to assume that you are never going to mitigate anything you 
turn up as a risk as the National Academy did, and you need to 
do it at the end when you have all of your safeguards in place, 
not just those engineered protective devices but also your 
plans and your response protocols and so forth.
    Mr. Price. I know we need to go. I am going to ask you to 
elaborate that for the record in some detail, and we will work 
with you as to what that answer might entail.
    Mr. Aderholt. Thank you, Mr. Price.
    Dr. O'Toole, they just called the votes. Looks like we are 
going to be in a series of votes. So, in reference to your 
schedule and, of course, I know the members of the committee, 
we will adjourn the committee.
    But we will be probably submitting more than usual 
questions for the record because our time was limited here at 
the committee today. But we do thank you for your appearance 
and we look forward to hearing your testimony for the record.
    Mr. Aderholt. Thank you very much.

    [GRAPHIC] [TIFF OMITTED] T8060A.021
    
    [GRAPHIC] [TIFF OMITTED] T8060A.022
    
    [GRAPHIC] [TIFF OMITTED] T8060A.023
    
    [GRAPHIC] [TIFF OMITTED] T8060A.024
    
    [GRAPHIC] [TIFF OMITTED] T8060A.025
    
    [GRAPHIC] [TIFF OMITTED] T8060A.026
    
    [GRAPHIC] [TIFF OMITTED] T8060A.027
    
    [GRAPHIC] [TIFF OMITTED] T8060A.028
    
    [GRAPHIC] [TIFF OMITTED] T8060A.029
    
    [GRAPHIC] [TIFF OMITTED] T8060A.030
    
    [GRAPHIC] [TIFF OMITTED] T8060A.031
    
    [GRAPHIC] [TIFF OMITTED] T8060A.032
    
    [GRAPHIC] [TIFF OMITTED] T8060A.033
    
    [GRAPHIC] [TIFF OMITTED] T8060A.034
    
    [GRAPHIC] [TIFF OMITTED] T8060A.035
    
    [GRAPHIC] [TIFF OMITTED] T8060A.036
    
    [GRAPHIC] [TIFF OMITTED] T8060A.037
    
    [GRAPHIC] [TIFF OMITTED] T8060A.038
    
    [GRAPHIC] [TIFF OMITTED] T8060A.039
    
    [GRAPHIC] [TIFF OMITTED] T8060A.040
    
    [GRAPHIC] [TIFF OMITTED] T8060A.041
    
    [GRAPHIC] [TIFF OMITTED] T8060A.042
    
    [GRAPHIC] [TIFF OMITTED] T8060A.043
    
    [GRAPHIC] [TIFF OMITTED] T8060A.044
    
    [GRAPHIC] [TIFF OMITTED] T8060A.045
    
    [GRAPHIC] [TIFF OMITTED] T8060A.046
    
    [GRAPHIC] [TIFF OMITTED] T8060A.047
    
    [GRAPHIC] [TIFF OMITTED] T8060A.048
    
    [GRAPHIC] [TIFF OMITTED] T8060A.049
    
    [GRAPHIC] [TIFF OMITTED] T8060A.050
    
    [GRAPHIC] [TIFF OMITTED] T8060A.051
    
    [GRAPHIC] [TIFF OMITTED] T8060A.052
    
    [GRAPHIC] [TIFF OMITTED] T8060A.053
    
    [GRAPHIC] [TIFF OMITTED] T8060A.054
    
    [GRAPHIC] [TIFF OMITTED] T8060A.055
    
    [GRAPHIC] [TIFF OMITTED] T8060A.056
    
    [GRAPHIC] [TIFF OMITTED] T8060A.057
    
    [GRAPHIC] [TIFF OMITTED] T8060A.058
    
    [GRAPHIC] [TIFF OMITTED] T8060A.059
    
    [GRAPHIC] [TIFF OMITTED] T8060A.060
    
    [GRAPHIC] [TIFF OMITTED] T8060A.061
    
    [GRAPHIC] [TIFF OMITTED] T8060A.062
    
    [GRAPHIC] [TIFF OMITTED] T8060A.063
    
    [GRAPHIC] [TIFF OMITTED] T8060A.064
    
    [GRAPHIC] [TIFF OMITTED] T8060A.065
    
    [GRAPHIC] [TIFF OMITTED] T8060A.066
    
    [GRAPHIC] [TIFF OMITTED] T8060A.067
    
    [GRAPHIC] [TIFF OMITTED] T8060A.068
    
    [GRAPHIC] [TIFF OMITTED] T8060A.069
    
    [GRAPHIC] [TIFF OMITTED] T8060A.070
    
    [GRAPHIC] [TIFF OMITTED] T8060A.071
    
    [GRAPHIC] [TIFF OMITTED] T8060A.072
    
    [GRAPHIC] [TIFF OMITTED] T8060A.073
    
    [GRAPHIC] [TIFF OMITTED] T8060A.074
    
    [GRAPHIC] [TIFF OMITTED] T8060A.075
    
    [GRAPHIC] [TIFF OMITTED] T8060A.076
    
    [GRAPHIC] [TIFF OMITTED] T8060A.077
    
    [GRAPHIC] [TIFF OMITTED] T8060A.078
    
    [GRAPHIC] [TIFF OMITTED] T8060A.079
    
    [GRAPHIC] [TIFF OMITTED] T8060A.080
    
    [GRAPHIC] [TIFF OMITTED] T8060A.081
    
    [GRAPHIC] [TIFF OMITTED] T8060A.082
    
    [GRAPHIC] [TIFF OMITTED] T8060A.083
    
    [GRAPHIC] [TIFF OMITTED] T8060A.084
    
    [GRAPHIC] [TIFF OMITTED] T8060A.085
    
    [GRAPHIC] [TIFF OMITTED] T8060A.086
    
    [GRAPHIC] [TIFF OMITTED] T8060A.087
    
    [GRAPHIC] [TIFF OMITTED] T8060A.088
    
    [GRAPHIC] [TIFF OMITTED] T8060A.089
    
    [GRAPHIC] [TIFF OMITTED] T8060A.090
    
    [GRAPHIC] [TIFF OMITTED] T8060A.091
    
    [GRAPHIC] [TIFF OMITTED] T8060A.092
    
    [GRAPHIC] [TIFF OMITTED] T8060A.093
    
    [GRAPHIC] [TIFF OMITTED] T8060A.094
    
    [GRAPHIC] [TIFF OMITTED] T8060A.095
    
    [GRAPHIC] [TIFF OMITTED] T8060A.096
    
    [GRAPHIC] [TIFF OMITTED] T8060A.097
    
    [GRAPHIC] [TIFF OMITTED] T8060A.098
    
    [GRAPHIC] [TIFF OMITTED] T8060A.099
    
    [GRAPHIC] [TIFF OMITTED] T8060A.100
    
    [GRAPHIC] [TIFF OMITTED] T8060A.101
    
    [GRAPHIC] [TIFF OMITTED] T8060A.102
    
    [GRAPHIC] [TIFF OMITTED] T8060A.103
    
    [GRAPHIC] [TIFF OMITTED] T8060A.104
    
    [GRAPHIC] [TIFF OMITTED] T8060A.105
    
    [GRAPHIC] [TIFF OMITTED] T8060A.106
    
    [GRAPHIC] [TIFF OMITTED] T8060A.107
    
    [GRAPHIC] [TIFF OMITTED] T8060A.108
    
    [GRAPHIC] [TIFF OMITTED] T8060A.109
    
    [GRAPHIC] [TIFF OMITTED] T8060A.110
    
    [GRAPHIC] [TIFF OMITTED] T8060A.111
    
    [GRAPHIC] [TIFF OMITTED] T8060A.112
    
    [GRAPHIC] [TIFF OMITTED] T8060A.113
    
    [GRAPHIC] [TIFF OMITTED] T8060A.114
    
    [GRAPHIC] [TIFF OMITTED] T8060A.115
    
    [GRAPHIC] [TIFF OMITTED] T8060A.116
    
    [GRAPHIC] [TIFF OMITTED] T8060A.117
    
    [GRAPHIC] [TIFF OMITTED] T8060A.118
    
    [GRAPHIC] [TIFF OMITTED] T8060A.119
    
    [GRAPHIC] [TIFF OMITTED] T8060A.120
    
    [GRAPHIC] [TIFF OMITTED] T8060A.121
    
    [GRAPHIC] [TIFF OMITTED] T8060A.122
    
    [GRAPHIC] [TIFF OMITTED] T8060A.123
    
    [GRAPHIC] [TIFF OMITTED] T8060A.124
    
    [GRAPHIC] [TIFF OMITTED] T8060A.125
    
    [GRAPHIC] [TIFF OMITTED] T8060A.126
    
    [GRAPHIC] [TIFF OMITTED] T8060A.127
    
    [GRAPHIC] [TIFF OMITTED] T8060A.128
    
    [GRAPHIC] [TIFF OMITTED] T8060A.129
    
    [GRAPHIC] [TIFF OMITTED] T8060A.130
    
    [GRAPHIC] [TIFF OMITTED] T8060A.131
    
    [GRAPHIC] [TIFF OMITTED] T8060A.132
    
    [GRAPHIC] [TIFF OMITTED] T8060A.133
    
    [GRAPHIC] [TIFF OMITTED] T8060A.134
    
    [GRAPHIC] [TIFF OMITTED] T8060A.135
    
    [GRAPHIC] [TIFF OMITTED] T8060A.136
    
    [GRAPHIC] [TIFF OMITTED] T8060A.137
    
    [GRAPHIC] [TIFF OMITTED] T8060A.138
    
    [GRAPHIC] [TIFF OMITTED] T8060A.139
    
    [GRAPHIC] [TIFF OMITTED] T8060A.140
    
    [GRAPHIC] [TIFF OMITTED] T8060A.141
    
    [GRAPHIC] [TIFF OMITTED] T8060A.142
    
    [GRAPHIC] [TIFF OMITTED] T8060A.143
    
    [GRAPHIC] [TIFF OMITTED] T8060A.145
    
    [GRAPHIC] [TIFF OMITTED] T8060A.146
    
    [GRAPHIC] [TIFF OMITTED] T8060A.147
    
    [GRAPHIC] [TIFF OMITTED] T8060A.148
    
    [GRAPHIC] [TIFF OMITTED] T8060A.149
    
    [GRAPHIC] [TIFF OMITTED] T8060A.150
    
    [GRAPHIC] [TIFF OMITTED] T8060A.151
    
    [GRAPHIC] [TIFF OMITTED] T8060A.152
    
    [GRAPHIC] [TIFF OMITTED] T8060A.153
    
    [GRAPHIC] [TIFF OMITTED] T8060A.154
    
    [GRAPHIC] [TIFF OMITTED] T8060A.155
    
    [GRAPHIC] [TIFF OMITTED] T8060A.156
    
    [GRAPHIC] [TIFF OMITTED] T8060A.157
    
    [GRAPHIC] [TIFF OMITTED] T8060A.158
    
    [GRAPHIC] [TIFF OMITTED] T8060A.159
    
    [GRAPHIC] [TIFF OMITTED] T8060A.160
    
    [GRAPHIC] [TIFF OMITTED] T8060A.161
    
    [GRAPHIC] [TIFF OMITTED] T8060A.162
    
    [GRAPHIC] [TIFF OMITTED] T8060A.163
    
    [GRAPHIC] [TIFF OMITTED] T8060A.164
    
    [GRAPHIC] [TIFF OMITTED] T8060A.165
    
    [GRAPHIC] [TIFF OMITTED] T8060A.166
    
    [GRAPHIC] [TIFF OMITTED] T8060A.167
    
    [GRAPHIC] [TIFF OMITTED] T8060A.168
    
    [GRAPHIC] [TIFF OMITTED] T8060A.169
    
    [GRAPHIC] [TIFF OMITTED] T8060A.170
    
    [GRAPHIC] [TIFF OMITTED] T8060A.171
    
    [GRAPHIC] [TIFF OMITTED] T8060A.172
    
    [GRAPHIC] [TIFF OMITTED] T8060A.173
    
    [GRAPHIC] [TIFF OMITTED] T8060A.174
    
    [GRAPHIC] [TIFF OMITTED] T8060A.175
    
    [GRAPHIC] [TIFF OMITTED] T8060A.176
    
    [GRAPHIC] [TIFF OMITTED] T8060A.177
    
    [GRAPHIC] [TIFF OMITTED] T8060A.178
    
    [GRAPHIC] [TIFF OMITTED] T8060A.179
    
    [GRAPHIC] [TIFF OMITTED] T8060A.180
    
    [GRAPHIC] [TIFF OMITTED] T8060A.181
    
    [GRAPHIC] [TIFF OMITTED] T8060A.182
    
    [GRAPHIC] [TIFF OMITTED] T8060A.183
    
    [GRAPHIC] [TIFF OMITTED] T8060A.184
    
    [GRAPHIC] [TIFF OMITTED] T8060A.185
    
    [GRAPHIC] [TIFF OMITTED] T8060A.186
    
    [GRAPHIC] [TIFF OMITTED] T8060A.187
    
    [GRAPHIC] [TIFF OMITTED] T8060A.188
    
    [GRAPHIC] [TIFF OMITTED] T8060A.189
    
    [GRAPHIC] [TIFF OMITTED] T8060A.190
    
    [GRAPHIC] [TIFF OMITTED] T8060A.191
    
    [GRAPHIC] [TIFF OMITTED] T8060A.192
    
    [GRAPHIC] [TIFF OMITTED] T8060A.193
    
    [GRAPHIC] [TIFF OMITTED] T8060A.194
    
    [GRAPHIC] [TIFF OMITTED] T8060A.195
    
    [GRAPHIC] [TIFF OMITTED] T8060A.196
    
    [GRAPHIC] [TIFF OMITTED] T8060A.197
    
    [GRAPHIC] [TIFF OMITTED] T8060A.198
    
    [GRAPHIC] [TIFF OMITTED] T8060A.199
    
    [GRAPHIC] [TIFF OMITTED] T8060A.200
    
    [GRAPHIC] [TIFF OMITTED] T8060A.201
    
    [GRAPHIC] [TIFF OMITTED] T8060A.202
    
    [GRAPHIC] [TIFF OMITTED] T8060A.203
    
    [GRAPHIC] [TIFF OMITTED] T8060A.204
    
    [GRAPHIC] [TIFF OMITTED] T8060A.205
    
    [GRAPHIC] [TIFF OMITTED] T8060A.206
    
    [GRAPHIC] [TIFF OMITTED] T8060A.207
    
    [GRAPHIC] [TIFF OMITTED] T8060A.208
    
    [GRAPHIC] [TIFF OMITTED] T8060A.209
    
    [GRAPHIC] [TIFF OMITTED] T8060A.210
    
    [GRAPHIC] [TIFF OMITTED] T8060A.211
    
    [GRAPHIC] [TIFF OMITTED] T8060A.212
    
    [GRAPHIC] [TIFF OMITTED] T8060A.213
    
    [GRAPHIC] [TIFF OMITTED] T8060A.214
    
    [GRAPHIC] [TIFF OMITTED] T8060A.215
    
    [GRAPHIC] [TIFF OMITTED] T8060A.216
    
    [GRAPHIC] [TIFF OMITTED] T8060A.217
    
    [GRAPHIC] [TIFF OMITTED] T8060A.218
    
    [GRAPHIC] [TIFF OMITTED] T8060A.219
    
    [GRAPHIC] [TIFF OMITTED] T8060A.220
    
    [GRAPHIC] [TIFF OMITTED] T8060A.221
    
    [GRAPHIC] [TIFF OMITTED] T8060A.222
    
    [GRAPHIC] [TIFF OMITTED] T8060A.223
    
    [GRAPHIC] [TIFF OMITTED] T8060A.225
    
    [GRAPHIC] [TIFF OMITTED] T8060A.226
    
    [GRAPHIC] [TIFF OMITTED] T8060A.227
    
    [GRAPHIC] [TIFF OMITTED] T8060A.228
    
    [GRAPHIC] [TIFF OMITTED] T8060A.229
    
    [GRAPHIC] [TIFF OMITTED] T8060A.230
    
    [GRAPHIC] [TIFF OMITTED] T8060A.231
    
    [GRAPHIC] [TIFF OMITTED] T8060A.232
    
    [GRAPHIC] [TIFF OMITTED] T8060A.233
    
    [GRAPHIC] [TIFF OMITTED] T8060A.234
    
    [GRAPHIC] [TIFF OMITTED] T8060A.235
    
    [GRAPHIC] [TIFF OMITTED] T8060A.236
    
                                            Tuesday, April 5, 2011.

                 WMD COUNTERMEASURES--THREAT, PROGRAMS 
                              AND FUNDING

                               WITNESSES

WARREN STERN, DIRECTOR, DOMESTIC NUCLEAR DETECTION OFFICE
ALEXANDER GARZA, M.D., ASSISTANT SECRETARY OF HEALTH AFFAIRS, 
    DEPARTMENT OF HOMELAND SECURITY
    [Clerk's note.--The Department has redacted classified 
information from this transcript.]

                  Opening Statement: Chairman Aderholt

    Mr. Aderholt. The hearing is called to order. Today we have 
a classified briefing to discuss the Department of Homeland 
Security's programs related to weapons of mass destruction. We 
expect to begin with a discussion of current risk and threat 
scenarios, The Department of Homeland Security programs to 
detect and deter such threats, and countermeasures being 
developed and deployed.
    To help us better understand these programs, we welcome 
Warren Stern, director of the Domestic Nuclear Detection 
Office, DNDO, in his first appearance before the subcommittee, 
and Dr. Alexander Garza, Assistant Secretary of Health Affairs 
and the Department's chief medical officer who is returning to 
us. So welcome to both of you.
    Although I understand you will both submit unclassified 
segments for the record, this hearing is intended to cover 
discussion of material that may rise to the secret level. I 
expect your presentations and the questions and concerns 
members may raise will fall in both classified and unclassified 
areas.
    Before we begin, I would like to remind members and staff 
that because information we receive over the next 2 hours is 
highly classified, it is not to be repeated in any unsecure 
setting or for any other than official purposes.
    We will have an official transcript that will be classified 
at the secret level, although we will ask the Department to 
review it and provide a redacted version, which, if 
appropriate, we will publish as part of our public hearing 
record. There will be no electronic devices--that includes 
pagers, BlackBerrys, or cell phones--in the hearing. If someone 
has inadvertently brought such a device into the room, please 
give it to our staff who will safeguard it outside until the 
hearing is over.
    The threat that weapons of mass destruction could be used 
by terrorists or other adversaries to attack the United States 
homeland has been a central driver of all of DHS operational 
agencies. These include CBP and ICE which seek to identify and 
deter weapons of mass destruction that could cross our borders 
or damage international supply chains: The Coast Guard, 
responsible for security of our coasts, ports, and sea lanes; 
TSA, which overseas transportation and other infrastructure 
security; and the Secret Service, whose protective mission also 
entails planning for scenarios involving threats of chemical, 
biological, radiological, and nuclear attacks; planning and 
grant assistance through FEMA and the National Protection and 
Programs Directorate; training at the Federal Law Enforcement 
Training Center; and the S&T research programs are also heavily 
focused on weapons of mass threats.
    For DNDO and OHA, addressing weapons of mass destruction is 
the priority mission. The Department of Homeland Security has 
responsibility through your offices to plan for and support 
development for new detection technology; lead interagency 
efforts to design and develop architects to detect and respond 
to threats; and to sustain testing, red-teaming, and forensic 
capability. And these efforts could not be more critical.
    As outlined in public reports, al Qaeda and its leadership 
have for years called for the use of weapons of mass 
destruction against the United States. This has never changed 
and it is clearly a reason for vigilance with regard to new and 
continuing threats from them and their confederates.
    In addition, the threat of biological or chemical weapons 
is not trivial and there is much basis to remain vigilant. The 
memories of the sarin gas attacks on the Tokyo subway system or 
the 2001 anthrax attacks in the United States are vivid 
examples.
    The fundamental questions we hope you address today 
include, number one, a review of the current threat environment 
in which your agencies have built your missions; number two, 
what unique roles your agencies play not only with the 
Department of Homeland Security, but in the larger national 
effort to plan for and address these threats; and number three, 
how DNDO's core mission may change with the shift of basic R&D 
to the S&T Directorate.
    Given the crucial importance of this topic to our security 
and to perhaps our very own way of life, I expect an animated 
discussion here this afternoon.
    I will ask Director Stern, to be followed by Assistant 
Secretary Garza, to summarize your written testimony in a brief 
oral statement to allow sufficient time for members' questions.
    Before you begin, I would like to recognize our 
distinguished ranking member, Mr. Price, for any remarks that 
he may have. And also I would like to recognize that Stephanie 
Gupta is having a birthday today, who is the clerk of the 
subcommittee. Stephanie is clerk on the minority side. And we 
wish her a happy birthday.
    And we will turn it over to you, Mr. Price.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8060A.237
    
    [GRAPHIC] [TIFF OMITTED] T8060A.238
    
    [GRAPHIC] [TIFF OMITTED] T8060A.239
    
    [GRAPHIC] [TIFF OMITTED] T8060A.240
    
                Opening Statement: Ranking Member Price

    Mr. Price. Thank you, Mr. Chairman. I join you in wishing 
happy birthday to Stephanie Gupta and welcoming our witnesses 
here today. This hearing takes place as we all realize that 
terrorists are determined to attack our country again. Osama 
bin laden has made it known that obtaining weapons of mass 
destruction is a top priority and that, in his own words, al 
Qaeda seeks to inflict an attack akin to Hiroshima on American 
soil. Al Qaeda in the Arabian Peninsula has voiced similar 
desires.
    While the most widely used definition of ``weapons of mass 
destruction'' consists of nuclear, biological, and chemical 
weapons with the unique ability to kill large numbers of people 
with a very small amount of material, in this hearing we will 
primarily focus on the nuclear and biological threats.
    Since the end of the Cold War the U.S. has spent billions 
to successfully secure nuclear weapons, materials and 
technology in the former states of the Soviet Union. However, 
during this same period, the world has also witnessed a new era 
of proliferation with North Korea and Iran, passing key 
milestones in developing their nuclear weapons programs. In the 
Middle East and Asia, nuclear arms rivalries have intensified. 
In Pakistan, Dr. A.Q. Kahn led a nuclear proliferation network 
that served as a one-stop shop for countries aspiring to 
develop nuclear weapons.
    If not constrained, this continued proliferation could 
prompt nuclear crises and even nuclear use at the very time 
that we and the Russians are reducing our nuclear weapons 
deployments and stockpiles.
    While advancements in biotechnology have led to important 
progress in the medical field, it has also increased the 
availability of pathogens and technologies that could be used 
for terrorist ends. Al Qaeda in the Arabian Peninsula has had a 
particular interest in these biological weapons along with 
other attack methods. Many biological pathogens and nuclear 
materials around the globe are poorly secured and vulnerable to 
theft, with the risk of ending up on the black market and thus 
inevitably in the hands of terrorists.
     In December of 2008, the commission on the Prevention of 
Weapons of Mass Destruction, Proliferation, and Terrorism 
issued a report noting that, quote, unless the world community 
acts decisively and with great urgency, it is more likely than 
not that a weapon of mass destruction will be used in a 
terrorist attack somewhere in the world by the end of 2013. the 
commission believed that terrorists were more likely to obtain 
and use a biological weapon than a nuclear weapon and that the 
U.S. Government needs to be more aggressive in limiting the 
proliferation of biological weapons to reduce the prospect of a 
bioterror attack. Let us hope that in the intervening years, 
security has increased so this threat is not looming quite as 
large.
    Today I look forward to discussing what DHS's Office of 
Health Affairs and the Domestic Nuclear Detection Office are 
doing to reduce the likelihood of a nuclear or biological 
attack; the programs you are developing to quickly identify an 
occurrence; and how DHS, along with other Federal, State, and 
local entities will respond. While both of your budgets are 
relatively small, your missions are far-reaching and the 
results of failure could be catastrophic.
    Dr. Garza, Director Stern, I look forward to a frank 
discussion of these matters and welcome you to the 
subcommittee.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8060A.241
    
    [GRAPHIC] [TIFF OMITTED] T8060A.242
    
    Mr. Aderholt. Thank you. And Director Stern, we will start 
with you, and we look forward to your testimony.

                   Opening Statement: Director Stern

    Mr. Stern. Thank you. Good afternoon, Chairman Aderholt, 
Ranking Member Price, and other distinguished members of the 
subcommittee. I appreciate the opportunity to talk to you today 
about DNDO's goals, its missions. As you indicated, I have 
submitted testimony for the record, but I would like to spend a 
few minutes hitting some of the key points in that written 
testimony.
    As you may know, I have been at DNDO for approximately 7 
months now, and I have learned a lot and imposed a few changes 
at DNDO. I bring to DNDO three basic principles: Discipline, 
transparency, and intellectual rigor. In terms of discipline. I 
am working very hard to ensure that we follow the legislative 
mandate that we have been given. In terms of transparency. I am 
trying very hard to ensure that we work with Congress and are 
transparent with Congress and, to the extent possible, with the 
American public. And in terms of intellectual rigor, I am 
trying very hard to ensure that there is a good oversight and 
peer review to ensure that what we are doing is supported by 
basic common sense.
    These three principles have led to two big changes at DNDO 
since I have started. One is the strategic plan for the global 
nuclear detection architecture. As you may know, Congress has 
pressed for many years that we develop such a strategic plan. 
And in my first 3 months, we, with seven other agencies of the 
U.S. Government who are responsible for this mission, drafted 
very carefully and cooperatively a strategic plan which we 
delivered to Congress at the end of last year.
    The other big change is how we look at the architecture. We 
have historically looked at the architecture, the detection 
architecture, in terms of static detectors, in terms of what 
the likelihood that a piece of nuclear material passing a 
detector will in fact be detected by that detector. But in 
terms of imposing an intellectual rigor on the way that we look 
at the architecture, it is much more defensible to look at the 
architecture as a defense architecture; that is, to assume that 
there will be some information that we will be able to respond 
to.
    And so what we are looking at the architecture now is a 
surge architecture. That is, how can we design an architecture 
that will allow the United States to surge assets in order to 
find nuclear radioactive material when there is some 
information available about that nuclear or radioactive 
material? This is one of the reasons that from the outset of my 
term, I focused very strongly on supporting State and local 
authorities and developing nuclear radiation detection 
capabilities.
    Of course, only the States and locals have the numbers of 
people that can get quickly to a site or to an area to look for 
nuclear and radioactive material. And I am very pleased, 
consequently, that in the President's fiscal year 2012 budget 
request we have additional support for the Securing the City 
program for New York and for one other city or urban area to be 
selected on a competitive basis.
    In terms of technology R&D, I see two key changes that we 
are making at DNDO. The first is to rely more on commercially 
available technologies than we ever have before. In the 6 years 
since DNDO was created, commercial technologies have changes in 
a rather fundamental way. And a lot of the applications that 
the U.S. Government needs are available in the commercial 
sector. So wherever possible in the future, we will use the 85, 
90 percent solution that is available off the shelf 
commercially rather than developing our own capabilities. That 
leads us to focus a lot more in helping to set standards, which 
is part of our legislative mandate, and to test to those 
standards.
    So the second big technical change we are going to be 
imposing is to follow the National Academy of Science's 
recommendation of following a model test, model approach, in 
our evaluation of detectors, and you will see that change.
    You may or may not be aware that we are now recruiting for 
the individual who would head the office that does the modeling 
and the testing. And one of the key requirements for that post 
is to understand and be able to implement the National 
Academy's recommendations on the model test, model approach.
    So, Congressman, our research and development work will 
consistently be matched with the needs of the global nuclear 
detection architecture and the operational requirements of our 
end users.
    Our budget request is focused on preventing radiological 
nuclear terrorism by enhancing our ability to detect these 
nuclear radioactive materiels. And I appreciate this 
opportunity to talk to you today about any of the issues you 
would like to talk about related to the domestic nuclear 
detection architecture. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8060A.243
    
    [GRAPHIC] [TIFF OMITTED] T8060A.244
    
    [GRAPHIC] [TIFF OMITTED] T8060A.245
    
    [GRAPHIC] [TIFF OMITTED] T8060A.246
    
    [GRAPHIC] [TIFF OMITTED] T8060A.247
    
    [GRAPHIC] [TIFF OMITTED] T8060A.248
    
    [GRAPHIC] [TIFF OMITTED] T8060A.249
    
    [GRAPHIC] [TIFF OMITTED] T8060A.250
    
    [GRAPHIC] [TIFF OMITTED] T8060A.251
    
    [GRAPHIC] [TIFF OMITTED] T8060A.252
    
    [GRAPHIC] [TIFF OMITTED] T8060A.253
    
    [GRAPHIC] [TIFF OMITTED] T8060A.254
    
    [GRAPHIC] [TIFF OMITTED] T8060A.255
    
    Mr Aderholt. Dr. Garza.

                      Opening Statement: Dr. Garza

    Dr. Garza. Thank you, sir. Good afternoon. Chairman 
Aderholt, Ranking Member Price, and distinguished members of 
the committee, thank you for inviting me to testify before you 
today. It is a privilege to be here to discuss the Office of 
Health Affairs programs and funding that support the Department 
of Homeland Security's efforts to combat weapons of mass 
destruction.
    OHA serves as the principal authority for all medical and 
health issues for the Department of Homeland Securiy. We look 
at health through the prism of naional security, providing 
medical, public health, and scientific expertise in support of 
the Department's mission to prepare for, respond to, and 
recover from all threats.
    Our responsibilities include serving as the principal 
adviser to the Secretary and to the FEMA Administrator on 
medical and public health issues; leading and coordinating the 
biological and chemical defense programs; providing medical and 
scientific expertise to support DHS preparedness and response 
efforts; and leading the Department's workforce health 
protection and medical support activities.
    OHA furthermore serves as the point of contact for State 
and local governments on medical and public health issues for 
the Department. The threat of an attack using a WMD is real and 
so is the risk. As Congressman Price pointed out, the WMD 
Commission reported on December 3, 2008, that we must be 
vigilant in addressing several urgent threats, including 
bioterrorism. In their report, World at Risk, the Commission 
found that, and I quote, ``Unless the world community acts 
decisively and with great urgency, it is more likely than not 
that a weapon of mass destruction will be used in a terrorist 
act somewhere in the world by the end of 2013.'' Because DHS 
understands this threat, high consequence biological attacks 
were identified as a high-priority item within the Quadrennial 
Homeland Security Review.
    Today I will provide a short overview of OHA initiatives 
that help to mitigate these threats and prepare the Nation to 
respond to and recover from chemical and biological attacks. 
OHA lends our expertise to a number of initiatives across the 
Department that focus on the threat of biological attack. These 
efforts span the pillars of biodefense and include awareness, 
prevention and protection, detection and surveillance, and 
response and recovery. This end-to-end approach to biodefense 
is necessary in order to communicate the current national 
capability and develop a strategy for further biodefense 
improvement.
    OHA works closely with the DHS Science and Technology 
Directorate and the Office of Intelligence and Analysis to 
assess our current and emerging threats of natural or 
intentional events involving biological agents as well as 
chemical, radiologic, and nuclear agents to the U.S. 
population.
    OHA applies these risk assessments in operating, managing, 
and supporting the Department's biological defense programs. 
Our work is primarily focused on addressing the threat of 
biological attack through the BioWatch program, and 
surveillance through the national biosurveillance integration 
system.
    In addition, we focus on helping the build preparedness at 
the State and local level. The fiscal year 2012 budget request 
includes $7 million for the NBIS and $90 million for continued 
operations of our deployed BioWatch detection system. The 
fiscal year 2012 budget request also includes an increase of 
$25 million to fund the start of operational testing and 
evaluation for the BioWatch Generation-3 automated detection 
system. The Gen-3 system will advance current detection 
technology by significantly reducing the time to detection of a 
biological agent in the environment. This early detection 
allows communities to provide medical countermeasures to 
affected persons in a timely manner and thus saving more lives.
    OHA further coordinates the Department's health 
preparedness efforts to protect against high-consequence 
chemical events. Chemical events, whether from terrorist attack 
or accidental release, pose a significant homeland security 
threat. Chemical agents can cause immediate mass casulaties, 
numbering in the thousands if released in or near a densely 
populated area.
    Chemical is different from biological. The response window 
is shorter and far less forgiving. Therefore, our approach to 
preparedness for chemical events is much different. We focus 
more on building an overarching defense framework and building 
rapid response cabilities as well as enhancing community 
resilience.
    We are doing this now through a demonstration project in 
Baltimore that focuses on partnerships at the Federal, State, 
and local levels. Similar to the biological terrorism risk 
assessment, OHA uses the chemical terrorism risk assessment in 
prioritizing our programs. The fiscal year 2012 budget request 
of $2.4 million will allow OHA to continue to provide health 
and medical expertise related to chemical preparedness, 
response, and resilience in support of an integrated chemical 
defense framework to protect against high-consequence events.
    I want to thank this committee for the opportunity to 
testify and I look forward to answering any questions that you 
may have. Thank you.
    Mr. Aderholt. Thank you, Dr. Garza.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8060A.256
    
    [GRAPHIC] [TIFF OMITTED] T8060A.257
    
    [GRAPHIC] [TIFF OMITTED] T8060A.258
    
    [GRAPHIC] [TIFF OMITTED] T8060A.259
    
    [GRAPHIC] [TIFF OMITTED] T8060A.260
    
    [GRAPHIC] [TIFF OMITTED] T8060A.261
    
    [GRAPHIC] [TIFF OMITTED] T8060A.262
    
                            CURRENT THREATS

    Mr. Aderholt. Thank you both for your summary of what your 
job priorities are and what you do to try to make sure that we 
have a safe Nation.
    One thing that I would like to start out is maybe let you 
refocus just a minute and maybe giving the subcommittee a brief 
summary of the current threat picture for weapons of mass 
destruction in this country. I think it would be of interest, I 
know, to myself and to other members of the subcommittee. So if 
you could take a few minutes and just talk a little bit about 
the current threats that are out there as we speak.
    Dr. Stern, we will start with you.
    Mr. Stern. Thank you. At DNDO we take the information that 
the Intelligence Community provides us in terms of the risks of 
various activities, and we try and build our defenses based on 
the likelihood that an adversary would take a given path; for 
example, to move nuclear or radioactive material, you know, 
into the United States. So we don't actually evaluate the 
actual likelihood that an entity like al Qaeda wants or is able 
to attack the United States, but rather we take the input from 
the Intelligence Community and build our models around that to 
try to identify how it is that we can detect those materials 
should they come through various pathways.
    Mr. Aderholt. Okay, Do you want to add anything?
    Dr. Garza. Sir, yes. I can tell you this, and part of it is 
in relation to what Director Stern says. We take the threat 
information and we build it into risk profiles on how we are 
going to direct our operational programs. So we work very 
closely with the Science and Technology Directorate who builds 
the BTRA, the Biological Terrorism Risk Assessment, and CTRA, 
the Chemical Terrorism Risk Assessment, as well as an 
integrated risk that combines both biological, chemical, and 
nuclear.
    Specifically to your question though, I can tell you this: 
[Redacted] Without getting into a much higher classification 
scheme [Redacted].
    If we look at the biological terrorism risks assessment 
provided by S&T [Redacted] majority fo the threat. There are 
other agents on the list that we are concerned about as well. 
But [Redacted] does occupy the top spot.
    If you look at the integrated risk assessments--and I would 
ask you if you had further questions about that, you should get 
a brief from S&T. [Redacted] Nuclear material is much easier to 
control the movement of and the control of, where biological 
agents are ubiquitous in the environment and they are located 
in labs around the world. So the control and access to them are 
much simpler than it is for nuclear material. And using these 
risk assessments and the different threat information is what 
drives a lot of what our operational programs are in the 
BioWatch as well as others.
    Mr. Aderholt. Director Stern, let me ask you this: What 
particular scenarios are they putting before you that you have 
actually planned for?
    Mr. Stern. Yeah. This is following on what Dr. Garza said, 
the nuclear terrorism risk assessment. At DNDO, we do lead the 
DHS radiological and nuclear----
    Mr. Aderholt. Is your mic on?
    Mr. Stern. Sorry. So at DHS, we do lead the radiological 
and nuclear risk threat assessment for the Science and 
Technology Division. But this document and series of analyses 
look at particular pathways and help us to prioritize pathways, 
not the overall risk. In the nuclear and radiological world, 
following on again what Dr. Garza said, there is a hierachy of 
risks in the sense that radiological materials are of less 
consequence but are commonly available both in the U.S. and 
overseas; whereas nuclear materials, nuclear weapon materials, 
are very carefully controlled. So there are different scenarios 
we look at.
    And as I mentioned in my introductory remarks, one of the 
things that we are shifting our focus on is to look at an 
architecture that is a surge architecture that, again, assumes 
we will have a certain amount of information regarding the 
attack that would be coming and that will allow us to more 
rigorously defend and detect--defend the U.S. and detect the 
nuclear or radioactive material. And that effort very much is 
linked to this nuclear risk assessment. And in the Intelligence 
Community we all, again, work together to identify what sort of 
information might be available in the case of the illicit 
movement of nuclear material and what wouldn't; that allows us 
to build our models and develop an adequate architecture.

       DOMESTIC NUCLEAR DETECTION OFFICE: STRUCTURE & PRIORITIES

    Mr. Aderholt. We may want to follow up with that shortly. 
But let me go ahead and address this. Of course, this is your 
first time, Director Stern, to appear before this subcommittee 
and a chance for us to get a sense of your vision of DNDO. It 
will come as no surprise to you that some have suggested your 
agency be folded in other parts of the Department of Homeland 
Security.
    Why does DNDO need to remain a stand-along operation within 
the Department? And what are your key priorities for the office 
going forward?
    Mr. Stern. I am not sure I fully agree with the premise. I 
believe that DNDO is a unique organization that is able and is 
focused on detection, detection systems, detection 
technologies, detection architecture. And there is no, in my 
mind, ideal structure for us. We need to be in a place where we 
have the access to the Secretary, like we do now, and to other 
agencies to keep this issue of improving U.S. defenses against 
nuclear terrorism in the forefront. But I don't assume that the 
only structure that is right is the one we have now.
    Mr. Aderholt. What is your explanation to other requests to 
move the transformational research activity to Science and 
Technology?
    Mr. Stern. You know, that decision was made, of course, 
before I came onboard. And like any such decision, there are 
pluses and minuses. The plus is, of course, it brings a lot of 
the long-term research and development across the Department 
into one place. And one of the negatives is one of the founding 
principles of DNDO of having an integrated system where we have 
research and development that leads to testing, that leads to 
production and acquisition. All together, that gets separated a 
little bit.
    Now I am sure that the Under Secreatary--Dr. O'Toole--of 
Science and Technology and I will have a very good working 
relationship. And I am sure no matter what happens we will make 
it work. But the key to success is to ensure that the mission 
of DNDO is not affected by this transfer. So there are pluses 
and minuses. But whatever Congress decides, we will do our best 
to make sure that it doesn't in any way harm the mission of 
DNDO.
    If I could continue because I--actually in your last 
question, I didn't finish the second part in terms of the 
criticisms of DNDO and my vision for the future. There have 
been, as you suggest, a number of criticisms in the past of 
DNDO. And this is why, you know, I very strongly believe in 
bringing to DNDO these three principles I outlined at the 
outset.
    One is discipline, and we need to keep very disciplined on 
the things we are doing so that we can focus on our legislative 
mandate. When I came onboard, there were a few things we were 
doing that sort of were on the edges of this. So I am trying 
very hard to bring it together so we can focus on this very 
clear mandate.
    In terms of transparency, part of the criticism of DNDO was 
this lack of cooperation and transparency with Congress. So I 
am trying very hard to ensure that with all congressional staff 
and others, you know, we are transparent: that you know what we 
are doing and understand why we are doing it. We won't always 
agree, but Congress has a fundamental right to know what we are 
doing and to effect that through the budget process.
    And third, this intellectual rigor. I think some on the 
outside have not viewed our activities as following a logical 
and defensible intellectual program. So I am trying very hard 
to make sure that anything we do, I can defend to you and to 
others in an intellectually consistent way. And that gets back 
to transparency. I look very much forward to having some of 
those on the outside who have criticized us in the past, such 
as the National Academy, to look again and hear what we have 
done and see to what extent the same criticisms apply. My 
vision is simply to focus on our legislative mandate and to do 
it well.
    Mr. Aderholt. How will DNDO system development acquisition 
and program activities be affected by the mover? And will you 
be a priority customer of S&T?
    Mr. Stern. Well, there are still some details we would need 
to work out. the transitional and applied research feeds into 
the solutions in development processes. So we are in the 
process now of trying to negotiate an MOU in terms of how that 
would work after they depart DNDO, if they depart DNDO. It is 
again a challenge. It is not insurmountable. The process works 
best when everything is well integrated, but again it is not 
the only structure that will work.
    Mr. Aderholt. Mr. Price.

                            BIOSURVEILLANCE

    Mr. Price. Thank you, Mr. Chairman.
    Dr. Garza, let me turn to you and to the subject of 
biosurveillance. In 2008 this subcommittee directed the 
National Academy of Science to evaluate the BioWatch program 
and to compare it to an enhanced public health surveillance 
system. The National Academy of Science found that a network of 
sensors in strategic locations offered potential advantages in 
terms of the early detection of airborne agents. But the 
BioWatch's current methods of testing and evaluation needed 
improvement. Moreover, a system of this sort has inherent 
limitations both in geographical reach and in the range of 
agents it might be programmed to detect.
    Now, I notice you furnished a chart here today which 
diagrams some of the advantages in terms of early detection, 
early treatment, and lives saved, the advantages of a BioWatch-
type system. But these inherent limitations, of course, still 
exist and will exist no matter how much we expand this system. 
And I don't think we have ever had an answer to the question, 
How much is enough? What are the outer limits, the boundaries 
that probably will determine the reach of this system?
    Since that report was completed, your agency has responded 
to some of the recommendations of the NIS report as you have 
been working on the Generation-3 technology. And I want to take 
up some of that in more detail in the second round of 
questions.
    But at this moment I want to focus on the issue of the 
inherent limitations in the BioWatch system. The National 
Academy's report made it quite clear that even if it were 
widely deployed, BioWatch would need to be complemented by 
improved intake and analysis of data through the public health 
system, which is inherently broader and more flexible than 
BioWatch's system of detection.
    So let me ask you three related questions about this. OHA 
has been working with Federal, State and local partners, 
including a consortium of government and academic institutions, 
and in my State of North Carolina to address this public health 
side of the biological detection equation. And as you know, 
North Carolina pioneered this years ago. Can you fill us in on 
the progress that you have made on these efforts?
    Secondly, how does OHA intend to engage more State and 
local partners in these activities? Assuming that this kind of 
data intake effort, this early detection, early analysis 
effort, that it is inherently going to be a partnership, it is 
not going to be simply run by OHA, it is going to require these 
partnerships at the State and local level, how do you plan to 
engage these partners?
    And then thirdly, to what extent is your work with State 
and local partners incorporated into the national 
biosurveillance integration system?
    Dr. Garza. Thank you, Congressman Price. So you are 
absolutely correct that the BioWatch system does have 
limitations in what it can perform. It has absolute 
responsibility for things that it does detect for. But it is 
part of a system, a larger system, as you appropriately 
mentioned, and part of a larger biodefense picture which does 
include biosurveillance.
    You also mentioned the program in North Carolina, and our 
work with the project in North Carolina has been very 
encouraging. And you know as well as I do that the State of 
North Carolina has a very good integrated system between public 
health, emergency departments, law enforcement, and the 
different communities that it takes to have a very robust 
surveillance picture. So with OHA working with the State and 
local and territorial leaders, that is an important mission of 
the national biosurveillance integration system.
    In addition to the work that we have been doing with North 
Carolina, we have also had outreach to several other States. 
And we are starting to make some forays into how can we work 
best with them. Now, part of that involves letting them have 
awareness or use of our tools within the NBIS system, 
particularly the biological common operating picture. So the 
States commonly understand what their own data is, but they 
frequently do not have the national picture on what data looks 
like. And as we all know in dealing with pandemics as well as 
other issues, it is very important for us to have global 
situational awareness, which is what the biological common 
operating picture is built to do; so that somebody from the 
State of North Carolina could see what is going on in the State 
of North Carolina or the State of Alabama or likewise, because 
it is only through this common situational awareness that we 
can best build that biosurveillance picture. So that is one 
part of engaging our partners.
    Other parts are a little bit more security-centric with 
other parts of our office, even outside of biosurveillance. We 
are quickly adapting to the notion that health does belong in 
our national fusion centers. And we have been advocating this 
across the country and at the national level, that public 
health does belong as part of a national security picture. So 
we have been advocating for and assisting with getting health 
partners into our fusion centers, where they can be sitting 
next to law enforcement and other disciplines to interpret data 
as well as reports coming in for the health effects and/or 
looking for other markers of what could potentially be a 
health-related event.
    So those are a couple of the ways that we are more engaged 
with the States. We are always looking for ways to further 
engage with the States and we really--we work very well with 
the State Public Health officials. I meet with them regularly, 
probably two or three times a year, to discuss issues like 
this. And we are very much engaged with them.
    Mr. Price. The presence of these public health efforts is 
of course a source of great strength and expanded reach for 
you. I suppose the downside of it though, the downside of the 
partnership, a character of this, is that if those partners 
aren't there, if these capacities aren't developed in a given 
State, then it is problematic how much you can achieve. Do you 
have any way of giving us an overview of how far along these 
capacities are? States, after all, are strapped for funds right 
now. I mean, there are plenty of competing priorities.
    We are confident that what is going on in North Carolina 
will be something of a model, something of a demonstration for 
the rest of the country. But do you have any kind of tabulated 
account of the capabilities that you are looking at in the 
various States, how far along you are toward having this kind 
of early detection and analysis capability; also requires, of 
course, data processing capacity. It requires a lot of things 
there. So there are some advantages and disadvantages, I would 
say, that come with the State-centric, State-centered nature of 
this effort.
    Dr. Garza. Yes, sir. So as far as tabulations go, we are 
currently exploring, or we are currently in the works of 
getting this biological common operating picture out to four 
States. As you know, we have been working a lot with the State 
of North Carolina to develop their capacity for integrated 
biosurveillance. You are correct that this does need to be a 
bidirectional flow between the State and the Federal 
Government.
    Unfortunately, in terms of biosurveillance, that data is 
very slow in coming because it has to go from local to State, 
and then usually to CDC, because that is the way the 
information flows. But I think some of the very best ways, 
though, that we could go about trying to improve information 
flow is looking for more novel approaches to gaining 
situational awareness. Now, Whether that is through different 
forms of data with poison centers, with emergency medical 
services data, and issues like that is something that we are 
exploring.
    Mr. Price. I understand that that diversity of data in fact 
is a very important consideration. I am told, for example, that 
there might be a certain payoff in tracking Pepto-Bismol sales 
at drugstores. That sort of thing could be indicative of a 
significant issue.
    Dr. Garza. Yes. You are absolutely right. Part of the 
strategy will be reaching out to some of our private sector 
partners as well, to do exactly what you are talking about, 
which is trying to get data from retail pharmacies on if there 
has been a run on cold and flu medicine, for example, in a 
period of time where you would not expect that to happen, such 
as during the summer months.
    So we are exploring those options as well. And I think we 
have a fairly good lead on getting that sort of private sector 
data. It is always difficult working with private sector data. 
It is always difficult working with private sector data just 
because of the business aspect of it, and people don't want to 
release their data on sales and things like that. But in 
working with some middle kind of--wherever the data is 
aggregated, I think we have a better chance of doing that.
    But I do want to get back to your point on funding, though. 
And that is, the majority of the funding for the public health 
partners does come through CDC and through HHS-ASPR as well as 
FEMA. So one of the things that our office does do is advise 
FEMA--and FEMA grantees typically spend a lot of money on 
emergency response equipment and, you know, law enforcement-
type issues and things like that. So part of our job is trying 
to convince them that public health is an important part of 
emergency management and emergency response, and getting those 
public health partners the ability to apply for those FEMA 
grant dollars to support those public health initiatives that 
you and I know are so important.
    Mr. Price. Finally, just could you fill us in on the extent 
to which this is integrated into the NBIS?
    Dr. Garza. The integration of the States into the NBIS, 
sir?
    Mr. Price. Yes.
    Dr. Garza. As I mentioned, right now as it stands, it is 
very much a unidirectional flow which is going from the 
national to the States. The data that we do receive is a lot 
of--not what you would think as traditional data, whether it is 
looking for open-source reporting on disease states as well as 
getting different information from States from our fusion 
centers and various customers like that.
    But I do want to hit on that we have made tremendous 
strides I think in reaching out to the States to get that sort 
of bidirectional flow, as well as other partners.
    I recently participated with the DOD in an exercise. I am 
looking at just this issue. And the director--or I am sorry, he 
is the Assistant Secretary for Chem-Bio for DOD--is very much 
interested in partnering with DHS on this biosurveillance 
picture for a more global picture.
    As we know, DOD is deployed worldwide, so they have a 
particular interest in surveillance. We recognize that things 
that start overseas are going to be a risk to homeland 
security. So we do have a vested interest in making sure that 
we are partnered up. But we are always looking for ways to 
strengthen that relationship with our States as well. And I 
think we are headed down a good path. Thank you.
    Mr. Aderholt. Mr. Carter.

  ADVANCED SPECTROSCOPIC PORTAL DEVICES: IMPLEMENTING RECOMMENDATIONS

    Mr. Carter. Thank you, Mr. Chairman.
    My question is about the advanced spectroscopic quarterly 
ASP machines. I understand these machines are intended to 
screen people, cars, trucks, and containers for radioactive 
material at 600 U.S. ports. I also understand that the fiscal 
year 2012 budget will fund the procurement of 44 of these 
systems.
    As we talk about how over recent years DNDO has been 
criticized in its research development testing of the ASP 
machines. How has the research development testing of the 44 
planned additional systems been improved? What procedures have 
you done to improve them? Do you feel that DNDO--or are you not 
able to double-check the improvement on these machines? And 
because you are having developmental testing, can you assure us 
that the money we are spending at this time is going to be well 
spent and the equipment procurement will not again be 
criticized by GAO or the National Academy of Science?
    Mr. Stern. Thank you for your question, Congressman. I 
guess I will answer your last question first which is, no, I 
cannot assure you that we won't be criticized by GAO or the 
National Academy. But I can assure you that we will do things 
in an intellectually rigorous way and in a disciplined way to 
minimize the likelihood of that.
    The request for funding for a number of ASPs in fiscal year 
2012 is based on the assumption that the ASP makes it through 
testing, which is expected to be completed this year. That is 
not a foregone conclusion. Earlier this year, we began the last 
phase of field validation. We are at the tail end of that field 
validation, and we will go back to the Acquisitions Review 
Board to decide the path forward. And that path may be that, in 
fact, this device is ready to be fielded, or it may be that it 
is not, and it may be that it is time to terminate the program. 
But I am committed to following that process and ensuring that 
the result that comes out is a defensible result and something 
I can explain in clear terms to you.
    Mr. Carter. These are pretty expensive products, and some 
would say they are only marginally better than existing 
systems. I am wondering if you have looked at, secondly, 
inspection systems of the type--I don't have the mic turned on, 
I am sorry. Some say they are not any better than what we have 
already got.
    Mr. Stern. The certain threat materials--and this is a 
classified room so we can talk a little more broadly about it. 
[Redacted]
    So in answering your question, the ASP--the ASP device in 
secondary is a much better system than the current system we 
have in terms of dealing with the threat [Redacted]. But it is 
not necessarily the only system out there. [Redacted] And while 
we will be doing better, we won't be solving the problem with 
the ASP.
    Mr. Carter. And GAO and the National Academy of Sciences 
make these criticisms. I assume they put them in writing, and 
the people who are developing this product have looked at them 
and are trying to figure out how to solve what these folks are 
seeing as a problem, which may be your research and development 
might not have seen as a problem; is that correct?
    Mr. Stern. That is correct. I personally review all of 
these reports, and particularly the last National Academy 
report, very closely; and the test-model-test, or model-test-
model approach they recommend is resulting in a fundamental 
shift in the way we do business at DNDO. Their recommendation 
for spiral development will be a fundamental part of the ASP 
program if it goes forward, or any other program. A number of 
their fundamental recommendations will be part of DNDO. Some of 
the other recommendations that they have made are good 
recommendations but are not necessarily practically 
implementable.
    But yes, we do follow the report, the criticisms. Again, 
this gets back to this intellectual rigor, and we incorporate 
it in what we do to the extent that we can.
    Mr. Carter. And the reason I ask the question, because the 
first time you answered the question, it was sort of we are 
trying to do everything we can that we are able to do. And I 
was wondering, I want to make sure you were looking at at least 
addressing the issues. Is it beyond the scope of what you think 
is capable? Do you reply to them in any form or fashion to say 
this is really not scientifically capable?
    Mr. Stern. Yes, if I could give you an example. The 
National Academy report which again, I have a fundamental 
respect for the National Academy and their recommendations. But 
one of their recommendations was that we consider in our cost/
benefit analysis a comparison with a device that doesn't really 
exist yet. They noted that if you took the data from an 
existing device and put it into a computer with a more advanced 
computer code, you would get a better answer. And it is a 
reasonable point. It is intellectually a reasonable point. But 
it is not really part of a cost/benefit analysis, because in a 
cost/benefit analysis, you examine the costs and benefits of 
devices that actually exist, not that in theory could exist.
    So we reply to the National Academy that it is a reasonable 
point but it is not something we can follow. I have no doubts 
that DNDO, with its current staff and current budget, can do a 
better job than probably any other organization in testing, in 
setting standards for nuclear devices. I am just not sure in 
the past we have approached it the right way, and I am 
committed to turning things so that we are approaching it in 
the right way.
    I think we test devices more rigorously, even in the past, 
than any other entity in the world. And you know in Washington, 
no good deed goes unpunished. The more we test, the more things 
we expose. Of course, other devices that are out there that 
haven't been tested, you know, don't get the same degree of 
scrutiny.
    So just the fundamental answer to your question is, yes, we 
are capable of implementing any recommendations that the 
National Academy or the GAO have made. Yes, we take them very 
seriously. And yes, they will affect what we do in the future 
in a fundamental way.
    Mr. Carter. Thank you.
    Mr. Aderholt. Ms. Roybal-Allard.

         GLOBAL NUCLEAR DETECTION ARCHITECTURE: STRATEGIC PLAN

    Ms. Roybal-Allard. Mr. Stern, in your opening comments, you 
mentioned that you have completed the strategic plan. And the 
lack of a plan was what GAO highlighted as part of the failure 
with regards to the ASP. They also said that as a result of the 
lack of a strategic plan that attention was taken away from 
other aspects that were important [Redacted]. It also mentioned 
that it delayed the creation of a global nuclear detection 
architecture, which we were talking about just a little bit 
earlier.
    Can you elaborate a little bit on your strategic plan and 
how it is put together as a guide for future investments in 
technology, and also how it is used in a way that focus is not 
taken away from other aspects or other responsibilities that 
you have?
    Mr. Stern. Sure. Thank you for the question. Yes, one of 
GAO's fundamental recommendations or criticisms, if you will, 
was that focus on the ASP detracted from our broader 
responsibility of looking at the global and the domestic 
nuclear detection architecture. And I actually agree with that.
    In the past, we have spent so much effort on this one 
device that we haven't spent adequate effort on other areas of 
the global nuclear detection architecture, on other pathways, 
as you indicate, Congresswoman. So I fundamentally agree with 
the criticism, and it is why when I first came on--I think my 
first 3 or 4 months with the seven other agencies that are 
responsible to develop the strategic plan, as Congress and GAO 
had recommended. The strategic plan begins where any strategic 
plan needs to.
    It defines what the global nuclear detection architecture 
is. Before the strategic plan, there was no interagency or any 
kind of a definition of where the architecture began and where 
it ended. So there couldn't be really discussion of the very 
important element of roles and responsibilities. So the 
strategic plan begins with the definition, which took quite 
some time and effort to hammer out. It then moves to 
fundamental goals of the architecture, and then fundamental 
objectives of architecture, and then performance goals and 
then, very importantly, the roles and responsibilities of the 
many agencies that are involved in this effort.
    So the strategic plan to me in any case is a framework for 
our efforts in the future. And you may have seen our budget 
briefings, for example; and our budget requests are all now put 
in the context of the roles and responsibilities and the 
performance goals that are identified in the strategic plan. 
And that gives Congress a degree of transparency into what we 
at DNDO, we at DHS and what, across the government, what we are 
doing and what we are spending on detection architecture, 
because you have specific performance goals and the roles that 
each agency plays within that.
    But the other big and more precise thing that came out of 
the strategic plan that worked for me was this recognition 
that, given the physical limitations for example, [Redacted], 
we needed to relook at the concept that we were using to define 
our efforts. And this is where we have come up with this surge 
architecture; that is, the ability to respond to certain 
capability--to certain threats quickly, and adequate resources, 
and that then leads ultimately to, as I described at the 
outset, the need for providing substantial assistance to State 
and local authorities so that the State and local authorities 
working with the Federal Government can surge assets in order 
to detect nuclear radioactive material when we are presented 
with information that will help guide us.
    So we begin with the strategic plan. That is the underlying 
framework for what we do, and that provides some degree of 
intellectual rigor and a transparency for Congress in terms of 
what we are doing.
    Ms. Roybal-Allard. That is what I wanted to ask you about, 
because my understanding is as part of what needs to be done is 
the development of a metrics system so that you can measure the 
performance of the global nuclear detection architecture. And 
as I understand it, at least according to CRS, without this 
metrics, it will be difficult for Congress to assess the 
effectiveness of new investments in the GNDA and to monitor 
progress towards the goals.
    So my question is then: Can you update us on the 
development of this metrics system and how soon can we expect 
it to be implemented so that we as Members of Congress, we can 
use it.
    Mr. Stern. Sure. And I agree completely with CRS, GAO, and 
you. So the strategic plan is the framework.
    The next document that you will receive, which should be--I 
hesitate to say, because of clearance, but within a month.
    Ms. Roybal-Allard. Possibly.
    Mr. Stern. We are working hard and we have a good first 
draft, is our annual review. And our annual review, which you 
have received, I think the last time, 2 years ago, will be very 
different this time in that it will be much more meaty. It will 
have the metrics which you indicate and I agree is necessary in 
order to take the next step in allowing you to evaluate 
progress on the global and particularly the domestic 
architecture. And we will have real details on the work that is 
going on across the government linked to those metrics, linked 
to the performance goals and the strategic plan and what we are 
trying to achieve and how we are trying to achieve it. So if 
that answers----
    Ms. Roybal-Allard. So within about a month or so?
    Mr. Stern. Yeah.
    Mr. Aderholt. Mr. Latham.

                             AGRO-TERRORISM

    Mr. Latham. Thank you, Mr. Chairman. And, Mr. Garza, you 
are being ignored there, Dr. Garza. One of the real threats I 
have always thought was having to do with agri-terrorism, 
contamination of the food supply and foreign animal disease 
outbreaks which could be brought into the country on a 
handkerchief, basically, and rub a few cattle's nose and have 
hoof-and-mouth disease and things like that.
    What are you doing to monitor that or how--talk about the 
coordination monitor.
    Mr. Garza. Yes, sir. So you bring up a very important 
point, which is it is not all just human health issues that we 
need to worry about. The food, agricultural, and veterinarian 
sector is something that does cause us a lot of concern. We do 
play a supporting role in that. Of course, USDA as well as the 
FDA play major roles in that. But we do support efforts from 
the Homeland Security's perspective with our food, agriculture 
and veterinarian defense branch. So I employ six veterinarians 
whose sole job is to work on those efforts.
    You rightly mentioned some of the concerns with food chain 
security and with organic disease such as foot and mouth 
disease. So as we all know, foot and mouth disease is now 
somewhat of a problem in the Far East and in Korea, especially 
in North Korea. And the effects of a foot-and-mouth disease 
outbreak on the United States would be devastating to the 
economy, especially to our ranchers. We export a lot of beef. 
It would absolutely destroy that market.
    The examples that we can use for that is simple as our H1N1 
pandemic when people continued to call it swine flu, and we saw 
the pork industry be devastated just from the word ``swine'' 
flu.
    So our food, ag and vet defense branch is actively engaged 
with our partners at USDA and FDA. And some of the things that 
they have been working on are building metrics and tools for 
the States to use to build their own inherent capabilities, and 
some of these are on the Internet where the States can go. They 
answer a series of questions and it builds a risk model for 
them that says these are the things you need to be 
concentrating on, and it helps them plot out where they need to 
focus a lot of their efforts on. And so that is in partnership 
with the Federal interagency.
    In addition, we do monitor the intelligence information 
from around the world because, as you know, the food security 
supply chain is a tough, tough issue. We all saw it with the 
melamine in dog food and milk. Believe it or not--and you 
should probably get a brief on this as well--a good majority of 
the food products that the United States consumes are brought 
in from other countries, as far as the different bits and 
pieces. And so we are all connected in the food chain, and just 
one disruption in that with a dangerous chemical could cause a 
lot of economic as well as social disruption. So we are 
monitoring those things on intelligence and analysis. We are 
trying to build up State and local capacity. And we are working 
with our partners in the Federal interagency.

                            ANTHRAX VACCINE

    Mr. Latham. Just one other question. What is the status and 
the quality and availability for a supply of vaccine for 
anthrax?
    Mr. Garza. The biggest procurers of vaccine are, of course, 
the Federal Government for the Strategic National Stockpile.
    Mr. Latham. Is that modern technology?
    Mr. Garza. Is the vaccine modern technology? It has been 
around for quite a few years. I can say that there are no 
harmful effects to most people, because I am a recipient of 
that through the DOD. You can make your own judgment on that. 
But it is a federally licensed vaccine. And in order to get 
licensure from the FDA, it does have to go through safety 
studies. And so a lot of the inherent biases against the 
vaccine were really built on cases of individual reactions more 
so than problems with the general population.
    So it is a safe vaccine. It is pretty limited on the people 
that can receive the vaccine. The problem with the vaccine is 
that the current dosing for it is very lengthy. And so you have 
to get at least five does in order to become fully immune.
    Now, we are doing--not we, OHA--we, the Federal Government, 
arer continuing to do studies to see if we can reduce the 
vaccine load to fewer amounts of inoculations in order to get 
full protection. But those have not been published yet. But 
that is really the hurdle that has to be overcome is that you 
need a vaccine where you don't have to have a large series of 
shots, because you lose people to follow-up and you are unable 
to complete the series and things like that.
    Mr. Latham. Thank you, Mr. Chairman.
    Mr. Aderholt. Mr. Dicks.

      ADVANCED SPECTROSCOPIC PORTAL DEVICES: CERTIFICATION PROCESS

    Mr. Dicks. Director Stern, what hurdles must be overcome 
before the Secretary certifies advanced spectroscopic radiation 
portal monitors?
    Mr. Stern. Before the Secretary decides on certification, 
the process is that it goes through field validation and then 
operational testing, and then ultimately she will decide 
whether it is time to certify or not. That presumes again, it 
makes it through each of these steps. We are at the tail end of 
field validation. There are some issues and we are trying to 
determine how to proceed.
    Mr. Dicks. It has been 5 years and apparently two of the 
three original vendors are no longer participating in the 
acquisition because they had technical difficulties that could 
not be overcome. Raytheon, the one of many vendors, continues 
to undergo testing. Is this a problem?
    Mr. Stern. Thank you for the the question. No. As you 
described it, that is the process as envisioned. There were 
actually a much larger number of companies that tried at the 
beginning, and as time went on and at various very precisely 
defined points, those numbers were narrowed. So in the end we 
get the best device at the best cost/benefit for the U.S.
    So the process you have described is accurate, but the fact 
that there is one vendor now as opposed to three, representing 
three different devices, the ASP, A, B and C, is not a problem. 
It is the result of the process.
    Mr. Dicks. During this period, it is possible that other 
radiation detection technologies being developed by the private 
sector may have advanced far enough along to overcome the need 
for ASPs in secondary?
    Mr. Stern. There has been, I think as I mentioned in my 
testimony, a lot of progress in the private sector regarding 
portal monitors and spectroscopic portal monitors. We are in 
our decision on our path forward doing our best to take into 
account that information. Again, we have to move through the 
ASP process before we can move to another process. I want to 
make sure that the U.S. makes the best decision possible with 
the limited resources that are available. So, yes, there has 
been a lot of progress and we are going to try to take that 
into account.
    Mr. Dicks. Would those be primary screening tools, the 
newer ones that we are talking about, the newer technology?
    Mr. Stern. Whether a device is primary or secondary is more 
an issue of negotiation with the Customs and Border Protection 
and their concept of operations. They all do in essence the 
same thing; that is, some of the devices you may be referring 
to are also advanced spectroscopic portals. So they have 
different sensitivities and different capabilities, but they 
would likely perform the same function unless somehow the 
concept of operations for CBP changes.
    Mr. Dicks. I assume these would also be utilized in our 
major ports; is that correct?
    Mr. Stern. I am sorry. Take a step back. There are devices 
that are made of plastic PVT that are deployed at our ports 
across the U.S. that don't really have much of a capability to 
identify isotopes. Then there are more advanced devices such as 
the ASP that could do a much better job of identifying 
different isotopes, and there are some in the private sector. 
In the U.S., I don't believe any of these advanced portals are 
deployed at our ports. Some of them are deployed in the 
interior and some are deployed overseas, including the ASP. But 
at our ports, we use almost exclusively now the plastic, the 
PBT, portals that do not identify isotopes very well.

                 GOVERNMENT SHUTDOWN: CONTINGENCY PLAN

    Mr. Dicks. Let me ask you this: If there was a government 
shutdown, what impact would it have on both of your work? And 
are there urgent problems that would go unaddressed if that 
should occur?
    Mr. Stern. Well, we have a plan, a departmental-level plan 
in the case of a shutdown. So work definitely would go 
unaddressed. The urgent work would be addressed.
    Mr. Dicks. Thank you, Mr. Chairman.

           BIOWATCH GENERATION-3: COMPARISON TO GEN-1 & GEN-2

    Mr. Aderholt. Thank you. Secretary Garza, the BioWatch Gen-
3 is designed to provide greater coverage at a decreased cost. 
What are the added capabilities of the Gen-3 system as compared 
to the Gen-1 and -2 systems that are currently deployed?
    Mr. Garza. Thank you, Mr. Chairman. The Gen-3 system is 
designed--the basic premise of the Gen-3 is to increase the 
time to detect. The reason why that is such an important aspect 
is that we have very limited time from the time of exposure to 
the time of illness where we can deploy medical 
countermeasures. And you always have to factor in how much time 
it is going to take to look at the results, to come to a 
decision process, to deploy the SNS and distribute medical 
countermeasures. And that is a fairly lengthy process.
    So the current Gen-1, -2, is anywhere from 24 to 36 hours 
from time of exposure to time of detection. The goal of Gen-3 
is to decrease that time down to 4 to 6 hours. The other 
benefit of Generation-3 is that it will be expanding the 
distribution of the machines. So it will protect more of the 
population, we will be going from anywhere from 70 percent of 
the population protected within an urban environment, or, 
within the community, up to 90 percent. And it will increase 
the coverage of the United States population in total from 20 
percent to 33 percent.
    The other added benefit of Generation-3 is that we will now 
start taking the program indoors where there is also an 
increasing threat. As everybody I am sure knows, if a terrorist 
was a thinking terrorist, they would want to go someplace where 
there was a high concentration of people where they could get 
the most bang for their buck, and clearly some of that would be 
indoors. So we are moving some of our machines also indoors 
from five locations up to 160.
    Mr. Aderholt. Would you continue to maintain that Gen-1 and 
-2 units?
    Mr. Garza. It would be a phased deployment of Gen-1, -2, up 
to Gen-3. So there would be a period of time where we would 
simultaneously run both systems until Gen-3 came up and 
running. At that time, we would phase out Gen-1, -2. We would 
still retain that capability, though, for surge capacity, as 
well as dealing with some national security events that we do 
throughout the year and other issues as we would need to use 
them.
    Mr. Aderholt. Secretary Garza, this would be--after having 
planned to have two vendors, last year you down-selected to 
just one vendor. What drove the down-select to one vendor?
    Mr. Garza. It was not technically a down-select. It was 
during the first phase of our program, there were troubles with 
the assays and algorithms of one of the vendors. Essentially 
what that means is it was giving us positive signals when the 
bacteria or the virus that we were looking for was not present, 
and it was giving us negative signals when it was there. And 
simply that is unacceptable.
    And so we worked with the vendor and, believe me, we have 
very high regard for competitiveness. We absolutely would like 
for more than one vendor to be involved in the competition. 
However, the science is going to trump that every day. So we 
gave the vendor some opportunity to correct some of the things 
that we were seeing, and they are completely able to come back 
into the process in a second RFP phase, granted they will have 
done certain things in order to be successful in that. But at 
the end of the day, we just couldn't go along with them 
continuing in Phase 1.

              BIOWATCH GENERATION-3: TESTING & EVALUATION

    Mr. Aderholt. You have initiated a field test of Gen-3 at 
the end of February that is still ongoing. What is the status 
of the field test?
    Mr. Garza. Yes, sir. The field test is ongoing right now in 
the [Redacted]. I am happy to report the machines survived the 
[Redacted] that they had [Redacted] and came through with 
flying colors. It is ongoing right now. From all the reports 
that I have received, it has been going very well.
    And I will just put this plug out for you. We are having a 
VIP day [Redacted] that all of your staff, I believe, have 
received or will receive invitations to go up and have a look 
at the machines, ask questions, and get more information on the 
field test. I believe the field test is going to run until the 
middle of June or July, and at that time we can take a look at 
the date and see how they performed.
    Mr. Aderholt. So you are safe to say those are operating up 
to your expectations at this point?
    Mr. Garza. At this point, I haven't seen anything that 
discourages me, no.
    Mr. Aderholt. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman. I am going to follow up 
on this line of questioning and I want to clarify a couple of 
things you just said and then ask you for some further 
elaboration.
    You did terminate the contract with one of the two vendors, 
both false positive and false negative ratings unacceptably 
high. So you are saying that this second vendor could get back 
in the game only if these problems are overcome to your 
satisfaction?
    Mr. Garza. Yes, sir.
    Mr. Price. Are you making an estimation of how likely that 
is? Or are we going to in all likelihood be working here with 
one vendor?
    Mr. Garza. From my experience in looking at the testing 
procedures, it would be a steep climb to get back into. It is 
not impossible, though. But you have to--the testing and 
evaluation process that we have laid out, it was built to be 
rigorous because we understand the consequences that would 
follow given a positive test from these machines. And so we 
have to stick with what the science is telling us, that either 
these things will work the way they are expected to work and 
deliver us the information that we need.
    I did want to clarify one thing, though. We didn't 
terminate a contract. That has certain legalistic implications 
to it. So they are unable to proceed with the original Phase 1 
of the contract. But we certainly have left it open for them if 
they can correct the issues that were involved and can give us 
reasonable assurance that they have been corrected. We are 
committed to a clear, transparent, and open competition.

               BIOWATCH GENERATION-3: PATHOGEN DETECTION

    Mr. Price. Well, I certainly agree with your assessment of 
how important it is to get this right. After all, we are 
talking about very important capabilities here, more rapid 
detection, detection done without an attendant, removing a 
filter and analyzing it and so forth. These are advances that 
we know we have to achieve if this system is to live up to its 
promise.
    In this classified setting, could you discuss what specific 
biological pathogens the Gen-3 system will test for and how 
that compares to what is currently in place? I understand that 
testing for more pathogens is one of the advantages.
    Mr. Garza. Yes, sir. Currently we test for [Redacted] 
agents. [Redacted] And that is all controlled information.
    So we picked those organisms based off of the Science and 
Technology bioterrorism risk assessment as the top [Redacted] 
organisms that are at the highest risk for the United States. 
Of those [Redacted] that territory. So they make up the bulwark 
of what we look for.
    Generation-3, though, has the capacity to test up to 20 
agents. So we don't have to limit it [Redacted]. And if we 
receive intelligence or if we receive an updated risk 
information that these bacterial agents have changed, then we 
can certainly develop--we won't develop the assay, we will test 
the assay to make sure it works. But we can certainly employ 
that into the machines. We deliberately made the machines when 
we put out the request for information to make sure that they 
were expandable and compatible to do things like that.
    Mr. Price. Well, the feature of quicker turnaround and an 
automated turnaround has been much more thoroughly discussed, 
at least in this committee, than has this feature of more 
flexibility in terms of the ability to test for more agents, is 
that--in layman's terms, can you just briefly account for that 
expanded new capacity? Is it a matter of the way the machines 
operate, the machines are equipped, the way the machines are 
read? What are we talking about here?
    Mr. Garza. So the big difference between Gen -1/2 and Gen-3 
is, of course, as you mentioned. We are basically taking all of 
the functions that are inherent to Gen-1 and Gen-2 and 
compressing them into a single unit. We have affectionately 
called it a ``lab in a box.'' The laboratory workers get really 
mad at us when we say that, so we don't mention it very much. 
But that is affectionately what it does.
    It doesn't mean that Gen-1, -2 could not expand to agents 
more than [Redacted]. Because what happens is the vacuum or the 
air collector collects air in the environment through a filter 
paper. You are correct; somebody has to go pick up that filter, 
take it back to the lab where the analysis is run. We only run 
it on [Redacted] agents right now. Clearly if we needed to run 
on more agents, we could do that. We could incorporate that 
into our laboratory capacity. It would take more work, more 
money, things like that. But the beauty of the Gen-3 is we 
could incorporate it all into the machine at once, or we can 
either up-select or down-select the number of agents that we 
could use, provided that we had an adequate assay. And the 
assay is the chemicals that are used to test for the DNA of the 
bacteria, and that is something that is very technically 
difficult to make sure that you get right, because you want to 
make sure you are hitting the right bug; you want to make sure 
you are not missing the right bug as well.

  BIOWATCH GENERATION-3: NATURALLY OCCURRING VS. INTENTIONAL PATHOGENS

    Mr. Price. Now, there are some consequences for some of 
these false readings that we have seen with the earlier 
versions of this equipment. There are dozens of instances, as I 
understand it, where the BioWatch filters have captured 
dangerous germs, although none of them have been the result of 
a biological attack. In some of these instances, it has taken 
weeks to determine that this is a naturally occurring pathogen. 
That is well beyond the time it would take public health 
professionals to see the results of a biological attack. 
Speaking of the supposed time advantage, in this instance it 
has been reversed.
    Is this kind of disconcerting pattern of false readings 
continuing? What cities have been affected by this? How long 
has it taken DHS and the local community to determine that it 
was not a biological attack going on?
    Mr. Garza. Yes, sir. So allow me to explain what occurs 
with that. So they are not false readings per se, because they 
detect absolutely what they are built to detect, which is 
bacteria, DNA of bacteria. This bacteria, as I mentioned during 
the briefings, is ubiquitous in the environment. [Redacted] But 
these are not false positives. They are true positives in the 
sense that we found DNA. They are not true positives in the 
sense--and I think what you were describing in that, they were 
intentionally released.
    Mr. Price. Yes. I understand.
    Mr. Garza. So we have through our experience in working 
with that, we have come up with different ways of identifying 
whether we believe that this is an intentional release or a 
naturally occurring event. And some of those are technical 
things such as looking at cycle times. We know that if we bake 
the DNA enough or multiply the DNA enough, that we are going to 
find something. And, frankly, all of those have been where we 
have very much expanded the DNA through multiple cycles.
    So looking at that, we discussed--of course we take this 
very seriously, though. So we don't just write it off as it is 
environmental and they are ready to go about doing their 
business. We always talk with our FBI partners, with our 
emergency providers; has anybody noticed an increase in cases 
in hospitals? And then the public health providers usually do a 
prolonged surveillance period to make sure we are not missing 
anything.
    Mr. Price. Mr. Chairman, I know my time has expired. I will 
have some additional questions for the record. If I could, just 
one question for clarification here, and then I will be done. 
You talk about this process that you go through and, of course, 
it needs to be a very careful process that leaves nothing to 
chance. How much of the experimentation and demonstration and 
work that is underway on Gen-3 is going to directly address 
this problem?
    Mr. Garza. There is quite a bit, frankly. So part of that 
is selecting for the bacteria that we know is going to be the 
most likely causative agent for an intentional attack, because 
there is a lot of ``near neighbors'' is what we call them, in 
bacteria. A lot of bacteria that are in the same family but 
some of them are disease-causing and some of them are not.
    And so developing better assays so that we can target more 
specifically the organisms that we know would be of a terrorist 
origin is part of the process that went into developing Gen-3.
    Mr. Price. Thank you.
    Mr. Aderholt. Mr. Dicks.
    Mr. Dicks. No further questions, Mr. Chairman.

              GLOBAL NUCLEAR DETECTION ARCHITECTURE: GAPS

    Mr. Aderholt. Director Stern, it is not feasible, either 
financially or practically for DNDO to close every gap that 
could be used to smuggle nuclear material into the United 
States, but it is your job to determine what the highest risk 
vulnerabilities are and to put a priority on which ones must be 
mitigated.
    At the same time, we understand that your efforts to build 
a more comprehensive, inclusive global nuclear detective 
architecture across the government is still at its beginning 
stages with most shown by DNDO as being at stage zero gap 
identification in the DNDO solution development process. What 
are the biggest holes in the GNDA and how are you working to 
rapidly close them?
    Mr. Stern. Thank you for the question, Congressman. There 
are lots of holes, frankly, in the global nuclear detection 
architecture. But the biggest reason is because of simple 
physics and the way we lead our lives. And I don't think that 
that is, frankly, going to change in any time in the 
foreseeable future without a fundamental change in detection 
technology, which will take a great deal of time. And this is 
why I am changing the approach that the DNDO takes towards 
architecture to look at this surge architecture.
    I had one of my guys do just an off-the-cuff estimate of 
what it would cost to actually close the gaps in a non-rigorous 
way. [Redacted] I mean, physics is very much working against us 
here. And so what we are doing is saying, look, in the case of 
an attack, it wouldn't just come out of the blue, there will be 
some intelligence. We spend $60 to $80 billion a year on the 
Intelligence Community for a reason: because there will be some 
information.
    So let us develop an architecture that assumes some level 
of information before we act, as opposed to just having static 
detectors waiting to see what might pass by it. So we have 
begun that process, working very closely with the Intelligence 
Community, and the National Counterterrorism Center in 
particular, to help define what information would likely be 
available. For example, would the pathway be available, would 
we know whether it is in a city or a region? And from that, we 
are going to develop our architecture that allows us to 
actually define and create clear metrics, define what is 
necessary to meet that threat. [Redacted]
    So we are changing the way we look at it. We hope to have 
our first model out later this year. I think you will get a lot 
more detailed information on the approach, and on the gaps, 
even in the current approach in the annual review which you 
will have again shortly. So I hope that answers your question.
    Mr. Aderholt. What progress can you report to in the past 
year and what do you anticipate achieving in the coming year?
    Mr. Stern. I am trying very hard, as I mentioned, to 
refocus DNDO in a number of ways. The first product will be 
this new surge architecture that will allow us to create clear 
and definable metrics, numbers of detectors, how quickly people 
need to get together in order to respond to attacks or 
attempted attacks.
    The other progress in the technical area that I am very 
focused on is shifting to this model test, model approach that 
the National Academy of Science has recommended. In terms of 
devices, we will have this year two new devices, the handheld 
human portable radiation detection device--which is a very 
precise device that CBP, the Customs and Border Protection, 
will deploy across the country--and also a much more advanced 
version of this handheld device that uses a Germanium detector, 
which is really the best around, but it is also human portable.
    So those are the primary accomplishments that I hope to 
look back upon at the end of this year. The biggest one, again, 
being changing the way that the DNDO operates and the way that 
we focus on the architecture and our device development.

                           NUCLEAR FORENSICS

    Mr. Aderholt. DNDO's nuclear forensic programs represent a 
key mission for DNDO, establishing capability needed for 
government-wide forensic expertise. However, last year, the 
National Academy of Sciences in a classified report raised 
concerns about the adequacy of the Nation's nuclear forensic 
capability. And in your own justification for a $7 million 
increase, [Redacted].
    What is your assessment of U.S. forensic capability? And do 
you agree with the concerns raised by the national academics?
    Mr. Stern. Yes. I mean, nuclear forensics is a very 
important part of the Domestic Nuclear Detection Office and a 
big focus of mine. There is much room for improvement in our--
our, being the U.S. Federal Government's forensics capability; 
in fact, global forensics capability, which is why we are 
seeking a significant budget increase for forensics.
    Now, it is important also to understand that while the 
Nuclear Technical Forensic Center is part of DNDO, most of the 
forensics money is spent at other agencies. We are a 
coordinator and a facilitator and we do a limited amount of 
research and development. But it is important that the other 
agencies that do the workhorse of the analysis also see 
improvements in accordance with the National Academy's 
recommendations.
    Mr. Aderholt. What specific improvements in forensic 
capacity will be made by additional funding you have requested?
    Mr. Stern. Well, the additional funding that we have 
requested, I really break down into two areas. One is to do 
some sort of fuel cycle modeling. As you may know, when we are 
doing forensics, we can analyze the particles; but if we don't 
have anything to compare it to--that is, a particle from where 
it came from--it doesn't tell us much. So we are working on a 
program, one, to help model fuel cycles that will provide some 
insight into the second part of the analysis; that is, where 
might this have come from?
    And the second big part is, I think you described earlier, 
is working very closely with the FBI to help establish a 
mechanism to ensure that there is a reliable system for doing 
forensics analysis that would actually hold up in a court of 
law.
    Mr. Aderholt. Mr. Price.
    Mr. Price. No further questions, Mr. Chairman. Thank you. I 
do want to thank our witnesses for wide-ranging and quite 
helpful testimony.
    Mr. Aderholt. Yes. Thank you both for your testimony here 
today. And there may be some additional questions that we will 
submit to you for questions, and some of the members who were 
not able to be present today.
    So again we appreciate your testimony before the 
subcommittee. So the subcommittee is adjourned.

[GRAPHIC] [TIFF OMITTED] T8060A.263

[GRAPHIC] [TIFF OMITTED] T8060A.264

[GRAPHIC] [TIFF OMITTED] T8060A.265

[GRAPHIC] [TIFF OMITTED] T8060A.266

[GRAPHIC] [TIFF OMITTED] T8060A.267

[GRAPHIC] [TIFF OMITTED] T8060A.268

[GRAPHIC] [TIFF OMITTED] T8060A.269

[GRAPHIC] [TIFF OMITTED] T8060A.270

[GRAPHIC] [TIFF OMITTED] T8060A.271

[GRAPHIC] [TIFF OMITTED] T8060A.272

[GRAPHIC] [TIFF OMITTED] T8060A.273

[GRAPHIC] [TIFF OMITTED] T8060A.274

[GRAPHIC] [TIFF OMITTED] T8060A.275

[GRAPHIC] [TIFF OMITTED] T8060A.276

[GRAPHIC] [TIFF OMITTED] T8060A.277

[GRAPHIC] [TIFF OMITTED] T8060A.278

[GRAPHIC] [TIFF OMITTED] T8060A.279

[GRAPHIC] [TIFF OMITTED] T8060A.280

[GRAPHIC] [TIFF OMITTED] T8060A.281

[GRAPHIC] [TIFF OMITTED] T8060A.282

[GRAPHIC] [TIFF OMITTED] T8060A.283

[GRAPHIC] [TIFF OMITTED] T8060A.284

[GRAPHIC] [TIFF OMITTED] T8060A.285

[GRAPHIC] [TIFF OMITTED] T8060A.286

[GRAPHIC] [TIFF OMITTED] T8060A.287

[GRAPHIC] [TIFF OMITTED] T8060A.288

[GRAPHIC] [TIFF OMITTED] T8060A.289

[GRAPHIC] [TIFF OMITTED] T8060A.290

[GRAPHIC] [TIFF OMITTED] T8060A.291

[GRAPHIC] [TIFF OMITTED] T8060A.292

[GRAPHIC] [TIFF OMITTED] T8060A.293

[GRAPHIC] [TIFF OMITTED] T8060A.294

[GRAPHIC] [TIFF OMITTED] T8060A.295

[GRAPHIC] [TIFF OMITTED] T8060A.296

[GRAPHIC] [TIFF OMITTED] T8060A.297

[GRAPHIC] [TIFF OMITTED] T8060A.298

[GRAPHIC] [TIFF OMITTED] T8060A.299

[GRAPHIC] [TIFF OMITTED] T8060A.300

[GRAPHIC] [TIFF OMITTED] T8060A.301

[GRAPHIC] [TIFF OMITTED] T8060A.302

[GRAPHIC] [TIFF OMITTED] T8060A.303

[GRAPHIC] [TIFF OMITTED] T8060A.304

[GRAPHIC] [TIFF OMITTED] T8060A.305

[GRAPHIC] [TIFF OMITTED] T8060A.306

[GRAPHIC] [TIFF OMITTED] T8060A.307

[GRAPHIC] [TIFF OMITTED] T8060A.308

[GRAPHIC] [TIFF OMITTED] T8060A.309

[GRAPHIC] [TIFF OMITTED] T8060A.310

[GRAPHIC] [TIFF OMITTED] T8060A.311

[GRAPHIC] [TIFF OMITTED] T8060A.312

[GRAPHIC] [TIFF OMITTED] T8060A.313

[GRAPHIC] [TIFF OMITTED] T8060A.314

                                          Wednesday, April 6, 2011.

                  FEDERAL EMERGENCY MANAGEMENT AGENCY

                                WITNESS

CRAIG FUGATE, ADMINISTRATOR, FEDERAL EMERGENCY MANAGEMENT AGENCY

                  Opening Statement: Chairman Aderholt

    Mr. Aderholt. The hearing is called to order. Good morning.
    Today we welcome the Administrator of the Federal Emergency 
Management Agency, better known as FEMA, Craig Fugate, to 
discuss his Agency's $8.2 billion request for fiscal year 2012.
    As we know, FEMA has continued to evolve in the years 
following Hurricane Katrina and has been required to make 
changes under the Post-Katrina Emergency Management Reform Act 
of 2006. This law expanded FEMA's responsibilities and 
authorities for disaster response and recovery in integrated 
preparedness functions. Today we want to hear from 
Administrator Fugate on how the transformation is proceeding 
and the challenges he faces in the coming year. We will also 
want to hear from him on some concerns we have of FEMA's 
budgeting.
    Over the last year FEMA has worked to help devastated 
communities rebuild itself. As a Member of Congress from a 
State that is very familiar with severe damage from 
catastrophic events, I know firsthand FEMA's successes and, 
regrettably, FEMA's struggles.
    Administrator Fugate, this Committee has a strong history 
of responding to your Agency's needs, providing funding that 
was so desperately needed to rebuild and reorganize FEMA in the 
post-Katrina era, and we will continue to do so, but that 
funding cannot be a blank check. Today our country faces 
disaster of a different kind, a fiscal disaster that will 
require change that some may find hard to accept. This means 
that today, more so than ever, we must budget responsibly for 
known requirements, and we must also ensure that funding is in 
line with measurable goals on the Federal, State and local 
levels.
    Administrator, I want to touch on two of the issues of 
greatest concern facing us this year in reviewing your budget 
request; first, your Disaster Relief Fund, or DRF, as it is 
sometimes referred to. As we sit here today, the DRF inches 
closer and closer to insolvency. Last year when faced with this 
exact situation, Congress bailed out the DRF with a $5.1 
billion supplemental. Now, just a few months later, your Agency 
has informed us that the $5.1 billion was not enough, and you 
need an additional appropriations to complete this year. Today 
we believe you need almost $1.5 billion for this year, but, 
frankly, I am not sure how confident I am with that figure 
since it seems to change rather frequently. But whatever the 
number is, we know that it is significantly more than what is 
available, even when including the $5.1 billion extra Congress 
provided just a few months ago. How will you complete this year 
when we all know that the DRF is almost broke?
    We have asked repeatedly what FEMA will do, and thus far no 
one can answer, even as the balance in DRF continues to 
diminish. You are forcing Congress to address a situation, 
since, once again, the administration has failed to do so. In 
the current fiscal environment this means cuts throughout the 
entire Department of Homeland Security, cuts that may be 
unappealing to many, but cuts that are necessary in order to 
bail out FEMA. In other words, we are forced to take money from 
other Department of Homeland Security components to fill FEMA's 
shortfalls.
    While the shortfall in fiscal year 2011 is of great 
concern, the situation in fiscal year 2012 is alarming. The 
Department continually states that it funds to a rolling 5-year 
average, but the math does not work. By our math, based on your 
5-year average, you need $4.6 billion just for the average cost 
of noncatastrophic events. Added to that we understand you need 
$3 billion for the costs associated with prior-year 
catastrophic events, costs you knew about before you submitted 
a budget to Congress, but failed to fund. This brings it to a 
total of $7.6 billion. However, your fiscal year 2012 budget 
only requests $1.8 billion for the Disaster Relief Fund. This 
puts individuals and communities at great risk.
    What we would like to hear from you today is your reasoning 
behind this. When I asked Secretary Napolitano this exact 
question just 4 weeks ago, she said you would recover more 
money from prior-year unobligated balances, and that you would 
seek a supplemental to cover the full cost. First, the 
President's budget assumes $900 million from prior-year 
recoveries. Thus far you have not adjusted that number, and we 
have seen no plan to show how this will be achieved.
    Second, what is more astonishing is that we sit here 6 
months from the beginning of the next fiscal year, and your end 
game for fiscal year 2012 is to ask for an emergency 
supplemental even though this unfunded amount is not an 
emergency, and it was known prior to the submission of the 
fiscal year 2012 budget. This has to be one of the most 
startling examples of irresponsible budgeting shenanigans that 
this subcommittee has seen. I trust that during our discussion 
today you can add some insight as to this rationale for this 
request.
    The second issue in front of us today is the continuing 
lack of metrics for the billions of dollars we have invested in 
the first responder grants. Since 9/11, the U.S. taxpayers have 
invested over $33 billion in first responder grants. The 
question we ask year after year is how much safer are we, how 
better prepared are we, what are the gaps, how much more needs 
to be done; however, year after year we don't get answers, yet 
the Department asks for more money even though we have no 
quantifiable justification to support these requests.
    According to staff reports, you are working on metrics, but 
the Departments have told Congress the same thing many times in 
the past. FEMA has tried multiple times to create metrics, but 
all efforts have resulted in failure. Now we hear that a new 
revised Homeland Security Presidential Directive 8 will address 
the national preparedness, and thus FEMA is waiting on it 
before developing metrics.
    While we need to support our local fire responders, we must 
seek a method to determine what we are getting for the billions 
in grant funding we appropriate from this subcommittee each 
year. After almost a decade of investment, it is time to stop 
making excuses and address the situation with the seriousness 
that is needed so that our taxpayers have confidence that hard-
earned money is being used as effectively as possible. In 
short, these grant programs were never meant to permanently 
subsidize local responsibility, but help bolster capability by 
buying down risk and addressing gaps so States and local 
governments could respond. However, to do this, we need to 
measure the capabilities and gaps so that taxpayer funds are 
invested in a wise manner.
    Administrator, these are not new concerns, and issues of 
which you are very familiar. I look forward to your thoughts 
and your insights as we have our discussions today on these 
problems and what progress you have made in the last year, as 
well as the challenges that remain. I would be remiss if I 
didn't, however, thank you for taking on such a challenging job 
that you have taken on at such an important time in our 
Nation's history, and this subcommittee understands the 
challenges that you have.
    As your written testimony will be placed in the record, I 
would ask that you take about 5 minutes to summarize it for the 
committee. But before you begin, I would like to recognize the 
ranking member Mr. Price for his opening remarks.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8060A.315
    
    [GRAPHIC] [TIFF OMITTED] T8060A.316
    
    [GRAPHIC] [TIFF OMITTED] T8060A.317
    
    [GRAPHIC] [TIFF OMITTED] T8060A.318
    
    [GRAPHIC] [TIFF OMITTED] T8060A.319
    
    [GRAPHIC] [TIFF OMITTED] T8060A.320
    
    [GRAPHIC] [TIFF OMITTED] T8060A.321
    
                Opening Statement: Ranking Member Price

    Mr. Price. Thank you, Mr. Chairman.
    Welcome, Mr. Fugate. We are glad to welcome you back to the 
Subcommittee to testify once again on the Federal Emergency 
Management Agency's work to prepare our country for disasters 
and to mitigate and minimize any losses. I want to thank you 
for your leadership of this critical government function. You 
have brought to the job the expertise and experience of a 
seasoned emergency manager, and you have left your distinctive 
mark on the Agency, building a more decentralized FEMA that is 
designed to be closer to the States and to respond to their 
needs more effectively. I am interested to hear how your work 
is progressing, including any measures of the success of your 
reforms.
    Our main purpose here today is to discuss your 2012 budget, 
and I want to flag some concerns as we get this hearing under 
way. The request for FEMA is $6.8 billion. That is 5 percent, 
or $339 million, below the 2010 enacted level. It appears that 
your Agency has been asked to do the most with the least amount 
of resources compared to other DHS components.
    In the current rush to cut government services, we need to 
be particularly careful that we do not sacrifice our Nation's 
preparedness for disasters. Disasters, after all, are going to 
happen. They are unavoidable, but many of their consequences 
can be avoided with the right preparation. I have already 
expressed concern to the Secretary about your 2012 request for 
disaster relief, which appears to provide only enough resources 
to last about halfway through the fiscal year. And the request 
does not recognize an additional $6 billion in catastrophic 
costs that are coming due. If we know the costs for ongoing 
recovery activities associated with large disasters, then it 
makes sense to provide Congress with a budget request that will 
meet those disaster relief obligations. Emergency supplementals 
should be used for unanticipated emergencies, not to meet half 
of the annual funding needs that we, in fact, can anticipate.
    It also worries me that your request substantially reduces 
funding in staffing levels within the management of the 
administration account. After I became Chairman of this 
Subcommittee, we spent 4 years making sure FEMA had sufficient 
staffing and resources to support States and localities in 
times of emergency, to provide efficient oversight over the 
billions of State and local first responder grants it is 
responsible for each year, and to soundly manage your Agency's 
finances, logistics, human capital and contracting efforts. We 
need to understand these reductions better to make sure that 
they in no way impede your missions. So you are going to need 
to let the Subcommittee know if that is not the case; otherwise 
we are going to want to scrutinize those reductions very 
skeptically.
    The budget request also substantially reduces funding for a 
variety of grant programs, including cutting assistance to 
firefighters by $140 million, and cutting in half funding for 
the Emergency Food and Shelter Program at a time when States 
and localities are still on shaky economic footing. We want to 
know if and how we can justify such reductions.
    On the other hand, I am pleased to note the modest 
increases you have proposed for Emergency Management 
Performance grants and Urban Area Security grants. And I am 
glad you are seeking to maintain funding for port and transit 
grants at the 2010 level. Especially as States and localities 
are cutting funding to emergency and public safety, these 
grants are a critical bulwark against the erosion of 
preparedness at the local level.
    Finally, your request more than halves funding for the 
Flood Hazard Mapping and Risk Analysis Program. We know that 
flooding is the most frequent and costly natural hazard in the 
United States. In fact, much of the northern half of U.S., from 
Montana to New York, faces an above-average risk of flooding in 
the next few weeks, according to the National Weather Service. 
FEMA is required by law to update flood maps and the risks 
associated with flooding every 5 years, so we need to know how 
you plan to continue meeting your statutory requirements with 
the significantly reduced resources. The alternative, of 
course, is an acceptance of greater risk and potentially 
greater cost to local communities and the Federal Government.
    So, Mr. Chairman, I hope that we can work together to 
address these problems as we develop our 2012 funding 
recommendations. And, Administrator Fugate, we look forward to 
working with you in this endeavor. I want to thank you for your 
service to the country. We look forward to a productive 
discussion today and continuing to work together for our 
resilient Nation.
    Thank you.
    Mr. Aderholt. Thank you, Mr. Price.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8060A.322
    
    [GRAPHIC] [TIFF OMITTED] T8060A.323
    
    [GRAPHIC] [TIFF OMITTED] T8060A.324
    
                Opening Statement: Administrator Fugate

    Mr. Aderholt. Mr. Fugate, we look forward to your 
testimony.
    Mr. Fugate. Good morning, Chairman Aderholt and Ranking 
Member Price, and members of the committee. I am here today to 
present the FEMA fiscal year 2012 fiscal budget. And given that 
you have already taken my written testimony, I just want to hit 
a couple key points, because I think you really would like to 
get into the Q&A piece of this and actually discuss some of the 
issues you have raised.
    Our mission is to support State and local first responders. 
There is this tendency that people think of FEMA as a response 
organization. What we do is coordinate and facilitate on behalf 
of the present homeland security Federal resources when 
disaster strikes and Governors request assistance under the 
Stafford Act. But alternatively, we also provide support to 
other Federal agencies when they need coordination on behalf of 
those authorities that you have given us.
    I have been doing this for a while in budget discussions. I 
have never been told to go do what you need to do, and it is a 
blank check. We have always had to work within the constraints 
of the budget. We have always had to prioritize. In many cases 
we have to make hard decisions that are not always easy, and 
that is the reality of coming from local and State government 
and dealing in constrained budget environments where the 
disasters do not stop and having to prioritize those issues and 
funds that are available to continue to ensure that we are 
ready to respond and support our citizens in their time of 
need.
    Because of the significant investment that was alluded to 
with the Post-Katrina Emergency Management Reform Act and the 
investments that have been made in the Agency, we have been 
working to take steps not only to implement the improvements 
required in the Post-Katrina Emergency Management Reform Act, 
but also to look at how we do business and further reduce that 
cost in the overhead of administering disasters. We are trying 
to do what we feel are the things that increase that 
efficiency, focusing continuously on the mission and the 
outcomes and taking a hard look at the business processes and 
asking questions: Why are we doing it this way? Is there a 
better way to do it? Can we reduce the overall cost without 
affecting our ability to deliver services?
    Some of this is the straightforward approach of why are we 
having to do all the traveling when we can use conferences and 
videoconferencing tools to meet that need, shutting off and 
turning off excessive equipment that isn't needed that was 
turned on during past disasters, looking at how we can leverage 
our resources and personnel to do a better job by reorganizing 
our team to reflect what we do, and looking at an outcome-based 
strategic plan.
    I will just close with this, Mr. Chairman, and prepare to 
take questions. When you read most strategic plans, they talk 
in various terms about what you want to do, but they very 
rarely put a number about what you are going to measure it 
against. And so in doing this, our strategic plan is based upon 
what are the types of events and outcomes we need to achieve in 
large-scale catastrophic disaster response. And we are looking 
at basing that outcome on the needs of the immediate response 
issues, the intermediate phases, into the long-term recovery 
aspects.
    Again, our mission statement as issued by Congress is to 
prepare for, protect against, respond to, recover from, and 
mitigate all hazards. But we also know that FEMA is not the 
team, we are part of the team. And we have to be able to make 
sure that our working relationship with our State and local 
partners, the private sector, and most importantly the public, 
is the foundation of how we address this country's risk from 
disaster.
    Thank you, Mr. Chairman.
    Mr. Aderholt. Thank you, Administrator. And we appreciate 
your testimony.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8060A.325
    
    [GRAPHIC] [TIFF OMITTED] T8060A.326
    
    [GRAPHIC] [TIFF OMITTED] T8060A.327
    
    [GRAPHIC] [TIFF OMITTED] T8060A.328
    
    [GRAPHIC] [TIFF OMITTED] T8060A.329
    
    [GRAPHIC] [TIFF OMITTED] T8060A.330
    
    [GRAPHIC] [TIFF OMITTED] T8060A.331
    
    [GRAPHIC] [TIFF OMITTED] T8060A.332
    
    [GRAPHIC] [TIFF OMITTED] T8060A.333
    
    [GRAPHIC] [TIFF OMITTED] T8060A.334
    
    [GRAPHIC] [TIFF OMITTED] T8060A.335
    
    [GRAPHIC] [TIFF OMITTED] T8060A.336
    
    [GRAPHIC] [TIFF OMITTED] T8060A.337
    
    [GRAPHIC] [TIFF OMITTED] T8060A.338
    
    [GRAPHIC] [TIFF OMITTED] T8060A.339
    
    [GRAPHIC] [TIFF OMITTED] T8060A.340
    
                          DISASTER RELIEF FUND

    Mr. Aderholt. I think, as you see from past hearings, that 
having the Members ask you questions directly about some of 
these issues, I think, will be most helpful.
    I think one of the things that I had alluded to in my 
opening remarks and that I think is certainly something that is 
of great concern to the subcommittee--and we have had these 
conversations before, but let me just get right to the point. 
You are running a substantial shortfall in the DRF that has not 
been addressed for the remainder of this year or in the budget 
for fiscal year 2012. The bottom line is the fiscal year 2012 
budget and your fiscal year 2012 requests do not support the 
sizable disaster relief cost for the rest of the year or the 
next. The subcommittee needs to know the plan. How will you 
complete the year when you are already clearly short of the 
required funding for fiscal year 2011 by an estimated of $1.5 
billion?
    Mr. Fugate. Mr. Chairman, the Disaster Relief Fund (DRF) 
and the history of how we fund that, this Nation, has been 
debated and discussed numerous times, and so I am going to 
present what I think is the philosophical approach that we have 
taken.
    I understand the issues you are raising. I will start with 
fiscal year 2011. We currently have a little over $1 billion in 
the Disaster Relief Fund. We consider that once we go below $1 
billion, that we need to implement an immediate needs funding, 
which would limit funding to only those emergency actions in 
response and individual assistance, and would no longer support 
permanent work or mitigation projects from previous disasters.
    That also is contingent upon another issue that this 
committee and others have raised in the number of open 
disasters and funds that have been obligated in those previous 
disasters but were not drawn down. Last year we looked at open 
missions to Federal agencies and began closing out those 
disaster missions. That returned a little more than $2 billion 
back into the Disaster Relief Fund.
    Mr. Aderholt. Two billion dollars.
    Mr. Fugate. Yes, sir.
    This year we are looking at those disaster funds to State 
and local governments where the projects have been completed, 
but in the initial allocation they did not require all of the 
funds. Those balances have to be closed out, and in doing so 
would return back to DRF. We were projecting, as we started 
this process this year, about $120 million to $125 million per 
month. Last month we were able to close out and return $240 
million back to DRF.
    Now, again, this is work that is already completed. We are 
not taking money away from State and local governments. What 
happens many times is when we do a project, the project may be 
approved for, let's say, a debris mission of $100 million. When 
the actual work is done, all the bills are paid, it may only 
have been $80 million, but as long as that obligation is there, 
that $20 million that could have been returned is not available 
to DRF because it is considered obligated. So as we go through 
that process and deobligate those funds, they go back into the 
DRF.
    And so this process this year is focused on those open 
disasters with State and local governments where the work has 
been done. This is not an appeal. This is not stopping 
projects. This is taking work that is already completed and 
determining if all the funds allocated were expended, and, if 
not, putting those dollars made available back into the DRF.
    So that process this year, again it is a little bit early 
to get an estimate, but we are looking at--again, I don't know 
if we are going to have last year's numbers, but there are 
substantial open disasters where the funds have not been drawn 
down, the work has been done, and we are looking to free those 
dollars up to go into the DRF. So, therefore, our best 
estimates still look at--if we get the 2011 request for the 
DRF, it would be a May-June time frame before we would reach 
immediate needs funding, but the unknown is how successful we 
are going to be in closing out disasters, and will that move 
that further into the year and reduce any additional amounts 
that may be required. So that is for this fiscal year.
    As to the 2012 budget request, I think this is where it is 
a question of when these disasters occur and the initial 
appropriations are given, how do you fund the outyears? And 
let's take Katrina, one of our largest disasters. The majority 
of those funds were not going to be expended in the first 
emergency supplementals. It requires literally years to 
rebuild. And I guess the question is: Do you place that into 
your baseline budget because this is a very large disaster that 
is going to take multiple years to pay out, or do you look at 
your averages, budget for that, and then look at the 
supplemental process for these extraordinary costs moving 
through the budget?
    I think this is a philosophical issue. This is not 
something that this administration has started with; this has 
been something that has been done in previous administrations, 
and in the outstanding large-scale disasters, supplementals 
were requested to pay for those large projects as they came 
through the system.
    Whether or not you can project accurately that number is 
another issue. From my experience as a State director in trying 
to do that within State, because you are dependent upon State 
and local construction projects, bids, everything that goes 
into that project, it is somewhat difficult to have a fixed 
number, and in many cases as a State director, we were asking 
for appropriations and authority that may not be actually drawn 
down that year because the projects did not come on line during 
that time frame.
    So it is, to me, again, how do we approach the large-scale 
disasters that are moving through the system that are 
multiyears but are not expected to be there 5, 6, 7 years out, 
and are going to be a bubble moving through the budget process 
against the top line of the total appropriations? And I think 
this is a philosophical question, Mr. Chairman: How do you 
budget that? Do you put that in your top-line budget and go, if 
this is my top-line budget, I am going to take that $5 to $6 
billion that are moving through on those disasters and now make 
that my top line, or do I look at my top line on a recurring 
average and then place that on top? And again, I think it is 
philosophical as to how to best to do that, but this has been 
the way that this administration and the previous 
administration had addressed the DRF for those costs above the 
annual request for the appropriation.
    Mr. Aderholt. Let me just ask you straight up: Would you 
agree that there is $3 billion stated for fiscal year 2012 
already, though; do we know that?
    Mr. Fugate. The exact number, Mr. Chairman, I would have to 
ask staff to look at what we project for recoveries. We also 
were budgeting into that what we were going to estimate for 
recoveries. So I can't say that is not the number; I would just 
say I don't know.
    [The information follows:]

    Mr. Aderholt. Let me just ask you straight up: Would you agree that 
there is $3 billion stated for fiscal year 2012 already, though; do we 
know that?
    Mr. Fugate. The exact number, Mr. Chairman, I would have to ask 
staff to look at what we project for recoveries. We also were budgeting 
into that what we were going to estimate for recoveries. So I can't say 
that is not the number; I would just say that I don't know.
    Response. The $3 billion figure represents a rough estimate of the 
catastrophic need for FY 2012. The estimate is based on a projection of 
annual total recoveries of $1.5 billion, project completion times that 
may fluctuate greatly, and an assumption that there will be no 
additional occurrences of catastrophic events. While the Administration 
continues to work on improving its DRF estimation capabilities, the 
variation inherent in the projection should be an accompanying caveat 
for any DRF figure.

    Mr. Aderholt. But it very likely is?
    Mr. Fugate. Yes, sir. I just don't know what recovery 
amount was built into that, if that was on that number, or 
would that go against it?
    Mr. Aderholt. And this would be for a catastrophic?
    Mr. Fugate. Yes. These would be for those outstanding 
large-scale disasters that are still working through the 
system.
    Mr. Aderholt. Let's talk about the 5-year average. Could 
you explain how you budgeted to the 5-year average in fiscal 
year 2012, which is $4.6 billion, even though you requested 
$1.8 billion?
    Mr. Fugate. Well, again, we look at trend data for those 
disasters, not catastrophic. And this number, again, is one 
that would go through the budget process trying to get to what 
that reoccurring average is. And that is a number that I think 
is, again, at the center of debate of how much that trend is 
going up, or how many catastrophic disasters are being built in 
that base.
    Mr. Aderholt. How much of this shortfall can be offset with 
recovered unobligated funding beyond the $900 million already 
included in the budget request?
    Mr. Fugate. Again, I have always been reluctant, Mr. 
Chairman, to talk about a number until we get in there, because 
there is a lot of unknowns. We think that it is over $1 
billion, but we are not sure what that recovery looks like or 
the pace of that recovery. As we get more information this 
summer as we are doing this--again, last month we were only 
projecting about $120 million; we actually hit $240 million.
    Some of these projects are very large. If you close out one 
or two projects, you can get a very substantial number. Others 
have not that big of a number. So as we do it, it is not 
something that is easy to project until we actually have some 
time doing it, and seeing what those trends look like, and 
seeing what we are finding in these recoveries. And, Mr. 
Chairman, as soon as we get that kind of trend data, we see 
that pattern and get a better sense of that, we will provide it 
to the committee; but as it is now, starting that process, we 
doubled what we thought we were going to get this year. We saw 
a similar trend last year where we actually were recovering 
much more early on than we thought we were, and that tended to 
push out the requirements for additional funds.
    Mr. Aderholt. I may have some follow-up in a minute, but 
let me go to Mr. Price.

       GRANTS: STAFFING FOR ADEQUATE FIRE AND EMERGENCY RESPONSE

    Mr. Price. Thank you, Mr. Chairman.
    Administrator, I would like to lead off with a question 
about the fire grants and then move on to flood hazard mapping, 
either now or in the next round of questions.
    As you know, we continue to debate the appropriate level of 
funding for the SAFER program and for the fire grants. 
Fortunately on the House floor we are able to reverse the cuts 
that had been proposed in H.R. 1 and to restore full funding 
for both the SAFER program, the personnel program, and for the 
firefighter assistance grants. And your 2012 budget proposes 
$670 million overall for firefighter assistance grants, 
including full funding of $420 million for SAFER, but the fire 
grant equipment program is being reduced, which I, for one, 
will want to examine skeptically. You may want to say something 
about that.
    But I want to ask you a prior question about the personnel 
side of this. We understand that at a time of economic 
downturn, the personnel program performs a broader function 
than the SAFER grants normally do. In other words, it often is 
needed to restore personnel, to prevent layoffs, to help 
communities deal with economic diversity, hopefully to avoid 
layoffs in the first place. So along with the need for adequate 
funding comes a need for flexible rules, and in particular for 
a waiver of the cost-sharing and local matching provisions, and 
also a waiver of the requirement that these be new additional 
personnel.
    So we, of course, are hopeful about our economic recovery 
as we chart our way back to full economic health, but we know 
that local public safety budgets are not recovered, and that 
there is a good deal of unevenness around the country in the 
health of those budgets.
    Now, your testimony states that the fiscal 2012 request 
includes $670 million for firefighter assistance grant 
programs. Included in this amount are $420 million for SAFER 
grants to rehire laid-off firefighters and retain veteran first 
responders, totaling 2,300 firefighter positions. You do need a 
waiver to use SAFER funds to retain firefighters, and I want to 
ask you about an apparent omission, maybe an inadvertent 
omission, that this waiver isn't included in the 2012 budget. 
So the question is quite straightforward: Do you support the 
continuation of waivers to retain firefighters? And in your 
opinion, have the waivers been successful in stemming the tide 
of potential firefighters layoffs?
    Mr. Fugate. The first question, yes, sir. The second 
question, based upon the available funds, yes, sir, there have 
been those that have been rehired or those that we prevented 
the layoffs from. And in many cases, there has been more demand 
for the funds than the availability of those dollars.
    So the first question is yes. The second question, sir, is 
yes.

                   GRANTS: ASSISTANCE TO FIREFIGHTERS

    Mr. Price. Yes, that is certainly my impression as well. 
When we were having the debate on the House floor over H.R. 1, 
at that point a number of firefighters from around the country 
made their way to Washington. They did a real service, I think, 
in doing that and in bearing witness to the difference these 
funds had made as their departments attempted to retain their 
full strength in terms of personnel.

    Will you say a word about the budget proposal with respect 
to the fire grants as compared to the personnel program, what 
kind of rationale underlies that request?

    Mr. Fugate. Yes, sir. Given the issues of looking at where 
we could make reductions and target those reductions, we felt 
in the current budget climate that we should continue to level 
funding for firefighter personnel, and that if we were going to 
have to look at a reduction, we would take it in the equipment 
support. We realized that neither--these options are not 
necessarily things people want to see, but because of the 
reality of the budget and the request to reduce our funding, we 
made the strategic decision for the positions themselves versus 
the equipment and other programs eligible under the AFG grants.

    Mr. Price. So that the decision is a function of the budget 
pressures you are experiencing and perceiving, not a reduced 
demand or any judgments necessarily about the program itself?

    Mr. Fugate. No, sir. I think this, again, comes back to we 
don't have unlimited resources. We generally see far more grant 
requests than we have funds. That is just a reality of what we 
are doing. But in looking at where we are going to make 
reductions and make those recommended reductions to Congress, 
we felt that reducing the grant programs for the equipment and 
other programs that are eligible was preferable than reducing 
the funding for the actual firefighters themselves, sir.

    Mr. Price. All right. I will wait on the next round for the 
mapping because I do want to get into that. Thank you very 
much.

    Mr. Aderholt. Mr. Crenshaw.

    Mr. Crenshaw. Thank you, Mr. Chairman.

    And thank you for being here. I know that you are from 
Florida.

    Mr. Fugate. Yes, sir.

               NATIONAL FLOOD INSURANCE PROGRAM: COVERAGE

    Mr. Crenshaw. And so you know a little bit about 
hurricanes. And I guess when you look across the country, as 
you said, we are always going to have disasters. I mean, we are 
going to have hurricanes, we are going to have tornadoes, we 
are going to have earthquakes. And I guess Katrina was a pretty 
good example, like $80 billion.

    And I want to ask you a little bit about what you think the 
Federal Government's role ought to be in helping States like 
Florida, who tries to kind of plan in advance through 
catastrophic insurance. And there have been proposals from time 
to time to have Federal legislation that would allow States to 
get together and to pool their resources, because if we assume 
that we are going to have these disasters, and we assume that 
they are going to be very, very expensive, it seems like one of 
the things we ought to be trying to do is try to help private 
dollars, insurance dollars, prefund some of those catastrophes.
    So could you talk a little bit about--I can't remember 
exactly what goes on in Florida, but I know there have been 
efforts to do that--how you think that works, and do you think 
that the Federal Government ought to set up some sort of 
program to expand that to where States are getting together 
where they are going to have an earthquake in California and a 
hurricane in Florida and a tornado in Kansas? What are your 
thoughts about that to help reduce the overall cost, because if 
we keep going like we are going, sooner or later there is going 
to be one gigantic hurricane even bigger than Katrina, and in 
these days of difficult dollars, it could really put a hurting 
on the Federal Treasury.
    Mr. Fugate. Congressman, coming from Florida, as you know, 
the primary issue here has been the affordability and 
availability of coverage for insurance for individual 
homeowners and businesses. And so I will limit the questions to 
that. I think it is another discussion about the cost of the 
impacts to the government and the government buildings and 
other facilities themselves.
    We currently administer a National Flood Insurance Program 
in the United States, which is a federally administered, 
federally backed by the U.S. taxpayer program of providing a 
type of insurance that the private sector does not provide. 
That program is not solvent; it has a lot of challenges and is 
currently being discussed for reauthorization. Currently FEMA, 
the National Flood Insurance Program, owes close to $18 billion 
to the Treasury due to payouts as a result of the hurricanes in 
2005.
    In looking at how you address this, I think we have to be 
very careful that we engage the private sector in such a way 
that we don't increase the vulnerability or the burden to the 
taxpayers unless it is a strategic investment on behalf of the 
taxpayer to mitigate some of those risks. I think some of the 
things you discussed as providing, because of the interstate 
clause, States the ability to pool reinsurance rather than 
doing State by State may be an area to look at. We certainly 
are encouraged by the draft legislation that would look at how 
we could begin to engage the private sector in some aspects of 
the National Flood Insurance Program.
    But I think you are absolutely right. Most of the 
assistance that we provide in the individual assistance program 
is based upon lack of insurance, whether it was a particular 
exposure that wasn't covered by a homeowner policy such as the 
exclusion of floodwaters and requirement of a national flood 
insurance policy; whether it is exclusions by wind that you 
face in your communities where the various State insurers have 
basically said, ``We will provide everything but hurricane 
protection, and you are going to have to buy that from a State 
wind pool''; to earthquakes, now sinkholes, now mold.
    And I think it is going to be a growing challenge that if 
we are looking at the private-sector insurance to provide the 
bulk of the protection to individual homeowners in the private 
sector, that is something we need to look at. But I will 
caution against the Federal Government becoming a direct 
provider of that insurance. I think that the National Flood 
Insurance Program shows some of the challenges with that. And 
it may be more on the lines of looking at some of the 
interstate clauses of allowing the insurance commissioners in 
States to pool resources.
    The biggest issue is, unless you can geographically 
distribute your risk across areas, it is very difficult to 
reduce the total cost of that risk. If you are looking at a 
hurricane-prone State like Florida, could you offset some of 
that risk with a flood-prone or an earthquake-prone State so 
that you didn't have the same hazard in the same pool as what 
would happen if you just looked at the Gulf Coast States?
    Mr. Crenshaw. But in a bigger sense, a broader sense, you 
said it would be something worth looking at. But the 
catastrophic insurance pool that Florida has to kind of prefund 
those catastrophes as opposed to waiting until it happens and 
then kind of bail it out, like we do at the Federal level, do 
you have any thoughts? Is that kind of beyond what you have had 
to focus on from day to day, or do you think there ought to be 
some way to try to allow States that are subject to these 
disasters to pool their assets to broad--not just the 
individual property insurance owners, but in a broad sense deal 
with these major, major catastrophes, that it might be more 
affordable if States got together and pooled their resources?
    Mr. Fugate. Well, I think the Florida wind pool and the 
citizens insurance company, which is the State's insurer of 
last resort, offer cautionary tales of the pros and cons. As 
you well know, and as a Florida resident, if we have a 
catastrophic impact to the wind pool, the way they are able to 
pay that is everybody that owns an insurance policy will be 
charged a surcharge. We currently are paying surcharges for 
previous events. That model is very vulnerable to the large-
scale impacts of a major windstorm, such as the great Miami 
hurricane in 1926, [and] would produce impacts in the $100 
billion range.
    I don't think the State wind pool can absorb those 
catastrophic hits as currently designed, and I think that 
places an extreme vulnerability to everybody that has an 
insurance policy. You are going to have to subsidize that risk 
after the fact.
    So I think there are some perils to that, but I also think 
there are some advantages, because lacking that, the ability to 
have wind coverage in Florida would have gone the way of many 
of the private systems, that we would no longer provide that 
coverage. And that would cause the other economic impact of not 
being able to insure homes against a very prevalent threat in 
Florida.
    Mr. Crenshaw. Thank you.
    Mr. Aderholt. Mr. Carter.

                   REMEDIAL ACTION MANAGEMENT PROGRAM

    Mr. Carter. Thank you, Mr. Chairman.
    In recent reports in January of this year by DHS Office of 
Inspector General, FEMA was criticized for not conducting 
after-action reviews of all disaster responses, as well as not 
communicating these reviews to FEMA personnel. The IG reported 
that FEMA has missed opportunities to learn from past 
experiences, and the IG gave FEMA six recommendations to 
improve its Remedial Action Management Program.
    What are you doing in response to these six 
recommendations, and how are you working to improve the 
remedial action program?
    Mr. Fugate. Congressman, we took the IG's reports to heart. 
We are implementing these. One of the things that we have done 
that is a shorter term is we have a series of no notice 
exercises that my staff have used--a term I use called 
``thunderbolts,'' which we send out both an exercise team and 
an evaluation team to do quick reports and quick looks.
    I think one of our challenges, if we only look at the 
catastrophic large-scale disasters, the frequencies of those 
don't give us the improvement that we need in the short term. 
So we are not only looking at the IG's recommendations, we are 
also throughout FEMA, without advance notice, doing no notice 
exercises at both the headquarters and the regional levels, 
with both an exercise component and an after-action quick look 
report, to find those areas we need to address immediately to 
continue to improve against that.
    So we took it very seriously. We know that that process had 
sometimes become too convoluted and so complex that by the time 
we got the information, we were years into the aftermath of an 
event. So we have been focusing on, particularly in our no 
notice exercises, doing very quick action reports that occur 
within a week of the exercise to give us a snapshot of what 
worked, what didn't work, and what we have got to focus on.
    So we are implementing both the IG recommendations, but 
also are looking at a shorter-term process to really start 
building these lessons back quicker versus waiting for the 
formal reviews being completed and trying to build that into an 
after-action.

                           DATA BACKUP SYSTEM

    Mr. Carter. I understand that FEMA lost 7 years' worth of 
after-action reports and best practices when a server failed 
last year. And in February of this year, this data was still 
unreadable, as I understand it. What is the status of that 
failure, and does FEMA anticipate being able to read this data? 
And what are you going to do to prevent this from happening 
again?
    Mr. Fugate. I am not sure what the forensics are going to 
be able to do with that server. It was a catastrophic failure, 
and I am not sure that we are going to be able to get any of 
that data back. Since then we have moved to the lessons learned 
system and actually have more of a cloud architecture to move 
away from a single point of failure. But it does show some of 
the state that our IT infrastructure was in, literally a server 
box without backup; therefore a single point of failure wiped 
out all the data.
    So as we move toward the DHS strategic plan for IT 
management and start moving things in the data centers and data 
clouds where we have the back-up and the redundancies, to 
eliminate the hardware failure, and then, more importantly, to 
continue to use things like the lessonslearned.gov site to post 
this information so it is not lost, and it is available to the 
response community.
    Mr. Carter. Had either you or previous FEMA Directors, 
noticed that you had a problem of a not-backed-up system and 
made a request of this committee or anyone to back up these 
systems in a time when at least the Nation looks upon FEMA as a 
massive disaster response--we realize what your real nature is, 
but we hearken back to our two or three great hurricanes in the 
gulf a while back, and everybody thought FEMA was in charge of 
everything, and then to realize that you had servers that were 
not backed up. When you listen to the radio, and they tell you 
about every 45 minutes you need a back-up of your data, it 
seems to me somebody should have noticed that. Has anybody made 
requests on that matter?
    Mr. Fugate. On that particular server, no, sir. Overall, 
yes, sir. We are, in part of our budget, looking at how we move 
from a system of server boxes into the data centers and data 
cloud. This is a migration within the Department of Homeland 
Security to move away from what I would call the single points 
of failure into a distributed cloud-based environment where we 
have the built-in back-up and security on these systems.
    Too often what we have found is we have been looking at our 
IT as we have a lot of different programs that have servers 
that don't have the support, don't have the back-up. And so as 
we have been identifying them, we are trying to move all that 
to the DHS data center approach and get away from individual 
boxes.
    So for that particular one, sir, I didn't have visibility 
until it happened, as an aftermath. But we had recognized that 
our current IT infrastructure was very vulnerable both to 
security, loss of data, and the vulnerabilities of not having 
these systems where they were secured and backed up and 
available to the rest of the team.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Aderholt. Thank you, Mr. Carter.
    Mr. Dent.

                    DISASTER ASSISTANCE OVERPAYMENTS

    Mr. Dent. Thanks, Mr. Chairman.
    Mr. Fugate, good to be with you.
    Last month FEMA began sending notice of debt letters to 
disaster assistance applicants who received improper Federal 
disaster assistance payments. The letters were to address the 
most recent disasters first, as I understand it. The letters 
are informing applicants of the amount and reason for their 
debt, and provide information on how to repay the debt or 
appeal FEMA's determination.
    First, how much money do you believe FEMA has outstanding 
in overpayments?
    Mr. Fugate. The number that was provided in the IG report 
was about $640 million. We think that number was less than that 
as we went through and--we actually had our national processing 
centers go through the list and began looking at that. That 
number has come down. And, Congressman Dent, I request that we 
give you that figure in writing, what we think that number is, 
based upon the last scrub of going through all those 
applications. But that process has started. As you pointed out, 
over 5,000 of those letters are going out to the most recent 
disasters, and we are working our way back through those 
numbers.
    [The information follows:]
    Mr. Dent. Last month FEMA began sending notice of debt letters to 
disaster assistance applicants who received improper Federal disaster 
assistance payments. The letters were to address the most recent 
disasters first, as I understand it. The letters are informing 
applicants of the amount and reason for their debt, and provide 
information on how to repay the debt or appeal FEMA's determination.
    First, how much money do you believe FEMA has outstanding in 
overpayments?
    Mr. Fugate. The number that was provided in the IG report was about 
$640 million. We think that number was less than that as we went 
through and---we actually had our national processing centers go 
through the list and began looking at that. That number has come down. 
And, Congressman Dent, I request that we give you that figure in 
writing, what we think that number is, based upon the last scrub of 
going through all those applications. But that process has started. As 
you pointed out, more than 5,000 of those letters are going out to the 
most recent disasters, and we are working our way back through those 
numbers.
    Response: To date we have identified $21,754,993.93 in recoupment 
dollars for applicants provided disaster assistance funding (October 
2005 to present) through the Individuals and Households Program (IHP). 
This does not include any Katrina, Rita, or Wilma recoupments through 
the IHP as the review is still being conducted on this subset of 
disaster payment recipients.

    Mr. Dent. And I guess the second question would be do you 
know the kind of responses that FEMA has received to the 
letters being sent out to those individuals and families 
requesting a repayment, and are people responding to the 
letter, I guess?
    Mr. Fugate. Yes, sir, they are responding to the letter. In 
most cases they are questioning why they would need to repay. 
It is falling into several categories. In some cases errors 
were made in the process of determining eligibility; in some 
cases it is they had duplication of benefits. They had 
insurance that paid, but now they had gotten the assistance, or 
were having multiple parties that applied from the same 
household, and so multiple individuals have gotten that.
    The process we are trying to use is in many cases if we got 
more documentation, they may not have an outstanding debt. This 
is indicating, based upon what we know, they have an 
outstanding debt. If they have documentation that we are asking 
for, it may establish there is no debt, and that will close the 
case. If we do, however, determine that they do have a debt, 
and they owe money back, they have several options. They can 
pay in full. They can do a payment plan. But at the point at 
which they either are unresponsive or refuse to repay money 
after we have been able to make contact, ultimately these are 
referred to Treasury for collection.
    So this process starts with this is what we think you owe. 
Provide us information. If that information satisfies our 
request, it is closed; if not, and we still demonstrate you owe 
us, then the options are to begin a repayment program or to pay 
it in full.
    Mr. Dent. So essentially if somebody fails to respond to a 
letter, you refer the matter over to Treasury for collection; 
is that how it works?
    Mr. Fugate. Yes, sir. Ultimately, if we can determine that 
that is a viable case that we would not be able to get either 
them to respond to us or that they do not agree to repay it, 
ultimately it would go to Treasury if it is determined that is 
a repayment----
    Mr. Dent. Is there an intermediate step? In other words, if 
they do not respond to the letter, do you go right to Treasury?
    Mr. Fugate. No sir. We will do additional attempts to 
notify. And again hopefully, again, as they get the letters, 
they will respond back to us. And in many cases if we can get 
some additional documentation, it may clear the issue up, and 
they were eligible in the first place. So we are hoping people 
will understand that.
    But it does provide that they have the right of appeal. 
This is a requirement that came about after a judge found that 
our process was not compliant and essentially we were no longer 
able to do recoupments to give you what it is, why we think you 
owe the money, and state clearly how to appeal that and how to 
notify us of your intention to pay.
    Mr. Dent. And my final question, is there going to be 
another round of notice of debt letters this year?
    Mr. Fugate. Yes, sir.
    Mr. Dent. Okay. I yield back. Thank you.

                       PREPAREDNESS CAPABILITIES

    Mr. Aderholt. Thank you, Mr. Dent.
    As I stated earlier in my opening remarks, after almost a 
decade of the Department cannot measure if we are safer or more 
prepared from the $33 billion investment we have made in 
preparedness grants, over the past decade FEMA has made many 
attempts to measure capability, but none have been implemented. 
The continual excuses and delays must stop. The American 
taxpayer deserves to know what they are getting for their 
investment.
    Do you agree that there needs to be a quantifiable metrics 
that measures capabilities, that measures if we are safer or we 
are more prepared than we have been in the past?
    Mr. Fugate. Mr. Chairman, when we first started this and I 
was State director, I asked the questions: What are we 
building? How do we know it is built? And how do we maintain 
it?
    I think we can measure what we are doing. I think we can 
demonstrate in many cases significant improvements in 
everything from interoperable communications to enhancements 
and increased capability for bomb squads, hazardous material 
teams, increased medical capacity. We can give you numbers to 
show what we have invested in and what that has provided us. 
But do you have a matrix that asks what are we preparing 
against? And once we get to that number, then how do we 
maintain it, and what is the appropriate Federal share versus 
local and State share?
    And I think this goes back to one area that we have made 
progress in, which is to be able to measure the number of 
exercises and the participation exercises. I was asked one 
time, how do you know if we are prepared? And in many cases it 
always comes back to if a disaster occurs, was the response 
better? But my observation has been those communities that have 
engaged--particularly local elected leadership, State 
leadership--in exercises do much better in the response to both 
the disasters they have planned for and the things they have 
never had happen previously in their communities.
    We think that in measuring exercise, participation, 
frequency, and the effectiveness of those exercises is one of 
the better measures of showing increased preparedness. Those 
who do have historically performed better in their response; 
those who don't have greater challenges, particularly when it 
comes to the initial impacts decision-making in executive-level 
operations.
    Mr. Aderholt. Knowing that, of course, we agree on that, 
how long will it be before you can actually tell us that these 
grants are making us more safer and making us more resilient?
    Mr. Fugate. Good question. How do we define it? I think 
this is, again, coming back to what level are we going to 
define as prepared, and what measures are we going to use.
    I think that we are looking right now at our ability to 
measure and look at the exercises. I think that in looking at 
other things to measure is looking at--Mr. Chairman, if you 
will indulge me, this may take a little bit of time. But I 
think what I ran into when I got here was we always said we are 
going to respond better and faster. I asked, ``By how much? 
What are we doing? What are we planning against?'' We never 
really put a time frame on how fast response should be; we just 
said we want it fast.
    My observation is the first 72 hours of any disaster is the 
most critical time for changing the outcome for lifesaving and 
stabilization. That means you have to look at what capabilities 
have you built that are both local and State initial responses 
and what resources do you need to bring, and now you need to 
plan against these scenarios that produce the maximum impacts, 
whether it is an improvised nuclear device, a major hurricane, 
or major earthquake.

                        NATIONAL LEVEL EXERCISE

    In NLE 11, our exercise that we are going to be conducting 
for the central U.S., part of this is to look at how rapidly 
can we get teams in to do some things that are very measurable, 
such as conducting and doing the initial search for the injured 
in the first 72 hours of a no notice event, and basing that 
upon the catastrophic impacts of the likely hazards we face, 
what we are calling the maximum of maximums; that now gives us 
something to start measuring. Given that we have X amount of 
teams, X amount of resources, we have built--and you look into 
reports from the States on how much additional search and 
rescue teams have been built at State and local levels that are 
not part of the Federal USAR (Urban Search and Rescue) teams. 
Can we get those teams there fast enough through mutual aid and 
other tools to get there, and what is our gap?
    That is how we are going to start measuring preparedness. 
We are going to put it up against the actual events this 
country faces, looking at a time frame that we are going to 
exercise at National Level Exercise 11, and looking at how 
quickly can we get there, if we can change that outcome, and 
what is the gap. And I think this then gives us a direction not 
necessarily to spend more money, but to look at where do we 
make investments elsewhere that have capabilities that have not 
been brought to bear, such as we don't engage the private 
sector in a lot of our search and rescue. But what about mine 
safety rescue teams? How would we engage them if we were in New 
Madrid, in Memphis, doing search and rescue to bring those 
teams on board?
    These are the kind of things we want to measure 
preparedness against. Take historical events that we know we 
can model what the potential impacts are; look at the first 72 
hours, whether it is a chem bio. Can we distribute 
prophylactics in an anthrax attack in a major metropolitan 
area, and use those to plan against? And given what we have 
built, what do we need to maintain? Adjusting for what is not 
achieving that mission, but measured against the events and the 
time frames, how do we as a Nation respond to these types of 
events?
    Mr. Aderholt. I think the 72-hour time frame you discuss is 
very important. But going back to my original question, when do 
you think that we might get to see something like this put 
together?
    Mr. Fugate. I think the actual measuring tools we have 
developed in looking at how we demonstrate the response in the 
first 72 hours, we are looking at 13 critical areas of things 
that have to be accomplished. We are going to use these to test 
the system in NLE 11. And we are also using the concept we are 
calling the maximum maximum, looking at these large-scale 
scenarios, very similar to what we saw in Japan, and now using 
those to start looking at nationally how much capacity do we 
have to respond to that. And I think NLE 11 will give us a 
chance to look at that in real time and then further refine 
that.
    So this year what we are focusing on right now is the 
exercise component of measuring that. I think the next area 
that we are going to focus on is the Urban Search and Rescue 
Teams--both the 28 that are federally sponsored and the 
numerous teams that local and State governments built with 
their Homeland Security dollars and are currently maintaining 
with those dollars--and the urban security initiatives. And 
given that mix, tools such as the Emergency Management 
Assistance Compact, which the States have, can we effectively 
as a Nation mobilize not only the Federal teams, but also State 
and local teams to respond, and what does that measure, and how 
do we determine where we are at on that system? So in looking 
at this, start taking these pieces.
    And again, sir, in my observations process, everybody has 
been trying to come up with a finished product. I think we got 
to start doing this in pieces; that we know this is an area 
that we need to measure because it has a definite outcome. 
Let's get it in place and quit waiting for a finished document 
that we are going to go against to look at these issues.
    So we are going to start with exercising. The next area we 
are going to be looking at are the things like the teams that 
have been paid for and built and maintained. But starting with 
the search and rescue teams, look at the additional teams that 
have been built for the chem and bio effects, and start 
measuring that against these events.
    Mr. Aderholt. Thank you.
    Mr. Price.
    Mr. Price. Mr. Administrator, let me, before I get into my 
question, just commend you for that answer. I think there is a 
lot of common sense and experience reflected in that answer. We 
all would like to estimate risk more accurately, and we all 
would like to measure the effects of what we are doing more 
accurately. And you are suggesting a very practical approach to 
that which has to do with specific interventions. It is very 
important that we understand what works and what doesn't, and 
that we measure the impact of these interventions. There is a 
kind of Holy Grail, though, that we sometimes seem to be 
pursuing, a comprehensive method of estimating risk and 
allocating funds accordingly, and then measuring impacts in a 
similar kind of global way. I have worked as hard as anyone on 
this Subcommittee to try to refine our instruments for risk 
assessment and to refine our ways of measuring our impacts, but 
just looking at the range of programs you are talking about, I 
don't believe one size fits all.
    For example, just the range of grant programs that you 
administer. They vary in the extent to which they are risk-
based. UASI grants, for example, are allocated on the basis of 
some rather straightforward risk assessments. Some other grants 
like the State grants, the EMPGs, are very decentralized; they 
are allocated according to population and other factors. And 
you leave, I think rightly so a good deal of the determination 
of how those funds are expended and where they are directed to 
your State and local partners.
    Other grant programs work on the basis not just of some 
central administrator's estimate of what the needs are out 
there, but they take into account the initiative that is being 
taken locally. We have a lot of our fire chiefs represented 
here this morning. The fire grants quite explicitly reward the 
fire departments that take initiatives, that help themselves, 
and that get their act together, and that make meritorious 
proposals. This area I want to question you about, floodplain 
mapping, is the same thing.

           FEDERAL EMERGENCY MANAGEMENT AGENCY: EFFECTIVENESS

    Mr. Carter. Thank you, Mr. Chairman.
    And I thank Mr. Price for his questioning, because it 
brings up something that I have some curiosity about.
    Locally, I have a town in my district, Salado, which has a 
creek that runs through it and there was an upper-end 
subdivision built in that watershed. These were houses $250,000 
and up, and the flood maps showing an area, which everybody who 
ever lived in Salado for any length of time said, they are 
nuts, that is not out of the flood plain; that is in the flood 
plain. But it was insisted that those maps were accurate, and 
about 40 houses were built in that area. We had one flood that 
flooded those houses; and asked that the maps be corrected to 
indicate that obviously it had flooded, and amazingly enough 
they came back with the answer, those were accurate flood plain 
maps.
    Well, last year, we had a second flood came through. We 
lost all those houses, and they have finally said sort of an, 
oops, I guess we screwed up, even though half the world was 
telling us we were wrong, and we will look again and see if we 
made a mistake.
    To me, it is just a no-brainer, that if there are 60 houses 
that flooded twice, it probably ought to be considered flood 
plain. So it concerns me that this is cut back, too. I will 
have to admit that, because I think that was a mess-up.
    And then the conversation you were having with the chairman 
here. You know, when I first got on this committee, which is 6 
years ago, there was an ongoing debate, and it is still ongoing 
at the local level: FEMA as a standalone versus FEMA as part of 
this Department. And I would assume, because that debate has 
been very vocal around the whole country, that someone would 
have done some kind of comparison of response and preparedness 
of FEMA when it was standalone versus FEMA as part of this 
Department, so there would have been some sort of metrics 
established. I just would have assumed that, if nothing else, 
some kid writing a dissertation should have probably written 
something on that.
    Do you have any information about any comparisons about 
FEMA as a standalone agency, which at least early on people 
kind of felt like we made a mistake putting them in this big 
Department and they should have been standalone all along? This 
debate has been on this committee since I have been here, at 
least the discussion has gone on. And were there any metrics 
used to make those kind of studies, or do you know?
    Mr. Fugate. Congressman, I am not aware of that.
    I can't tell you just the numbers. After the post-Katrina 
emergency management format, FEMA is now almost double the size 
it was when it was a standalone agency.
    Another significant event was in passing the post-Katrina 
Emergency Management Reform Act. For the first time, we 
actually had a mission statement and a purpose in legislation 
rather than the Stafford Act and appropriations language.
    So I think there is a clearer mission. It is a larger, more 
robust organization than we had when it was a standalone.
    As far as the issue should we be in or out of DHS, in my 
testimony during my confirmation hearing, I felt that the 
matter was resolved: We were part of DHS. We need to get back 
to work and focus on it. I felt that continuing discussions 
about whether FEMA was in or out was a distraction from my 
mission. I am very fortunate, working for Secretary Napolitano 
and being part of DHS, that I can tap into the resources of the 
other components, but I also have a tremendous amount of 
flexibility she gives me in order to be very responsive to the 
States when they have an issue.
    So I don't feel it has compromised FEMA's mission. I feel 
that we are a part of an organization that gives us a lot of 
capability from resources from our partners in the Coast Guard, 
Customs and Borders, law enforcement support from ICE.

                  IMMIGRATION AND CUSTOMS ENFORCEMENT

    So I really, sir, I don't know if anybody has done a study. 
I know that you look at the numbers today and where we were 
previously as a standalone agency, we are bigger with more 
capabilities, more authorities that Congress has provided us. 
And my personal opinion is, sir, I have not been engaging in 
that debate. I have been focusing on the things we need to do 
to get FEMA where you expect us to be, to where the public 
expects us to be.
    Mr. Carter. I don't expect you to engage in that debate. I 
think that question has been satisfied. But I assume, because 
it was indicated that you are looking for metrics to analyze 
your effectiveness today. And, by the way, there are some of us 
who don't always think bigger is better in this world. Some of 
us think maybe lean and mean sometimes operates a little 
better. But that is a debate for another time.
    But you were saying that you were working to develop 
metrics, and I was wondering, because this debate was pretty 
loud and pretty long for a long time, that somebody might have 
done some studies that would at least set metrics up that you 
might could use to judge your department now. I guess that was 
my question.
    Mr. Fugate. No, sir. I think most of the things that people 
were measuring was our administration of the Stafford Act. And, 
quite honestly, that is a program that provides financial 
assistance reimbursement and has the ability to do tasking to 
other Federal agencies for disaster. But my experience as a 
State director and as a local administrator was that the things 
that we are talking about now, setting performance measures, 
have never been part of the national preparedness dialogue. 
People said we wanted to respond, but nobody defined what that 
meant. People said we wanted to go out and do all this stuff, 
but nobody put a time limit against it that says--I mean, quite 
honestly, sir, if you are injured in a disaster, how much time 
do you have? That sets the response posture, not what I am 
capable of doing. I think this has been the trap we run into.
    We plan for what we are capable of doing versus what the 
threat is. And I agree with you 100 percent: I don't think you 
need to be bigger. I am not asking that we have to constantly 
grow FEMA. I think you have got us to the critical mass. But I 
think we have got to define what outcome we are going to 
achieve, and then not fall into the other trap I have seen us 
do, and that is always look at a government-centric solution 
and forget there are tremendous resources every day in every 
community 1 minute before that disaster struck. Why do we start 
1 minute after that and ignore the resources?
    Mr. Carter. I wouldn't expect anybody from Florida to have 
any other response than that, so I respect that.
    If I have time, I have one more question that troubles me.
    Mr. Aderholt. Time is up. We will let you on the next 
round.
    Mrs. Lowey.

                  NUCLEAR CRISIS: EVACUATION PLANNING

    Mrs. Lowey. Thank you, Mr. Chairman.
    And welcome. The Indian Point nuclear facility is located 
near my district and is within 30 miles of New York City. The 
government has recently recommended a 50-mile evacuation zone 
in Japan. If a 50-mile evacuation were ordered for Indian 
Point, 20 million people would need to be evacuated, including 
Times Square, Wall Street, and parts of Connecticut and New 
Jersey.
    Mr. Fugate, you have an emergency preparedness background. 
Can you honestly tell this Committee that adequate plans exist 
to evacuate the most densely populated region of the country if 
there were an incident at Indian Point?
    Mr. Fugate. Well, based upon two assumptions that are not 
the current assumptions that the Nuclear Regulatory Commission 
[NRC] uses for planning is, one, that you would have a full 
population evacuation 50 miles from the point of the nuclear 
power plant. The current guidance is a 10-mile range. So based 
upon that, the area I am most familiar with, in working as part 
of the team that does the exercises and reviews those exercises 
with the NRC, is a 10-mile evacuation. I don't know if I could 
speak to the 50-mile evacuation, because that is not one of the 
plans that are currently there for nuclear power plants.
    Mrs. Lowey. Let me just say very clearly that Indian Point 
is up for relicensing in the year 2013, 2015, and you are the 
agency that is going to be responsible for the evacuation. So 
with all due respect, I am puzzled why you are sticking to the 
10-mile radius. Your agency, as we know, would have the leading 
role with the response to a radiation leak at Indian Point. And 
given events in Japan, especially our own government's 
reaction, including advising Americans to evacuate a 50-mile 
area, which for Indian Point would include 20 million people, 
surely you would be closely evaluating your ability to protect 
the public. I don't understand why you are assuming and 
accepting a 10-mile radius. And wouldn't you be considering, 
based upon what happened in Japan, the 50-mile radius?
    Mr. Fugate. In the division of the responsibilities to 
determine what the protective areas and the protective measures 
are, those are provided in guidance from the Nuclear Regulatory 
Commission in consultation with the States. The actual 
evacuations are conducted by local and State governments with 
FEMA supporting them. Again, the current planning guidance, 
which FEMA does not establish but works to be able to exercise 
and test, is a 10-mile evacuation zone based upon those threats 
and scenarios that the Nuclear Regulatory Commission has 
identified.
    If at such time that radius was ever increased, we would 
again work with State and local governments to determine the 
effectiveness of those evacuations. As you well know, in 
licensing a nuclear power plant, part of that evaluation does 
require that the communities and State can effect a successful 
evacuation. So if that guidance changes, that would be the 
determination: Could you successfully evacuate a larger 
population in the time frames given, and if not, would that 
result in any impacts to licenser's ability to operate the 
plant?
    Mrs. Lowey. Now, you are saying if that guidance changes. 
Do you have any role, any input as to whether it is feasible to 
evacuate 20 million people from now that is 10-mile radius--Do 
you make that determination or do they?
    Mr. Fugate. We do not make the recommendations on the 
protective zones. And the 10-mile emergency protective zone is 
the one in which they look at the options of either sheltering 
in place or evacuations. Because FEMA does not make that 
determination, we would work with State and local governments 
if that changed to determine if that could be done and the time 
frames given in a power plant accident.
    So if that increased, that would obviously result in us 
having to go back, work with State and local governments, 
update the plan, and then exercise and evaluate that plan to 
see if you could achieve the evacuations in the time frames 
given.
    Mrs. Lowey. So I am a little puzzled. You are saying FEMA, 
that should have this expertise, doesn't have the input based 
upon Nuclear Regulatory Commission determination as to whether 
it should be 50 miles or 10 miles? You are not involved in this 
decision at all?
    Mr. Fugate. We are not the scientific advisers or the 
engineers that make those recommendations and determinations. 
We are part of the Nuclear Regulatory Commission regulations 
required to work with State and local governments to ensure 
whatever those protective measures are, they can be exercised 
and executed if an event occurs.
    Mrs. Lowey. I will let it go at this point.
    But I think there is a real question as to what FEMA's role 
is in determining whether an evacuation should be 50 miles--you 
know, I think my issue that is of great concern to me is when 
you consider relicensing, you don't consider it in light of new 
data and new information but based on the old data and the old 
information. So I am a little concerned that the Nuclear 
Regulatory Commission would not have any concentration process 
in place to deal with FEMA. But I will go on to another 
question before my time is up.
    UASI funding has continually been diluted by increasing the 
number of recipients, and what started as a program for seven 
urban areas now serves 64. Every area of the country deserves 
funds, I want to make that very clear, but not from the high-
risk program. And I attached an amendment to H.R. 1 to limit 
UASI funding to the top 25 highest risked regions, restoring 
the program to its original intent.
    The 9/11 Commission report stated clearly that Federal 
Homeland Security assistance should not remain a program for 
general revenue sharing, end quote. Why then do you continue to 
disregard both the recommendations of the Commission and the 
intent of Congress in creating UASI by providing funding to 
localities that are neither high risk nor high density? And, 
again, I want to make it clear, they can get other pots of 
money. But why this pot of money?
    Did I hear--I thought I was asked to close, but as long as 
the chairman is very indulgent----
    Mr. Aderholt. Your time is fleeting, but we will go ahead 
and sum up the last and answer.
    Mrs. Lowey. Some opponents of my amendment have stated that 
current UASI cities, such as Denver and Bridgeport, are key 
sites to the logistical planning of potential terrorist 
attacks. How much FEMA first responder funding did Colorado and 
Connecticut receive apart from the UASI program in fiscal year 
2010?
    And if you don't have that answer, I am sure you can get 
back to me. Because it is my understanding that Colorado and 
Connecticut, for example, each received more than $20 million 
through other FEMA programs. Does that sound right? And, 
further, there is nothing stopping any State Homeland Security 
Office from distributing State Homeland Security GP and other 
FEMA grants in the localities on the basis of need, correct?
    Mr. Fugate. That is correct. As far as the actual numbers, 
I would request to get back in writing those actual totals and 
the grant fundings and the breakdown of those fundings for 
those States.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8060A.341
    
    [GRAPHIC] [TIFF OMITTED] T8060A.342
    
    [GRAPHIC] [TIFF OMITTED] T8060A.343
    
    Mrs. Lowey. And I want to make it clear again; everyone 
should get funding, but not as a high-risk program that began 
as 7 and is now at 64. Thank you, Mr. Chairman.
    Mr. Aderholt. Thank you.
    Ms. Roybal-Allard.

                         CATASTROPHIC PLANNING

    Ms. Roybal-Allard. Recent events in Japan have highlighted 
the risk that earthquakes pose and the need to improve our 
preparedness, as I am sure has been discussed here earlier. As 
you know, California is especially vulnerable. A seismic event 
in Los Angeles could claim countless lives and inflict more 
than $500 billion in damages.
    Now, Ms. Lowey, I understand, asked about a disaster 
affecting the nuclear power plant near New York, and I have 
similar concerns about California which has two nuclear power 
plants located near major fault lines.
    You have testified in the past about the importance of 
careful planning to have effective response in the event of a 
disaster. Could you describe FEMA's efforts to plan for a 
catastrophic earthquake in Southern California? And have you 
considered scenarios in which these States' nuclear power 
plants are seriously being damaged? And not only an earthquake, 
but our understanding is if it is of the magnitude of Japan, it 
could also result in a tsunami for the West Coast.
    Mr. Fugate. Yes, we have. In fact, we participate in the 
State of California's Golden Guardian exercises and work these 
types of issues and plan against catastrophics.
    I think one of the things that Japan showed us, we saw this 
with Hurricane Katrina, is oftentimes the original event 
cascades into additional impacts, such as the power plants 
being engaged or other types of technological disasters 
occurring as a result of the initial hazard itself.
    And so we have been working with the State of California. 
In fact, we are working with the entire West Coast, both for 
earthquake hazards but also tsunami hazards. It wasn't very 
widely reported, but we actually did have tsunami-related 
damages on our coast. It was fortunately not to the degree of 
loss of life or the impacts, but we were under tsunami warnings 
along the California coast in the aftermath of that.
    So our Region 9--and something that the ranking member 
pointed out--is we have been working hard to empower our 
regional offices, in our case, Region 9, which covers 
California, to work closer with the States on catastrophic 
planning, to look at not just again the tendency to say we are 
going to write a plan and put it on the shelf, but to engage in 
actual exercising and testing of those plans and those 
assumptions.
    We look at what happened in Japan as an opportunity for 
lessons learned to come back and ask the question: If you have 
this massive earthquake but you also now have additional 
issues, such as a nuclear power plant or other technological 
hazards that are occurring, how do you respond to them?
    So these are ongoing programs. This is an ongoing process. 
And I think it points out that too often we focus on our last 
big disaster, and in our case, it was hurricanes. But you can 
see a hurricane coming, as we have seen in Haiti, in Chile, in 
Christchurch and, unfortunately, in Japan. There is no lead 
time or warning for an earthquake. It happens. You have to be 
able to respond to it.
    So we plan and work with our partners to leverage both our 
resources capabilities. But we look at these very issues you 
brought up: The large-scale events, the multi-dimensions of 
multiple issues happening, and then begin looking at, how do 
you respond based upon the priority of lifesaving, life-
sustaining, and the initial stabilization to begin looking at 
recovery?

                     DISASTER RESPONSE: BUDGET CUTS

    Ms. Roybal-Allard. As you know, we are in the middle of 
dealing with budgets for the rest of this year as well as for 
next year. And to have a better understanding of what the 
impact of what some of these recommendations are with regards 
to the budget, I would like to focus a little bit on H.R. 1, 
which slashes more than $800 million from FEMA's grant 
programs.
    Now, unfortunately, these cuts come at a time when, 
according to the DHS Inspector General, State and local 
governments across the country have been forced to 
significantly reduce their spending on emergency management. So 
if H.R. 1 is enacted and we have these cuts, Los Angeles, as I 
understand it, stands to lose almost $60 million in critically 
important funds to protect the city against acts of terrorism, 
respond to natural disasters, and to improve emergency 
communications.
    What is the likely impact on your agency's operations if 
the capabilities of major cities like Los Angeles are 
diminished as a result of these cuts? And will a greater burden 
fall on FEMA in emergency situations if local governments lack 
the means to respond effectively?
    Mr. Fugate. My experience tells me that where local 
governments don't have the capability or resources to respond 
to the disasters and, as a State, having to bring those in, it 
costs us far more than those communities that had that basic 
preparedness. I know that from the perspective of what I have 
seen in disaster response at FEMA, for those States that have 
built those capabilities, in many cases, FEMA does not have to 
engage in a response role, but rather a recovery role, because 
they are able to manage their response.
    This is a tough question, I think. Mr. Chairman and for the 
members here, this is really I think getting to the crux of the 
grants. We don't want to supplant local responsibilities, but 
there is a cost to the taxpayer. And this is the balancing 
point we have to determine. I don't think you can indefinitely 
fund grants at a level that you can't sustain. But if you cut 
them too fast, a lot of this investment and capabilities built 
over time will not withstand that kind of reduction.
    Also, many of these local governments are engaged in 
multiyear enhancements, particularly in interoperable 
communication. So we may end up with half-built systems or 
systems that aren't completed, and we have already made that 
investment, yet we have never fully realized the benefits of 
the full package.
    So I think it is a question of balance. Where is it in the 
interest of the Federal Government, the taxpayer, to invest to 
build capabilities and capacities at State and local levels 
that would reduce the overall cost of Federal response and, 
more importantly, provide resources closest to those survivors 
in the most critical first hours to days of that event, versus 
what we could build on a national scale to essentially replace 
that, and the time frame of getting it there? I think there 
needs to be a balance. And that is why, again, from my 
experience and what I have seen as a responder, those 
investments that we in the State of Florida made in our local 
communities save significant cost in the response phase. Those 
communities that did not have those, it cost us far more 
because not only did we have to respond to the other needs, but 
we oftentimes had to augment their basic response. And that 
cost us far more in the events that I have been involved in.
    So it is a balancing act. But it is a decision that, in 
doing that, where is it--and, again, looking from the 
standpoint of the Federal taxpayer, where do those investments 
make sense? And where, if we do reductions, would it not 
adversely affect the Federal response in support? But there is 
a tipping point there where I--and I think it comes back to the 
frustration that the chairman has basically brought up, because 
we have not been able to come up with good matrixes, we can't 
really tell you what the impacts will be on the cuts, and so we 
are oftentimes dealing with the anecdotal data. And I think 
this is the challenge we have. We are going to deal and to face 
the budget realities, but we need to have the best data 
available so, as these decisions are being made, we don't end 
up with cuts that produce unintended consequences based upon 
our previous investments.

                        GRANTS: FIRST RESPONDER

    Mr. Aderholt. Thank you.
    And let me just add on H.R. 1, certainly the goal was not 
to cut the grants. I think overall, as we head into the known 
cost for disasters and those had to be paid for, and so that is 
where I think it really goes back to.
    Let me switch to another issue that we have alluded to 
maybe a little bit but get into a little more, and of course, 
that is the slow execution of the first responder grants. Each 
year, FEMA says they are working to improve the execution, but 
based on the latest data provided to the Committee, grantees 
continue to lag in expending their funds. Could you tell us 
what you are doing to try to address this issue that we have 
seen over the past several years?
    Mr. Fugate. Mr. Chairman, this is as both--I have been on 
the receiving end of this as a State, where we could not draw 
down funds fast enough. And, again, the bulk of these programs 
are reimbursements. The locals and States expend their funds 
and seek their reimbursements, and in some cases these are 
multiyear projects. So we know that it takes several years for 
these grants, as they move through the system, to actually get 
drawn down out of the system. It doesn't mean that States and 
locals have not already obligated funds; they are already in 
contracts or in procurement, but they are reimbursements.
    I think our particular concerns are those that are at 4 
years, where we see substantial amounts that haven't been drawn 
down, and the tendency that as we get to the 5th year and the 
failure to execute those funds, they come back to the Treasury.
    What we have been working with are the State administrative 
agencies that are appointed by the Governor to be the grant's 
administrator but also with the Homeland Security advisers and 
the State emergency management directors to give them 
visibility on what those numbers are. And I think it has been 
an eye opener for them to see what has not been drawn down, 
particularly in the subgrantees that have not finally submitted 
their reimbursements.
    They understand this. In fact, I addressed the new State 
Homeland Security adviser this morning at FEMA before I came 
over here. And, Mr. Chairman, I basically just told them flat 
out: You are looking at tremendous balances that haven't been 
drawn down, and you are looking at an austere budget 
environment. It is very hard to justify continuing requests for 
grants if we do not show progress on getting those disaster 
funds, those grant funds, drawn down so that we can show 
progress that we are completing projects and we are expending 
those funds.
    So they understand, and we are putting information in their 
hands on what those balances State by State look like, grant by 
grant, to bring attention to this but also to caution them 
that, we can explain why, but until you get those numbers 
coming down in this environment, it will be a constant 
pressure. Why are we continuing to put more money in grants 
when you still have tens of billions outstanding to be drawn 
down?
    What we get back--and this is what I know from State 
directors, in many cases, they have already expended those 
funds. They are going through the process of then getting their 
reimbursements. In some cases, they are in multiyear contracts 
trying to get this done. There are delays. These are things 
that you run into. But it is systemic across the board. As you 
have pointed out, some States have been much more aggressive in 
getting their funds expended; others have not. And I think 
putting those numbers out there is trying to shine the light on 
and explain to them the gravity of this situation.
    Mr. Aderholt. This might be too premature. But does that 
seem to resonate? Or is that still you are waiting to see how 
that----
    Mr. Fugate. I saw a lot of eyes pop when they saw their 
first spreadsheet, sir. I think this has been one of these 
things that we have got to shine a light on and get the 
exposure out there. Once people saw the numbers, I think until 
they realized what it looks like when you look at that 
spreadsheet versus looking at the process of reimbursement. And 
so, hopefully, we can get greater traction. And, again, the 
proof will be when we start seeing these drawdowns, 
particularly in the older grant cycles, moving that up so we 
can start getting those funds disbursed back to the States and 
local governments for their expenditures.
    Mr. Aderholt. Have you considered reducing the request for 
funds based on the amount of funds already in the pipeline?
    Mr. Fugate. No, sir. It has been based upon--the one area 
that we did was, again, looking at fire grants of favoring 
employees, firefighters, versus future equipment purchases. But 
that was more driven by the budget pressures.
    In looking at these grants, I think if we were dealing with 
things that were short term or rather straightforward, not 
multiyear projects, you would see if you were not expending 
those funds. But I think part of the challenge is a lot of this 
is getting into what we call maintenance as we have seen some 
overall trends. It isn't so much we are buying and building new 
teams and equipment as much as trying to maintain and finish 
the projects that we have. But it comes back to, again, at a 
point--and this is I think the very difficult decision I think 
we are going to have to make: How much further investment? Once 
we have built some of this capability, what does it take to 
maintain it versus, do we continue adding more teams or 
capabilities based upon the various State initiatives?
    Mr. Aderholt. Thank you.
    Mr. Price.

                   GRANTS: TRANSIT SECURITY AND PORT

    Mr. Price. Let me just follow up on the Chairman's line of 
questioning here, particularly in regards to two categories of 
grants that we funded in recent years and that have had 
particular drawdown problems. This subcommittee, as you may 
know, had extensive and repeated hearings on the transit 
security grants and the port grants in particular, those two 
programs.
    In the most recent data FEMA has given us 52.8 percent of 
the 2006 port security grants have not been drawn down yet, and 
this is money that is going to expire at the end of the fiscal 
year. And for 2007 we are talking about 84 percent of the 
transit security grants not being drawn down. So these figures 
seem to tell a similar story.
    So I wonder if you want to elaborate on those challenges in 
particular? I know they both involve or have involved some 
interagency coordination. We dealt in some detail with the TSA-
FEMA intersection in the transit grants, and of course, Coast 
Guard has a hand in the port grants.
    We were looking at some hopeful streamlining of these 
processes we thought, yet the figures don't seem to suggest 
that this has worked very well yet.
    Mr. Fugate. I believe that there is--one of the things that 
we did was we never had a memorandum of understanding with TSA 
(Transportation Security Administration) on those grants to 
make sure we had clarity of our roles and responsibilities to 
administer the grants as they set the priorities. We have that 
with John Pistole now, who is the head of TSA. So we are 
starting to get some of those structures in place. But again, 
in many cases, an honest question to both you and the Chairman 
is, given that we have built in flexibility in these grants, 
given that we have built-in appeals, we oftentimes get requests 
from Members of Congress to grant these extensions. The 
flexibility there I think has the unintended consequences that 
we are not getting these funds expended, and that there always 
seems to be one more forgiveness to extend it because something 
came up, something changed, a direction changed. And I think it 
is the inherent nature of trying to maintain flexibility and 
retain those funds and to expend it that has in some cases not 
put any emphasis on getting this project done quicker.
    I think the 5-year--and I will expect, I will not be 
surprised that, with 2006 money that will lapse and go back to 
the Treasury, we will not have requests to see if we can appeal 
that. The answer is: we don't have the authority. You made it 
very clear, at 5 years, it is going back to the Treasury. But 
as we go through this process of giving flexibility, it does 
build in that in many cases, that urgency to get these funds 
drawn down gets bogged down in the process of trying to do 
these projects, deal with changes, and adjust those strategies.
    Mr. Price. Extending past the 5 years requires a statutory 
change. Right? I mean, that hasn't been under your discretion.
    Mr. Fugate. And that is, as far as I am concerned, if we 
don't--I mean, you have got to basically say, unless Congress 
gives us any more extensions, which I am not going to ask for 
or recommend, we have to close these projects. If you couldn't 
get it done in 5 years, we need to take the money back and put 
it into Treasury. But I think that it is getting to when you 
get to the third year, your fourth year, you are still not 
drawing it down. I understand the complexity of bid protests 
and environmental and historical reviews, new Governors coming 
in wanting to stop and review things. I understand all that. 
But your fourth year? That is troublesome. And in many cases, I 
think this is where we have to come back and do better work on 
the front end in trying to make sure that we are not the 
roadblock, that we are able to provide the grant guidance and 
that we are able to work with our applicants. But I think 
because of the flexibility in some of these grants and the 
changing situation we find ourselves in, we still see 
tremendous balances that have not been drawn down.

         NATIONAL FLOOD INSURANCE PROGRAM: LEVEE ACCREDITATION

    Mr. Price. Right. And I am sure the interventions and the 
appeals that you are talking about do occur. But the thrust of 
our efforts over the past several years has been to simply get 
this process unclogged at the agency and for the potential 
grantees to know what they are dealing with, what is expected 
of them, and to have reasonably quick turnaround. We really 
need to keep pushing on that. I know you agree. And we want to 
work with you to make that happen. Because if, as the Chairman 
suggests, current budget decisions are complicated by the fact 
that these balances are still there, and yet these are moneys 
that are needed; the demand is there. The purpose is quite 
clear, I think. We just need to get it done.
    Speaking of entreaties you and we get from colleagues, let 
me mention one final subject that has to do with levees. Late 
last year, many Members lobbied this Subcommittee to include a 
statutory change to the 2011 bill to prevent FEMA from refusing 
to account for flood control structures, such as levees, that 
are not to certain standards when FEMA is updating its flood 
maps. In other words, they are saying you should have to take 
some account of these structures. Now, this policy does have an 
impact, a major impact on flood insurance and related issues 
for some communities.
    This statutory change was not included in the omnibus or a 
full year CR, largely because of the lateness of the issue 
coming up. It is not that we didn't understand that it had some 
merit and was important to a number of colleagues.
    Now, in February, a bipartisan group of 27 Senators wrote 
FEMA asking the agency to halt its policy of treating levees in 
need of repair or recertification as if they didn't exist at 
all. A number of House Members have expressed similar concerns. 
Lawmakers argued that the agency should instead take into 
account the level of flood protection that each structure 
provides, even if that structure is in a weakened state.
    In early March, FEMA informed congressional leaders that 
the agency will take into account ailing dams and levees and 
the risk maps it generates for the National Flood Insurance 
Program.
    So I am asking you to fill us in on your intentions going 
forward. How do you intend to factor in levees that in the past 
you deemed as nonexistent or you treated as though they were 
nonexistent while they are being repaired or recertified when 
you develop risk maps as part of this flood insurance program?
    Mr. Fugate. Yes, sir. We kept asking the question: Why is 
this a binary decision? You can see a levee there; it is not 
fully accredited, but we are going to ignore and then map. But 
that levee affects the flood. So we basically came back and 
said, ``We don't have a defensible stand here. We need to do 
something different.''
    And so staff agreed to look at, and what we are going to do 
is--It is not always an ailing levee. In some cases these are 
levees that are well engineered, well built, but they may be 
not quite as high as an accredited levee would be to offer 
protection for every area behind that levee to get it below 1 
percent risk. So this will not always be levees that are in 
disrepair; it is just a levee system may not provide a 
reduction of that risk below 1 percent.
    So what we have asked our staff to go back and look at is--
and this will be an increased cost; it will slow down some of 
the mapping, but it will be more accurate--to take what the 
levee structure is as it exists, model the flood risk there, 
and produce those results. Again, this will not always be 
levees that are in disrepair. This may just be in areas where 
the levee system doesn't provide uniformity, minimizing the 
risk below 1 percent, which would trigger the special risk area 
for flood insurance but substantial areas would. So why are we 
not looking at that and just treating it as if it doesn't exit?
    So our staff is working right now on the technical aspects 
of how you model levees and dams as they exist to determine 
what that risk is in setting the rate for the insurance, and 
recognizing that not having a fully accredited levee is not a 
binary decision. It will be based upon the structures there, 
what protection they do offer, and will be based upon that 
risk.
    Mr. Price. And you are confident that you can come up with 
an objective assessment of this, even though binary decisions 
are sometimes crisper and seem more absolute. Making this kind 
of calculation certainly makes a lot of sense. You are 
confident that you can in fact come up with a metric?
    Mr. Fugate. That was the question we asked was, 
technically, ``How do we do that?'' They have already worked up 
some preliminary ideas. They have talked with the engineers and 
the people that do the evaluation and engineering of levees. 
And I think we have the ability to classify levees into 
different categories based upon what those impacts would be and 
model that. It will cost more money. It will take more time. 
But it will provide a much more accurate reflection of the risk 
versus just a binary decision, yes, you have got an accredited 
levee, or no, you don't. Because I think it was not accurately 
representing the true risk. And because we used that to base 
the flood insurance model, it oftentimes resulted in people 
being in special high-risk areas that would not be necessarily 
flooded based upon the levee protection offered.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.

                MOUNT WEATHER: CAPITAL IMPROVEMENT PLANS

    Mr. Aderholt. Thank you, Mr. Price.
    Let me close with one last question about Mount Weather. 
And of course it is a true strategic asset for our country, 
which houses the operations for management and for all hazard 
activities for multiple executive branches including the 
Department of Homeland Security.
    To address the issues with the aging of the facility, 
Congress has provided $155 million for capital improvements. I 
understand that much of the funding remains unspent. My 
question, what is the status of the capital improvement plans 
for Mount Weather?
    Mr. Fugate. Ongoing. That is why we actually reduced the 
request. We had been requesting a certain amount of capital 
improvements, and because we have a backlog of contract 
projects that have not been completed, we did not ask for that 
amount continuing. We want to get caught up on the work we 
already have authorized to contractors and the bid selection in 
that process. So rather than just getting a reoccurring 
capital, we wanted to get through the backlog of projects that 
are currently under contract or out to bid to do that work.
    Mr. Aderholt. What is causing the delay?
    Mr. Fugate. Sir, as you know, this is a facility that has a 
lot of--in a setting that is open--I think I have to remind 
myself to be very careful how I phrase this. But it is a 
facility that has a lot of unique characteristics that require 
extraordinary efforts and securing contractors that can operate 
in that environment. Also, the IT and some of the other 
infrastructures, it is not just something that we solely have 
responsibility and authority over. We have other partners we 
have to engage in. And because of that, we felt that we had a 
backlog that we were working through. That work is being done 
in the capital improvement program. But because of that 
outstanding balance and the work still to be done, we did not 
feel it was necessary to continue requesting money, although 
this work will continue. We need to get caught up on the 
backlog at work, quite honestly, sir.
    And, Mr. Chairman, I can give you a better briefing on 
that, but it would have to be a briefing that we would do on a 
secure level to give you some of the numbers and the 
breakdowns.
    Mr. Aderholt. And we may follow up on that.
    But we thank you for coming here this morning and listening 
to our concerns and questions.
    As I stated in my opening remarks, we are in this Nation in 
a fiscal crisis, one that requires tough decisions and 
responsible budgeting. That means, as you know, we can no 
longer fund known requirements through gimmicks or fund 
programs without having measurable outcomes. And certainly I 
think you and all of us know that the taxpayers deserve better.
    So, again, thank you for being here today. Thank for your 
testimony. Thank you for the work that you do at FEMA. We 
understand that you have many challenges at the Federal 
Emergency Management Agency. So we look forward to working with 
you as we try to address these issues.
    The hearing is adjourned.

    [GRAPHIC] [TIFF OMITTED] T8060A.344
    
    [GRAPHIC] [TIFF OMITTED] T8060A.345
    
    [GRAPHIC] [TIFF OMITTED] T8060A.346
    
    [GRAPHIC] [TIFF OMITTED] T8060A.347
    
    [GRAPHIC] [TIFF OMITTED] T8060A.348
    
    [GRAPHIC] [TIFF OMITTED] T8060A.349
    
    [GRAPHIC] [TIFF OMITTED] T8060A.350
    
    [GRAPHIC] [TIFF OMITTED] T8060A.351
    
    [GRAPHIC] [TIFF OMITTED] T8060A.352
    
    [GRAPHIC] [TIFF OMITTED] T8060A.353
    
    [GRAPHIC] [TIFF OMITTED] T8060A.354
    
    [GRAPHIC] [TIFF OMITTED] T8060A.355
    
    [GRAPHIC] [TIFF OMITTED] T8060A.356
    
    [GRAPHIC] [TIFF OMITTED] T8060A.357
    
    [GRAPHIC] [TIFF OMITTED] T8060A.358
    
    [GRAPHIC] [TIFF OMITTED] T8060A.359
    
    [GRAPHIC] [TIFF OMITTED] T8060A.360
    
    [GRAPHIC] [TIFF OMITTED] T8060A.361
    
    [GRAPHIC] [TIFF OMITTED] T8060A.362
    
    [GRAPHIC] [TIFF OMITTED] T8060A.363
    
    [GRAPHIC] [TIFF OMITTED] T8060A.364
    
    [GRAPHIC] [TIFF OMITTED] T8060A.365
    
    [GRAPHIC] [TIFF OMITTED] T8060A.366
    
    [GRAPHIC] [TIFF OMITTED] T8060A.367
    
    [GRAPHIC] [TIFF OMITTED] T8060A.368
    
    [GRAPHIC] [TIFF OMITTED] T8060A.369
    
    [GRAPHIC] [TIFF OMITTED] T8060A.370
    
    [GRAPHIC] [TIFF OMITTED] T8060A.371
    
    [GRAPHIC] [TIFF OMITTED] T8060A.372
    
    [GRAPHIC] [TIFF OMITTED] T8060A.373
    
    [GRAPHIC] [TIFF OMITTED] T8060A.374
    
    [GRAPHIC] [TIFF OMITTED] T8060A.375
    
    [GRAPHIC] [TIFF OMITTED] T8060A.376
    
    [GRAPHIC] [TIFF OMITTED] T8060A.377
    
    [GRAPHIC] [TIFF OMITTED] T8060A.378
    
    [GRAPHIC] [TIFF OMITTED] T8060A.379
    
    [GRAPHIC] [TIFF OMITTED] T8060A.380
    
    [GRAPHIC] [TIFF OMITTED] T8060A.381
    
    [GRAPHIC] [TIFF OMITTED] T8060A.382
    
    [GRAPHIC] [TIFF OMITTED] T8060A.383
    
    [GRAPHIC] [TIFF OMITTED] T8060A.384
    
    [GRAPHIC] [TIFF OMITTED] T8060A.385
    
    [GRAPHIC] [TIFF OMITTED] T8060A.386
    
    [GRAPHIC] [TIFF OMITTED] T8060A.387
    
    [GRAPHIC] [TIFF OMITTED] T8060A.388
    
    [GRAPHIC] [TIFF OMITTED] T8060A.389
    
    [GRAPHIC] [TIFF OMITTED] T8060A.390
    
    [GRAPHIC] [TIFF OMITTED] T8060A.391
    
    [GRAPHIC] [TIFF OMITTED] T8060A.392
    
    [GRAPHIC] [TIFF OMITTED] T8060A.393
    
    [GRAPHIC] [TIFF OMITTED] T8060A.394
    
    [GRAPHIC] [TIFF OMITTED] T8060A.395
    
    [GRAPHIC] [TIFF OMITTED] T8060A.396
    
    [GRAPHIC] [TIFF OMITTED] T8060A.397
    
    [GRAPHIC] [TIFF OMITTED] T8060A.398
    
    [GRAPHIC] [TIFF OMITTED] T8060A.399
    
    [GRAPHIC] [TIFF OMITTED] T8060A.400
    
    [GRAPHIC] [TIFF OMITTED] T8060A.401
    
    [GRAPHIC] [TIFF OMITTED] T8060A.402
    
    [GRAPHIC] [TIFF OMITTED] T8060A.403
    
    [GRAPHIC] [TIFF OMITTED] T8060A.404
    
    [GRAPHIC] [TIFF OMITTED] T8060A.405
    
    [GRAPHIC] [TIFF OMITTED] T8060A.406
    
    [GRAPHIC] [TIFF OMITTED] T8060A.407
    
    [GRAPHIC] [TIFF OMITTED] T8060A.408
    
    [GRAPHIC] [TIFF OMITTED] T8060A.409
    
    [GRAPHIC] [TIFF OMITTED] T8060A.410
    
    [GRAPHIC] [TIFF OMITTED] T8060A.411
    
    [GRAPHIC] [TIFF OMITTED] T8060A.412
    
    [GRAPHIC] [TIFF OMITTED] T8060A.413
    
    [GRAPHIC] [TIFF OMITTED] T8060A.414
    
    [GRAPHIC] [TIFF OMITTED] T8060A.415
    
    [GRAPHIC] [TIFF OMITTED] T8060A.416
    
    [GRAPHIC] [TIFF OMITTED] T8060A.417
    
    [GRAPHIC] [TIFF OMITTED] T8060A.418
    
    [GRAPHIC] [TIFF OMITTED] T8060A.419
    
    [GRAPHIC] [TIFF OMITTED] T8060A.420
    
    [GRAPHIC] [TIFF OMITTED] T8060A.421
    
    [GRAPHIC] [TIFF OMITTED] T8060A.422
    
    [GRAPHIC] [TIFF OMITTED] T8060A.423
    
    [GRAPHIC] [TIFF OMITTED] T8060A.424
    
    [GRAPHIC] [TIFF OMITTED] T8060A.425
    
    [GRAPHIC] [TIFF OMITTED] T8060A.426
    
    [GRAPHIC] [TIFF OMITTED] T8060A.427
    
    [GRAPHIC] [TIFF OMITTED] T8060A.428
    
    [GRAPHIC] [TIFF OMITTED] T8060A.429
    
    [GRAPHIC] [TIFF OMITTED] T8060A.430
    
    [GRAPHIC] [TIFF OMITTED] T8060A.431
    
    [GRAPHIC] [TIFF OMITTED] T8060A.432
    
    [GRAPHIC] [TIFF OMITTED] T8060A.433
    
    [GRAPHIC] [TIFF OMITTED] T8060A.434
    
    [GRAPHIC] [TIFF OMITTED] T8060A.435
    
    [GRAPHIC] [TIFF OMITTED] T8060A.436
    
    [GRAPHIC] [TIFF OMITTED] T8060A.437
    
    [GRAPHIC] [TIFF OMITTED] T8060A.438
    
    [GRAPHIC] [TIFF OMITTED] T8060A.439
    
    [GRAPHIC] [TIFF OMITTED] T8060A.440
    
    [GRAPHIC] [TIFF OMITTED] T8060A.441
    
    [GRAPHIC] [TIFF OMITTED] T8060A.442
    
    [GRAPHIC] [TIFF OMITTED] T8060A.443
    
    [GRAPHIC] [TIFF OMITTED] T8060A.444
    
    [GRAPHIC] [TIFF OMITTED] T8060A.445
    
    [GRAPHIC] [TIFF OMITTED] T8060A.446
    
    [GRAPHIC] [TIFF OMITTED] T8060A.447
    
    [GRAPHIC] [TIFF OMITTED] T8060A.448
    
    [GRAPHIC] [TIFF OMITTED] T8060A.449
    
    [GRAPHIC] [TIFF OMITTED] T8060A.450
    
    [GRAPHIC] [TIFF OMITTED] T8060A.451
    
    [GRAPHIC] [TIFF OMITTED] T8060A.452
    
    [GRAPHIC] [TIFF OMITTED] T8060A.453
    
    [GRAPHIC] [TIFF OMITTED] T8060A.454
    
    [GRAPHIC] [TIFF OMITTED] T8060A.455
    
    [GRAPHIC] [TIFF OMITTED] T8060A.456
    
    [GRAPHIC] [TIFF OMITTED] T8060A.457
    
    [GRAPHIC] [TIFF OMITTED] T8060A.458
    
    [GRAPHIC] [TIFF OMITTED] T8060A.459
    
    [GRAPHIC] [TIFF OMITTED] T8060A.460
    
    [GRAPHIC] [TIFF OMITTED] T8060A.461
    
    [GRAPHIC] [TIFF OMITTED] T8060A.462
    
    [GRAPHIC] [TIFF OMITTED] T8060A.463
    
    [GRAPHIC] [TIFF OMITTED] T8060A.464
    
    [GRAPHIC] [TIFF OMITTED] T8060A.465
    
    [GRAPHIC] [TIFF OMITTED] T8060A.466
    
    [GRAPHIC] [TIFF OMITTED] T8060A.467
    
    [GRAPHIC] [TIFF OMITTED] T8060A.468
    
    [GRAPHIC] [TIFF OMITTED] T8060A.469
    
    [GRAPHIC] [TIFF OMITTED] T8060A.470
    
    [GRAPHIC] [TIFF OMITTED] T8060A.471
    
    [GRAPHIC] [TIFF OMITTED] T8060A.472
    
    [GRAPHIC] [TIFF OMITTED] T8060A.473
    
    [GRAPHIC] [TIFF OMITTED] T8060A.474
    
    [GRAPHIC] [TIFF OMITTED] T8060A.475
    
    [GRAPHIC] [TIFF OMITTED] T8060A.476
    
    [GRAPHIC] [TIFF OMITTED] T8060A.477
    
    [GRAPHIC] [TIFF OMITTED] T8060A.478
    
    [GRAPHIC] [TIFF OMITTED] T8060A.479
    
    [GRAPHIC] [TIFF OMITTED] T8060A.480
    
    [GRAPHIC] [TIFF OMITTED] T8060A.481
    
    [GRAPHIC] [TIFF OMITTED] T8060A.482
    
    [GRAPHIC] [TIFF OMITTED] T8060A.483
    
    [GRAPHIC] [TIFF OMITTED] T8060A.484
    
    [GRAPHIC] [TIFF OMITTED] T8060A.485
    
    [GRAPHIC] [TIFF OMITTED] T8060A.486
    
    [GRAPHIC] [TIFF OMITTED] T8060A.487
    
    [GRAPHIC] [TIFF OMITTED] T8060A.488
    
    [GRAPHIC] [TIFF OMITTED] T8060A.489
    
    [GRAPHIC] [TIFF OMITTED] T8060A.490
    
    [GRAPHIC] [TIFF OMITTED] T8060A.491
    
    [GRAPHIC] [TIFF OMITTED] T8060A.492
    
    [GRAPHIC] [TIFF OMITTED] T8060A.493
    
    [GRAPHIC] [TIFF OMITTED] T8060A.494
    
    [GRAPHIC] [TIFF OMITTED] T8060A.495
    
    [GRAPHIC] [TIFF OMITTED] T8060A.496
    
    [GRAPHIC] [TIFF OMITTED] T8060A.497
    
    [GRAPHIC] [TIFF OMITTED] T8060A.498
    
    [GRAPHIC] [TIFF OMITTED] T8060A.499
    
    [GRAPHIC] [TIFF OMITTED] T8060A.500
    
    [GRAPHIC] [TIFF OMITTED] T8060A.501
    
    [GRAPHIC] [TIFF OMITTED] T8060A.502
    
    [GRAPHIC] [TIFF OMITTED] T8060A.503
    
    [GRAPHIC] [TIFF OMITTED] T8060A.504
    
    [GRAPHIC] [TIFF OMITTED] T8060A.505
    
    [GRAPHIC] [TIFF OMITTED] T8060A.506
    
    [GRAPHIC] [TIFF OMITTED] T8060A.507
    
    [GRAPHIC] [TIFF OMITTED] T8060A.508
    
    [GRAPHIC] [TIFF OMITTED] T8060A.509
    
    [GRAPHIC] [TIFF OMITTED] T8060A.510
    
    [GRAPHIC] [TIFF OMITTED] T8060A.511
    
    [GRAPHIC] [TIFF OMITTED] T8060A.512
    
    [GRAPHIC] [TIFF OMITTED] T8060A.513
    
    [GRAPHIC] [TIFF OMITTED] T8060A.514
    
    [GRAPHIC] [TIFF OMITTED] T8060A.515
    
    [GRAPHIC] [TIFF OMITTED] T8060A.516
    
    [GRAPHIC] [TIFF OMITTED] T8060A.517
    
    [GRAPHIC] [TIFF OMITTED] T8060A.518
    
    [GRAPHIC] [TIFF OMITTED] T8060A.519
    
    [GRAPHIC] [TIFF OMITTED] T8060A.520
    
    [GRAPHIC] [TIFF OMITTED] T8060A.521
    
    [GRAPHIC] [TIFF OMITTED] T8060A.522
    
    [GRAPHIC] [TIFF OMITTED] T8060A.523
    
    [GRAPHIC] [TIFF OMITTED] T8060A.524
    
    [GRAPHIC] [TIFF OMITTED] T8060A.525
    
    [GRAPHIC] [TIFF OMITTED] T8060A.526
    
    [GRAPHIC] [TIFF OMITTED] T8060A.527
    
    [GRAPHIC] [TIFF OMITTED] T8060A.528
    
    [GRAPHIC] [TIFF OMITTED] T8060A.529
    
    [GRAPHIC] [TIFF OMITTED] T8060A.530
    
    [GRAPHIC] [TIFF OMITTED] T8060A.531
    
    [GRAPHIC] [TIFF OMITTED] T8060A.532
    
    [GRAPHIC] [TIFF OMITTED] T8060A.533
    
    [GRAPHIC] [TIFF OMITTED] T8060A.534
    
    [GRAPHIC] [TIFF OMITTED] T8060A.535
    
    [GRAPHIC] [TIFF OMITTED] T8060A.536
    
    [GRAPHIC] [TIFF OMITTED] T8060A.537
    
    [GRAPHIC] [TIFF OMITTED] T8060A.538
    
    [GRAPHIC] [TIFF OMITTED] T8060A.539
    
    [GRAPHIC] [TIFF OMITTED] T8060A.540
    
    [GRAPHIC] [TIFF OMITTED] T8060A.541
    
    [GRAPHIC] [TIFF OMITTED] T8060A.542
    
    [GRAPHIC] [TIFF OMITTED] T8060A.543
    
    [GRAPHIC] [TIFF OMITTED] T8060A.544
    
    [GRAPHIC] [TIFF OMITTED] T8060A.545
    
    [GRAPHIC] [TIFF OMITTED] T8060A.546
    
    [GRAPHIC] [TIFF OMITTED] T8060A.547
    
    [GRAPHIC] [TIFF OMITTED] T8060A.548
    
    [GRAPHIC] [TIFF OMITTED] T8060A.549
    
    [GRAPHIC] [TIFF OMITTED] T8060A.550
    
    [GRAPHIC] [TIFF OMITTED] T8060A.551
    
    [GRAPHIC] [TIFF OMITTED] T8060A.552
    
    [GRAPHIC] [TIFF OMITTED] T8060A.553
    
    [GRAPHIC] [TIFF OMITTED] T8060A.554
    
    [GRAPHIC] [TIFF OMITTED] T8060A.555
    
    [GRAPHIC] [TIFF OMITTED] T8060A.556
    
    [GRAPHIC] [TIFF OMITTED] T8060A.557
    
    [GRAPHIC] [TIFF OMITTED] T8060A.558
    
    [GRAPHIC] [TIFF OMITTED] T8060A.559
    
    [GRAPHIC] [TIFF OMITTED] T8060A.560
    
    [GRAPHIC] [TIFF OMITTED] T8060A.561
    
    [GRAPHIC] [TIFF OMITTED] T8060A.562
    
    [GRAPHIC] [TIFF OMITTED] T8060A.563
    
    [GRAPHIC] [TIFF OMITTED] T8060A.564
    
    [GRAPHIC] [TIFF OMITTED] T8060A.565
    
    [GRAPHIC] [TIFF OMITTED] T8060A.566
    
    [GRAPHIC] [TIFF OMITTED] T8060A.567
    
    [GRAPHIC] [TIFF OMITTED] T8060A.568
    
    [GRAPHIC] [TIFF OMITTED] T8060A.569
    
    [GRAPHIC] [TIFF OMITTED] T8060A.570
    
    [GRAPHIC] [TIFF OMITTED] T8060A.571
    
    [GRAPHIC] [TIFF OMITTED] T8060A.572
    
    [GRAPHIC] [TIFF OMITTED] T8060A.573
    
    [GRAPHIC] [TIFF OMITTED] T8060A.574
    
    [GRAPHIC] [TIFF OMITTED] T8060A.575
    
    [GRAPHIC] [TIFF OMITTED] T8060A.576
    
    [GRAPHIC] [TIFF OMITTED] T8060A.577
    
    [GRAPHIC] [TIFF OMITTED] T8060A.578
    
    [GRAPHIC] [TIFF OMITTED] T8060A.579
    
    [GRAPHIC] [TIFF OMITTED] T8060A.580
    
    [GRAPHIC] [TIFF OMITTED] T8060A.581
    
    [GRAPHIC] [TIFF OMITTED] T8060A.582
    
    [GRAPHIC] [TIFF OMITTED] T8060A.583
    
    [GRAPHIC] [TIFF OMITTED] T8060A.584
    
    [GRAPHIC] [TIFF OMITTED] T8060A.585
    
    [GRAPHIC] [TIFF OMITTED] T8060A.586
    
    [GRAPHIC] [TIFF OMITTED] T8060A.587
    
    [GRAPHIC] [TIFF OMITTED] T8060A.588
    
    [GRAPHIC] [TIFF OMITTED] T8060A.589
    
    [GRAPHIC] [TIFF OMITTED] T8060A.590
    
    [GRAPHIC] [TIFF OMITTED] T8060A.591
    
    [GRAPHIC] [TIFF OMITTED] T8060A.592
    
    [GRAPHIC] [TIFF OMITTED] T8060A.593
    
    [GRAPHIC] [TIFF OMITTED] T8060A.594
    
    [GRAPHIC] [TIFF OMITTED] T8060A.595
    
    [GRAPHIC] [TIFF OMITTED] T8060A.596
    
    [GRAPHIC] [TIFF OMITTED] T8060A.597
    
    [GRAPHIC] [TIFF OMITTED] T8060A.598
    
    [GRAPHIC] [TIFF OMITTED] T8060A.599
    
    [GRAPHIC] [TIFF OMITTED] T8060A.600
    
    [GRAPHIC] [TIFF OMITTED] T8060A.601
    
    [GRAPHIC] [TIFF OMITTED] T8060A.602
    
    [GRAPHIC] [TIFF OMITTED] T8060A.603
    
    [GRAPHIC] [TIFF OMITTED] T8060A.604
    
    [GRAPHIC] [TIFF OMITTED] T8060A.605
    
    [GRAPHIC] [TIFF OMITTED] T8060A.606
    
    [GRAPHIC] [TIFF OMITTED] T8060A.607
    
    [GRAPHIC] [TIFF OMITTED] T8060A.608
    
    [GRAPHIC] [TIFF OMITTED] T8060A.609
    
    [GRAPHIC] [TIFF OMITTED] T8060A.610
    
    [GRAPHIC] [TIFF OMITTED] T8060A.611
    
    [GRAPHIC] [TIFF OMITTED] T8060A.612
    
    [GRAPHIC] [TIFF OMITTED] T8060A.613
    
    [GRAPHIC] [TIFF OMITTED] T8060A.614
    
    [GRAPHIC] [TIFF OMITTED] T8060A.615
    
    [GRAPHIC] [TIFF OMITTED] T8060A.616
    
    [GRAPHIC] [TIFF OMITTED] T8060A.617
    
    [GRAPHIC] [TIFF OMITTED] T8060A.618
    
    [GRAPHIC] [TIFF OMITTED] T8060A.619
    
    [GRAPHIC] [TIFF OMITTED] T8060A.620
    
    [GRAPHIC] [TIFF OMITTED] T8060A.621
    
    [GRAPHIC] [TIFF OMITTED] T8060A.622
    
    [GRAPHIC] [TIFF OMITTED] T8060A.623
    
    [GRAPHIC] [TIFF OMITTED] T8060A.624
    
    [GRAPHIC] [TIFF OMITTED] T8060A.625
    
    [GRAPHIC] [TIFF OMITTED] T8060A.626
    
    [GRAPHIC] [TIFF OMITTED] T8060A.627
    
    [GRAPHIC] [TIFF OMITTED] T8060A.628
    
    [GRAPHIC] [TIFF OMITTED] T8060A.629
    
    [GRAPHIC] [TIFF OMITTED] T8060A.630
    
    [GRAPHIC] [TIFF OMITTED] T8060A.631
    
    [GRAPHIC] [TIFF OMITTED] T8060A.632
    
    [GRAPHIC] [TIFF OMITTED] T8060A.633
    
    [GRAPHIC] [TIFF OMITTED] T8060A.634
    
    [GRAPHIC] [TIFF OMITTED] T8060A.635
    
    [GRAPHIC] [TIFF OMITTED] T8060A.636
    
    [GRAPHIC] [TIFF OMITTED] T8060A.637
    
    [GRAPHIC] [TIFF OMITTED] T8060A.638
    
    [GRAPHIC] [TIFF OMITTED] T8060A.639
    
    [GRAPHIC] [TIFF OMITTED] T8060A.640
    
    [GRAPHIC] [TIFF OMITTED] T8060A.641
    
    [GRAPHIC] [TIFF OMITTED] T8060A.642
    
    [GRAPHIC] [TIFF OMITTED] T8060A.643
    
    [GRAPHIC] [TIFF OMITTED] T8060A.644
    
    [GRAPHIC] [TIFF OMITTED] T8060A.645
    
    [GRAPHIC] [TIFF OMITTED] T8060A.646
    
    [GRAPHIC] [TIFF OMITTED] T8060A.647
    
    [GRAPHIC] [TIFF OMITTED] T8060A.648
    
    [GRAPHIC] [TIFF OMITTED] T8060A.649
    
    [GRAPHIC] [TIFF OMITTED] T8060A.650
    
    [GRAPHIC] [TIFF OMITTED] T8060A.651
    
    [GRAPHIC] [TIFF OMITTED] T8060A.652
    
    [GRAPHIC] [TIFF OMITTED] T8060A.653
    
    [GRAPHIC] [TIFF OMITTED] T8060A.654
    
    [GRAPHIC] [TIFF OMITTED] T8060A.655
    
    [GRAPHIC] [TIFF OMITTED] T8060A.656
    
    [GRAPHIC] [TIFF OMITTED] T8060A.657
    
    [GRAPHIC] [TIFF OMITTED] T8060A.658
    
    [GRAPHIC] [TIFF OMITTED] T8060A.659
    
    [GRAPHIC] [TIFF OMITTED] T8060A.660
    
    [GRAPHIC] [TIFF OMITTED] T8060A.661
    
    [GRAPHIC] [TIFF OMITTED] T8060A.662
    
    [GRAPHIC] [TIFF OMITTED] T8060A.663
    
    [GRAPHIC] [TIFF OMITTED] T8060A.664
    
    [GRAPHIC] [TIFF OMITTED] T8060A.665
    
    [GRAPHIC] [TIFF OMITTED] T8060A.666
    
    [GRAPHIC] [TIFF OMITTED] T8060A.667
    
    [GRAPHIC] [TIFF OMITTED] T8060A.668
    
    [GRAPHIC] [TIFF OMITTED] T8060A.669
    
    [GRAPHIC] [TIFF OMITTED] T8060A.670
    
    [GRAPHIC] [TIFF OMITTED] T8060A.671
    
    [GRAPHIC] [TIFF OMITTED] T8060A.672
    
    [GRAPHIC] [TIFF OMITTED] T8060A.673
    
    [GRAPHIC] [TIFF OMITTED] T8060A.674
    
    [GRAPHIC] [TIFF OMITTED] T8060A.675
    
    [GRAPHIC] [TIFF OMITTED] T8060A.676
    
    [GRAPHIC] [TIFF OMITTED] T8060A.677
    
    [GRAPHIC] [TIFF OMITTED] T8060A.678
    
    [GRAPHIC] [TIFF OMITTED] T8060A.679
    
    [GRAPHIC] [TIFF OMITTED] T8060A.680
    
    [GRAPHIC] [TIFF OMITTED] T8060A.681
    
    [GRAPHIC] [TIFF OMITTED] T8060A.682
    
    [GRAPHIC] [TIFF OMITTED] T8060A.683
    
    [GRAPHIC] [TIFF OMITTED] T8060A.684
    
    [GRAPHIC] [TIFF OMITTED] T8060A.685
    
    [GRAPHIC] [TIFF OMITTED] T8060A.686
    
    [GRAPHIC] [TIFF OMITTED] T8060A.687
    
    [GRAPHIC] [TIFF OMITTED] T8060A.688
    
    [GRAPHIC] [TIFF OMITTED] T8060A.689
    
    [GRAPHIC] [TIFF OMITTED] T8060A.690
    
    [GRAPHIC] [TIFF OMITTED] T8060A.691
    
    [GRAPHIC] [TIFF OMITTED] T8060A.692
    
    [GRAPHIC] [TIFF OMITTED] T8060A.693
    
    [GRAPHIC] [TIFF OMITTED] T8060A.694
    
    [GRAPHIC] [TIFF OMITTED] T8060A.695
    
    [GRAPHIC] [TIFF OMITTED] T8060A.696
    
    [GRAPHIC] [TIFF OMITTED] T8060A.697
    
    [GRAPHIC] [TIFF OMITTED] T8060A.698
    
    [GRAPHIC] [TIFF OMITTED] T8060A.699
    
    [GRAPHIC] [TIFF OMITTED] T8060A.700
    
    [GRAPHIC] [TIFF OMITTED] T8060A.701
    
    [GRAPHIC] [TIFF OMITTED] T8060A.702
    
    [GRAPHIC] [TIFF OMITTED] T8060A.703
    
    [GRAPHIC] [TIFF OMITTED] T8060A.704
    
    [GRAPHIC] [TIFF OMITTED] T8060A.705
    
    [GRAPHIC] [TIFF OMITTED] T8060A.706
    
    [GRAPHIC] [TIFF OMITTED] T8060A.707
    
    [GRAPHIC] [TIFF OMITTED] T8060A.708
    
    [GRAPHIC] [TIFF OMITTED] T8060A.709
    
    [GRAPHIC] [TIFF OMITTED] T8060A.710
    
    [GRAPHIC] [TIFF OMITTED] T8060A.711
    
    [GRAPHIC] [TIFF OMITTED] T8060A.712
    
    [GRAPHIC] [TIFF OMITTED] T8060A.713
    
    [GRAPHIC] [TIFF OMITTED] T8060A.714
    
    [GRAPHIC] [TIFF OMITTED] T8060A.715
    
    [GRAPHIC] [TIFF OMITTED] T8060A.716
    
    [GRAPHIC] [TIFF OMITTED] T8060A.717
    
    [GRAPHIC] [TIFF OMITTED] T8060A.718
    
    [GRAPHIC] [TIFF OMITTED] T8060A.719
    
    [GRAPHIC] [TIFF OMITTED] T8060A.720
    
    [GRAPHIC] [TIFF OMITTED] T8060A.721
    
    [GRAPHIC] [TIFF OMITTED] T8060A.722
    
    [GRAPHIC] [TIFF OMITTED] T8060A.723
    
    [GRAPHIC] [TIFF OMITTED] T8060A.724
    
    [GRAPHIC] [TIFF OMITTED] T8060A.725
    
    [GRAPHIC] [TIFF OMITTED] T8060A.726
    
    [GRAPHIC] [TIFF OMITTED] T8060A.727
    
    [GRAPHIC] [TIFF OMITTED] T8060A.728
    
    [GRAPHIC] [TIFF OMITTED] T8060A.729
    
    [GRAPHIC] [TIFF OMITTED] T8060A.730
    
    [GRAPHIC] [TIFF OMITTED] T8060A.731
    
    [GRAPHIC] [TIFF OMITTED] T8060A.732
    
    [GRAPHIC] [TIFF OMITTED] T8060A.733
    
    [GRAPHIC] [TIFF OMITTED] T8060A.734
    
    [GRAPHIC] [TIFF OMITTED] T8060A.735
    
    [GRAPHIC] [TIFF OMITTED] T8060A.736
    
    [GRAPHIC] [TIFF OMITTED] T8060A.737
    
    [GRAPHIC] [TIFF OMITTED] T8060A.738
    
    [GRAPHIC] [TIFF OMITTED] T8060A.739
    
    [GRAPHIC] [TIFF OMITTED] T8060A.740
    
    [GRAPHIC] [TIFF OMITTED] T8060A.741
    
    [GRAPHIC] [TIFF OMITTED] T8060A.742
    
    [GRAPHIC] [TIFF OMITTED] T8060A.743
    
    [GRAPHIC] [TIFF OMITTED] T8060A.744
    
    [GRAPHIC] [TIFF OMITTED] T8060A.745
    
    [GRAPHIC] [TIFF OMITTED] T8060A.746
    
    [GRAPHIC] [TIFF OMITTED] T8060A.747
    
    [GRAPHIC] [TIFF OMITTED] T8060A.748
    
    [GRAPHIC] [TIFF OMITTED] T8060A.749
    
    [GRAPHIC] [TIFF OMITTED] T8060A.750
    
    [GRAPHIC] [TIFF OMITTED] T8060A.751
    
    [GRAPHIC] [TIFF OMITTED] T8060A.752
    
    [GRAPHIC] [TIFF OMITTED] T8060A.753
    
    [GRAPHIC] [TIFF OMITTED] T8060A.754
    
    [GRAPHIC] [TIFF OMITTED] T8060A.755
    
    [GRAPHIC] [TIFF OMITTED] T8060A.756
    
    [GRAPHIC] [TIFF OMITTED] T8060A.757
    
    [GRAPHIC] [TIFF OMITTED] T8060A.758
    
    [GRAPHIC] [TIFF OMITTED] T8060A.759
    
    [GRAPHIC] [TIFF OMITTED] T8060A.760
    
    [GRAPHIC] [TIFF OMITTED] T8060A.761
    
    [GRAPHIC] [TIFF OMITTED] T8060A.762
    
    [GRAPHIC] [TIFF OMITTED] T8060A.763
    
    [GRAPHIC] [TIFF OMITTED] T8060A.764
    
    [GRAPHIC] [TIFF OMITTED] T8060A.765
    
    [GRAPHIC] [TIFF OMITTED] T8060A.766
    
    [GRAPHIC] [TIFF OMITTED] T8060A.767
    
    [GRAPHIC] [TIFF OMITTED] T8060A.768
    
    [GRAPHIC] [TIFF OMITTED] T8060A.769
    
    [GRAPHIC] [TIFF OMITTED] T8060A.770
    
    [GRAPHIC] [TIFF OMITTED] T8060A.771
    
    [GRAPHIC] [TIFF OMITTED] T8060A.772
    
    [GRAPHIC] [TIFF OMITTED] T8060A.773
    
    [GRAPHIC] [TIFF OMITTED] T8060A.774
    
    [GRAPHIC] [TIFF OMITTED] T8060A.775
    
    [GRAPHIC] [TIFF OMITTED] T8060A.776
    
    [GRAPHIC] [TIFF OMITTED] T8060A.777
    
    [GRAPHIC] [TIFF OMITTED] T8060A.778
    
    [GRAPHIC] [TIFF OMITTED] T8060A.779
    
    [GRAPHIC] [TIFF OMITTED] T8060A.780
    
    [GRAPHIC] [TIFF OMITTED] T8060A.781
    
    [GRAPHIC] [TIFF OMITTED] T8060A.782
    
    [GRAPHIC] [TIFF OMITTED] T8060A.783
    
    [GRAPHIC] [TIFF OMITTED] T8060A.784
    
    [GRAPHIC] [TIFF OMITTED] T8060A.785
    
    [GRAPHIC] [TIFF OMITTED] T8060A.786
    
    [GRAPHIC] [TIFF OMITTED] T8060A.787
    
    [GRAPHIC] [TIFF OMITTED] T8060A.788
    
    [GRAPHIC] [TIFF OMITTED] T8060A.789
    
    [GRAPHIC] [TIFF OMITTED] T8060A.790
    
    [GRAPHIC] [TIFF OMITTED] T8060A.791
    
    [GRAPHIC] [TIFF OMITTED] T8060A.792
    
    [GRAPHIC] [TIFF OMITTED] T8060A.793
    
    [GRAPHIC] [TIFF OMITTED] T8060A.794
    
    [GRAPHIC] [TIFF OMITTED] T8060A.795
    
    [GRAPHIC] [TIFF OMITTED] T8060A.796
    
    [GRAPHIC] [TIFF OMITTED] T8060A.797
    
    [GRAPHIC] [TIFF OMITTED] T8060A.798
    
    [GRAPHIC] [TIFF OMITTED] T8060A.799
    
    [GRAPHIC] [TIFF OMITTED] T8060A.800
    
    [GRAPHIC] [TIFF OMITTED] T8060A.801
    
    [GRAPHIC] [TIFF OMITTED] T8060A.802
    
    [GRAPHIC] [TIFF OMITTED] T8060A.803
    
    [GRAPHIC] [TIFF OMITTED] T8060A.804
    
    [GRAPHIC] [TIFF OMITTED] T8060A.805
    
    [GRAPHIC] [TIFF OMITTED] T8060A.806
    
    [GRAPHIC] [TIFF OMITTED] T8060A.807
    
    [GRAPHIC] [TIFF OMITTED] T8060A.808
    
    [GRAPHIC] [TIFF OMITTED] T8060A.809
    
    [GRAPHIC] [TIFF OMITTED] T8060A.810
    
    [GRAPHIC] [TIFF OMITTED] T8060A.811
    
    [GRAPHIC] [TIFF OMITTED] T8060A.812
    
    [GRAPHIC] [TIFF OMITTED] T8060A.814
    
    [GRAPHIC] [TIFF OMITTED] T8060A.815
    
    [GRAPHIC] [TIFF OMITTED] T8060A.816
    
    [GRAPHIC] [TIFF OMITTED] T8060A.817
    
    [GRAPHIC] [TIFF OMITTED] T8060A.818
    
    [GRAPHIC] [TIFF OMITTED] T8060A.819
    
    [GRAPHIC] [TIFF OMITTED] T8060A.820
    
    [GRAPHIC] [TIFF OMITTED] T8060A.821
    
    [GRAPHIC] [TIFF OMITTED] T8060A.822
    
    [GRAPHIC] [TIFF OMITTED] T8060A.823
    
    [GRAPHIC] [TIFF OMITTED] T8060A.824
    
    [GRAPHIC] [TIFF OMITTED] T8060A.825
    
    [GRAPHIC] [TIFF OMITTED] T8060A.826
    
    [GRAPHIC] [TIFF OMITTED] T8060A.827
    
    [GRAPHIC] [TIFF OMITTED] T8060A.828
    
    [GRAPHIC] [TIFF OMITTED] T8060A.829
    
    [GRAPHIC] [TIFF OMITTED] T8060A.830
    
    [GRAPHIC] [TIFF OMITTED] T8060A.831
    
    [GRAPHIC] [TIFF OMITTED] T8060A.832
    
    [GRAPHIC] [TIFF OMITTED] T8060A.833
    
    [GRAPHIC] [TIFF OMITTED] T8060A.834
    
    [GRAPHIC] [TIFF OMITTED] T8060A.835
    
    [GRAPHIC] [TIFF OMITTED] T8060A.836
    
    [GRAPHIC] [TIFF OMITTED] T8060A.837
    
    [GRAPHIC] [TIFF OMITTED] T8060A.838
    
    [GRAPHIC] [TIFF OMITTED] T8060A.839
    
    [GRAPHIC] [TIFF OMITTED] T8060A.840
    
    [GRAPHIC] [TIFF OMITTED] T8060A.841
    
    [GRAPHIC] [TIFF OMITTED] T8060A.842
    
    [GRAPHIC] [TIFF OMITTED] T8060A.843
    
    [GRAPHIC] [TIFF OMITTED] T8060A.844
    
    [GRAPHIC] [TIFF OMITTED] T8060A.845
    
    [GRAPHIC] [TIFF OMITTED] T8060P3.001
    


                               I N D E X

                              ----------                              
                                                                   Page
Science & Technology (S&T).......................................     1
Biography: Tara O'Toole..........................................    27
Cybersecurity....................................................    29
Geospatial Location Devices......................................    32
National Bio and Agro-Defense Facility...........................    33
Opening Statement:
    Chairman Aderholt............................................     1
    Ranking Member Price.........................................     6
    Under Secretary O'Toole......................................    11
Portable Emergency Operations Center.............................    32
R&D Funding......................................................    30
Radiation Detectors..............................................    33
S&T Priorities...................................................    28
Self-Contained Breathing Apparatus...............................    32

National Protection and Programs Directorate (NPPD)..............   159
Biography:
    Rand Beers...................................................   179
    Phil Reitinger...............................................   181
Opening Statement:
    Chairman Aderholt............................................   160
    Ranking Member Price.........................................   164
    Under Secretary Beers & Deputy Under Secretary Reitinger.....   166

Terrorist Travel: Programs and Funding...........................   239
Biography:
    Timothy Healy................................................   245
    Kevin K. McAleenan...........................................   246
    Geoff O'Connell..............................................   248
    Joseph C. Salvator...........................................   249
    Benjamin J. Stefano..........................................   250
Opening Statement:
    Chairman Aderholt............................................   240

WMD Countermeasures: Threat, Programs, and Funding...............   251
Advanced Spectroscopic Portal Devices:
    Certification Process........................................   296
    Implementing Recommendations.................................   291
Agro-Terrorism...................................................   295
Anthrax Vaccine..................................................   296
Biography:
    Warren Stern.................................................   275
    Dr. Alexander G. Garza.......................................   284
Biosurveillance..................................................   287
Biowatch Generation 3:
    Comparison to Gen-1 & Gen-2..................................   297
    Naturally Occurring vs. Intentional Pathogens................   301
    Pathogen Detection...........................................   299
    Testing & Evaluation.........................................   299
Current Threat...................................................   285
Domestic Nuclear Detection Office: Structure & Priorities........   286
Global Nuclear Detection Architecture:
    Gaps.........................................................   302
    Strategic Plan...............................................   293
Government Shutdown: Contingency Plan............................   297
Nuclear Forensics................................................   303
Opening Statement:
    Chairman Aderholt............................................   251
    Director Stern...............................................   261
    Dr. Garza....................................................   276
    Ranking Member Price.........................................   257
Federal Emergency Management Agency (FEMA).......................   357
Biography: Craig Fugate..........................................   389
Catastrophic Planning............................................   411
Data Backup System...............................................   397
Disaster Assistance Overpayments.................................   398
Disaster Relief Fund.............................................   390
Disaster Response: Budget Cuts...................................   412
Federal Emergency Management Agency: Effectiveness...............   403
Grants:
    Assistance to Firefighters...................................   394
    First Responder..............................................   413
    Staffing for Adequate Fire and Emergency Response............   393
    Transit Security and Port....................................   415
    Immigration and Customs Enforcement..........................   404
Mt. Weather: Capital Improvement Plans...........................   418
National Level Exercise..........................................   401
National Flood Insurance Program:
    Coverage.....................................................   394
    Levee Accreditation..........................................   416
Nuclear Crisis: Evacuation Planning..............................   405
Opening Statement:
    Chairman Aderholt............................................   357
    Administrator Fugate.........................................   372
    Ranking Member Price.........................................   367
Preparedness Capabilities........................................   400
Remedial Action Management Program...............................   396

Outside Witnesses................................................   889
William Chandler.................................................   909
Colleen Kelley...................................................   900
William Millar...................................................   916
Jim Mullen.......................................................   911
Patricia W. Potrzebowski.........................................   905
Rep. Silvestre Reyes.............................................   890
Rep. Laura Richardson............................................   895

                                  <all>

</pre></body></html>
